<html>
<title> - NOMINATIONS OF JEFFREY I. KESSLER, TO BE ASSISTANT SECRETARY FOR ENFORCEMENT AND COMPLIANCE, DEPARTMENT OF COMMERCE; ELIZABETH ANN COPELAND, TO BE A JUDGE OF THE UNITED STATES TAX COURT; PATRICK J. URDA, TO BE A JUDGE OF THE UNITED STATES TAX COURT; AMY KARPEL, TO BE A MEMBER OF THE UNITED STATES INTERNATIONAL TRADE COMMISSION; AND RANDOLPH J. STAYIN, TO BE A MEMBER OF THE UNITED STATES INTERNATIONAL TRADE COMMISSION</title>
<body><pre>[Senate Hearing 115-717]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-717

                   NOMINATIONS OF JEFFREY I. KESSLER,
 ELIZABETH ANN COPELAND, PATRICK J. URDA, AMY KARPEL, AND RANDOLPH J. 
                                 STAYIN

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                ON THE

                             NOMINATIONS OF

   JEFFREY I. KESSLER, TO BE ASSISTANT SECRETARY FOR ENFORCEMENT AND 
  COMPLIANCE, DEPARTMENT OF COMMERCE; ELIZABETH ANN COPELAND, TO BE A 
JUDGE OF THE UNITED STATES TAX COURT; PATRICK J. URDA, TO BE A JUDGE OF 
 THE UNITED STATES TAX COURT; AMY KARPEL, TO BE A MEMBER OF THE UNITED 
STATES INTERNATIONAL TRADE COMMISSION; AND RANDOLPH J. STAYIN, TO BE A 
       MEMBER OF THE UNITED STATES INTERNATIONAL TRADE COMMISSION

                               __________

                             JUNE 12, 2018

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     
                                     

            Printed for the use of the Committee on Finance


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-445 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

                     A. Jay Khosla, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)
                                  
                                  
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Hatch, Hon. Orrin G., a U.S. Senator from Utah, chairman, 
  Committee on Finance...........................................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3
Cornyn, Hon. John, a U.S. Senator from Texas.....................     4

                        CONGRESSIONAL WITNESSES

Donnelly, Hon. Joe, a U.S. Senator from Indiana..................     5
Young, Hon. Todd, a U.S. Senator from Indiana....................     6

                        ADMINISTRATION NOMINEES

Kessler, Jeffrey I., nominated to be Assistant Secretary for 
  Enforcement and Compliance, Department of Commerce, Washington, 
  DC.............................................................     8
Copeland, Elizabeth Ann, nominated to be a judge of the United 
  States Tax Court, Washington, DC...............................     9
Urda, Patrick J., nominated to be a judge of the United States 
  Tax Court, Washington, DC......................................    10
Karpel, Amy, nominated to be a member of the United States 
  International Trade Commission, Washington, DC.................    12
Stayin, Randolph J., nominated to be a member of the United 
  States International Trade Commission, Washington, DC..........    13

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Copeland, Elizabeth Ann:
    Testimony....................................................     9
    Prepared statement...........................................    23
    Biographical information.....................................    24
    Responses to questions from committee members................    43
Cornyn, Hon. John:
    Opening statement............................................     4
Donnelly, Hon. Joe:
    Testimony....................................................     5
Hatch, Hon. Orrin G.:
    Opening statement............................................     1
    Prepared statement...........................................    43
Karpel, Amy:
    Testimony....................................................    12
    Prepared statement...........................................    44
    Biographical information.....................................    45
    Responses to questions from committee members................    49
Kessler, Jeffrey I.:
    Testimony....................................................     8
    Prepared statement...........................................    54
    Biographical information.....................................    55
    Responses to questions from committee members................    60
Stayin, Randolph J.:
    Testimony....................................................    13
    Prepared statement...........................................    65
    Biographical information.....................................    66
    Responses to questions from committee members................    73
Urda, Patrick J.:
    Testimony....................................................    10
    Prepared statement...........................................    78
    Biographical information.....................................    79
    Responses to questions from committee members................    82
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    83
Young, Hon. Todd:
    Testimony....................................................     6

 
                   NOMINATIONS OF JEFFREY I. KESSLER,
                     TO BE ASSISTANT SECRETARY FOR
                      ENFORCEMENT AND COMPLIANCE,
                   DEPARTMENT OF COMMERCE; ELIZABETH
                   ANN COPELAND, TO BE A JUDGE OF THE
               UNITED STATES TAX COURT; PATRICK J. URDA, 
                          TO BE A JUDGE OF THE
                  UNITED STATES TAX COURT; AMY KARPEL,
                  TO BE A MEMBER OF THE UNITED STATES
                    INTERNATIONAL TRADE COMMISSION;
                    AND RANDOLPH J. STAYIN, TO BE A
                      MEMBER OF THE UNITED STATES
                     INTERNATIONAL TRADE COMMISSION

                              ----------                              


                         TUESDAY, JUNE 12, 2018

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:07 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. 
Orrin G. Hatch (chairman of the committee) presiding.
    Present: Senators Crapo, Cornyn, Thune, Toomey, Heller, Wy-
den, Cantwell, Nelson, Carper, Cardin, Casey, and McCaskill.
    Also present: Republican staff: Chris Allen, Senior Advisor 
for Benefits and Exempt Organizations; Becky Cole, Policy 
Director; Jeffrey Wrase, Staff Director; and Nicholas Wyatt, 
Tax and Nominations Professional Staff Member. Democratic 
staff: Michael Evans, General Counsel; Ian Nicholson, 
Investigator; Joshua Sheinkman, Staff Director; and Tiffany 
Smith, Chief Tax Counsel.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
              UTAH, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    With the permission of Senator Wyden, we are going to move 
ahead here. He will be here in a few minutes.
    I would like to welcome everyone here today to today's 
hearing on five of this committee's pending nominations. Today 
we will have an opportunity to hear from nominees for three 
trade policy positions and two nominees to be tax judges.
    Each of these positions is key in enforcing the work and 
legislation that we produce from this particular committee.
    Our first nominee is Mr. Jeffrey Kessler, who has been 
nominated to serve as Assistant Secretary for Enforcement and 
Compliance at the Department of Commerce. This is a position 
that is responsible for administering antidumping and 
countervailing duty trade laws and ensuring compliance with 
trade agreements negotiated on behalf of U.S. industries.
    If confirmed, Mr. Kessler will need to fully and faithfully 
administer U.S. trade remedy laws.
    As I have said before, it is important that the Department 
of Commerce consult closely with Congress and members of this 
committee. And frankly, there is room for improvement in that 
department. I expect Mr. Kessler to be an asset in improving 
that relationship.
    Today we also have two tax judges, Ms. Elizabeth Ann 
Copeland and Mr. Patrick J. Urda. The Tax Court is important 
for many reasons, not the least of which is that it allows 
taxpayers to challenge a liability before paying it. It is a 
venue for everyone, from large corporations to individual 
taxpayers, to get a fair and impartial hearing when a 
disagreement arises with the Internal Revenue Service.
    We are honored today to be joined by Chief Judge Maurice 
Foley, Judge Tamara Ashford, Judge John Colvin, Judge Albert 
Lauber, Judge Cary Pugh, and Special Trial Judge Diana Leyden.
    Thank you all for attending here today.
    Just last year, we signed into law the Tax Cuts and Jobs 
Act as the largest reform of the tax code in more than 3 
decades. We recognize there will potentially be some large 
questions for the Tax Court.
    More than ever, we need brilliant minds to do this 
important work. Given their credentials, I trust that Ms. 
Copeland and Mr. Urda will be just what our country needs for 
the Tax Court to continue to give taxpayers a fair hearing as 
the TCJA is implemented.
    Finally, we also have before us two nominees to the 
International Trade Commission, Ms. Amy Karpel and Mr. Randy 
Stayin.
    Ms. Karpel and Mr. Stayin, as nominees to be Commissioners 
of the International Trade Commission, you will play important 
roles in administering our trade remedy laws and providing 
Congress and the administration with unbiased, independent 
analysis.
    Now, this work is becoming more important than ever, as far 
as I am concerned, as trade has become an increasingly larger 
part of our economy and businesses of all sizes rely on imports 
and exports.
    I expect that each of you will continue the good work of 
the ITC in administering our trade remedy laws in a fair and 
unbiased manner.
    I want to thank all five of you for your dedication to our 
country and your willingness to serve. As I have looked through 
each of your respective resumes, it is clear that the President 
has selected individuals who are well-qualified to serve in 
these important posts.
    And I hope to see each of you working to improve our 
country as soon as practicable.
    With that, I am going to turn to Senator Wyden, our ranking 
member, for his opening statement.
    [The prepared statement of Chairman Hatch appears in the 
appendix.]

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    We are, as you noted, meeting today to discuss five 
nominations that are important positions for the executive 
branch.
    Mr. Jeffrey Kessler has been nominated to serve as 
Assistant Commerce Secretary for Enforcement and Compliance. 
Ms. Amy Karpel and Mr. Randy Stayin are nominated to serve on 
the U.S. International Trade Commission. And Ms. Elizabeth Ann 
Copeland and Mr. Patrick Urda are nominated to serve as judges 
on the Tax Court.
    I am going to speak briefly on each, beginning with the 
three trade-related nominations.
    I think it is an understatement to say that this 
administration swept into office with a wave of tough talk when 
it came to trade and creating manufacturing jobs here at home.
    I do believe NAFTA needs renegotiating. I agree that the 
United States needs to step up with tough actions against 
China's abusive trade practices. There is no question in my 
mind that China has ripped off our technological innovation and 
that this has had serious consequences for American employers.
    After a year and a half of work, however, the Trump 
administration has managed to unite our traditional allies with 
China against us. Now, that really takes some doing, because if 
you want a full-court press to deal with China, you want as 
many of your traditional allies and partners with you. And so, 
in a sort of head-scratching kind of way, the President decided 
to alienate a big group of allies whom we very much need to 
have with us as we take on these trade abuses with China.
    This gives China a better chance to get away with cheating 
on trade scot-free. Instead of creating American jobs, this 
trade policy, in a nutshell, creates yet more chaos.
    With respect to today's hearing, the good news is that the 
three trade-related nominees before us are all set to fill 
enforcement-
related positions. This is particularly important because, if 
you are pro-trade--and I make no bones about it: I think what 
we ought to be doing is growing things in America, making 
things in America, adding value to them in America, and then 
shipping them all over the world.
    The prerequisite to generating more trade is to sharpen 
trade enforcement and the tools that are on the books to 
protect American workers.
    Mr. Kessler would fill one of the top jobs at the 
International Trade Administration within the Commerce 
Department. Ms. Karpel and Mr. Stayin would play key roles as 
Commissioners at the ITC helping to make sure American trade 
policies benefit our workers and our businesses.
    I consider all three of these individuals to be qualified. 
I look forward to discussing enforcement issues further with 
them.
    Next, Ms. Copeland and Mr. Urda are nominated to serve as 
Tax Court judges.
    I noted the chairman's comments with respect to the 
partisan-only tax bill that was passed in this Congress.
    I see Senator Nelson and Senator McCaskill here. On this 
side, we so wanted to have a bipartisan tax reform bill. And in 
fact, I wrote two actual bills, one with our former colleague 
Senator Coats, who sat right down there at the end of the dais.
    My sense is, given the confusion that this recent tax bill 
has generated--and Senator McCaskill has pointed out, just on 
the pass-through provision alone--you folks are going to have 
your hands full at the Tax Court in the days ahead.
    And of course, the Tax Court is the judicial backbone of 
the Federal tax code. It is the best opportunity Americans have 
to dispute tax bills before they have to pay, and it keeps them 
from getting stuck in slow-moving courts when they have a tax 
issue.
    It is a tough job, and they, as far as I can tell, spend a 
lot of time on the road.
    So to Ms. Copeland and Mr. Urda, we are pleased that you 
are willing to serve.
    Mr. Chairman, I appreciate your scheduling this hearing. 
And as is usually the case, while we can differ on some issues 
from time to time, most specifically this morning on the 
effects of the tax bill, we come together in many, many 
instances when we have an opportunity to pursue good 
government. And we have a chance to do that this morning. And I 
look forward to working with you.
    The Chairman. Well, thank you, Senator. I appreciate you. 
And you have worked well with me. And I hope we can continue to 
do so.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    The Chairman. I would like to extend a warm welcome to each 
of our five nominees today.
    I want to thank you all for coming.
    Before we get to that, though, I will briefly introduce 
each of you in the order you are set to give your opening 
statements.
    First, we will hear from Mr. Jeffrey Kessler, who is 
currently working as counsel at Wilmer Hale over the past 10 
years. Mr. Kessler has counseled global companies on high-
profile trade and policy issues.
    Mr. Kessler holds a bachelor's degree in philosophy and 
classics from Yale University, a master's degree in philosophy 
from the University of Chicago, a master's degree in economics 
from Stanford University, and a juris doctorate from Stanford 
University.
    Mr. Kessler is a member of the American Bar Association and 
a term member of the Council on Foreign Relations.
    Our second nominee is Ms. Elizabeth Ann Copeland, who will 
be introduced by Senator Cornyn.
    Senator Cornyn, would you please proceed on that?

            OPENING STATEMENT ON HON. JOHN CORNYN, 
                   A U.S. SENATOR FROM TEXAS

    Senator Cornyn. Well, thank you, Mr. Chairman, Ranking 
Member Wyden, and members of the committee.
    It is my privilege to introduce Elizabeth Copeland, a 
Texan, a fellow San Antonian, who has been nominated this time 
by President Trump to serve as a judge on the U.S. Tax Court.
    She is a certified public accountant and a graduate of the 
University of Texas School of Law.
    She is currently a partner at Clark Hill Strasburger in San 
Antonio and has more than 20 years' experience resolving 
complex tax issues, including the handling of employment tax 
disputes, innocent spouse representations, IRS appeals, and Tax 
Court litigation.
    She is the former attorney adviser to the Tax Court and has 
served as the chair of the State Bar of Texas Tax Section.
    She is responsible for establishing the United States Tax 
Court's pro bono program, the first State-wide program of its 
kind in the Nation. This program is now used as a model for 
other State bars to provide pro bono assistance to low-income 
taxpayers.
    Last year, Ms. Copeland received the San Antonio Tax Lawyer 
of the Year by Best Lawyers, which is a peer-reviewed guide to 
the legal profession. And finally, Tax Analysts named her a 
2012 Tax Person of the Year in its national edition of Tax 
Notes, a publication that many tax experts consider as a 
leading publisher of tax information.
    She has the distinction of being nominated by both 
President Obama and President Trump, so it goes without saying 
that she is highly regarded by everyone in the legal community.
    She will be a valuable addition to the Tax Court, and I 
look forward to supporting her nomination and encouraging all 
my colleagues to do so.
    So thank you, Mr. Chairman and Ranking Member Wyden, for 
the opportunity to introduce Ms. Elizabeth Copeland.
    The Chairman. Thank you, Senator Cornyn.
    Our next nominee to speak is Mr. Patrick J. Urda, who will 
be introduced by Senators Donnelly and Young.
    Senator Donnelly, will you please get us started and then 
hand it off to Senator Young?

                STATEMENT OF HON. JOE DONNELLY, 
                  A U.S. SENATOR FROM INDIANA

    Senator Donnelly. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman and Ranking Member Wyden, for the 
opportunity to be here today. Thank you to all of the members 
of the committee.
    I am proud to introduce my fellow Hoosier, Patrick Urda, 
who has been nominated to be a judge of the United States Tax 
Court.
    Before I speak about Patrick, I would like to take a moment 
to recognize the people supporting him here today. His parents, 
Katie and Rich, who are friends of mine, have traveled from 
South Bend to be here. He is also joined by----
    Senator Carper. Could we ask them to raise their hands?
    Senator Donnelly. Yes.
    Senator Carper. All right. Thank you.
    Senator Donnelly. Is that because you question their wisdom 
in being my friend, Senator? [Laughter.]
    Senator Wyden. Senator Carper is for family values.
    Senator Cornyn. You have to be careful when you raise your 
hand around here, though. [Laughter.]
    Senator Donnelly. He is also joined by his fiancee 
Cristina, his sisters Kathleen, Anne, and Libby, and his 
brother-in-law Braden. I am sure they are all very----
    Senator Carper. Could I ask his brother-in-law to raise his 
hand, too?
    Senator Donnelly. They are here. I am not making it up, 
Senator. [Laughter.]
    Patrick has been an attorney in the Tax Division of the 
Department of Justice since 2006. In that time, he has 
litigated dozens of appeals from the U.S. Tax Court and U.S. 
district courts. He has also presented oral argument on behalf 
of the government more than 40 times and in every U.S. court of 
appeals.
    He currently serves as counsel to the Deputy Assistant 
Attorney General in the Tax Division at DOJ, where he advises 
on everything from appellate to settlement matters.
    Such a breadth of experience on tax issues is imperative 
for any judge of the U.S. Tax Court.
    Patrick is a proud graduate of the University of Notre Dame 
and then went to a startup law school in Cambridge, MA--
Harvard--to conclude his education.
    Patrick's talents have regularly been recognized at DOJ. He 
received the Tax Division's Outstanding Attorney Award five 
separate times and received DOJ's Distinguished Service Award 
just last year.
    His time at DOJ and his excellent work there are indicators 
of his passion for public service and work ethic. And, if he is 
confirmed, they are sure to be assets as he focuses on adapting 
to the role of judge.
    I believe Patrick is strongly qualified and is committed to 
administering justice in our Nation's Tax Court. He has been 
and continues to remain dedicated to serving our country, and I 
strongly support his confirmation. I look forward to hearing 
his testimony and your questions.
    Mr. Chairman, thank you, and, Mr. Ranking Member, thank 
you.
    The Chairman. Well, thank you, Senator Donnelly.
    Senator Young?

                 STATEMENT OF HON. TODD YOUNG, 
                  A U.S. SENATOR FROM INDIANA

    Senator Young. Well, thank you, Mr. Chairman, Ranking 
Member Wyden, and esteemed members of this committee.
    It is my honor to introduce fellow Hoosier Patrick J. Urda 
to serve as a judge on the United States Tax Court.
    Mr. Urda is an extremely qualified nominee. He currently 
represents the United States in Federal tax matters in the U.S. 
Court of Appeals. As a Tax Division attorney, he focuses on 
appellate issues and litigation strategy.
    Since 2006, he has successfully litigated more than 80 
appeals from the United States District Courts and the United 
States Tax Court.
    Prior to his time at the United States Department of 
Justice, he served as counsel to the Deputy Assistant Attorney 
General, advising on legal and administrative issues facing the 
Tax Division.
    And from 2012 to 2015, Patrick was an adjunct professor at 
American University's Washington College of Law.
    Patrick also previously served as a clerk to the honorable 
Daniel Manion in the United States Court of Appeals for the 7th 
Circuit.
    Not to mention, he was an Eagle Scout.
    Mr. Urda has received multiple distinguished professional 
honors throughout his career, including the Tax Division 
Outstanding Attorney Award.
    Patrick graduated from St. Joseph High School in South 
Bend, IN. He went on to earn his B.A. from the University of 
Notre Dame and then his J.D. from Harvard Law School.
    Mr. Chairman, Mr. Urda has earned an excellent reputation 
in the legal community. He is highly regarded and an 
experienced attorney with the right qualifications to serve as 
a judge on the United States Tax Court. I fully support his 
nomination, and I hope my colleagues will do the same.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you. That is high praise for 
these nominees.
    I want to thank you Senators for being here.
    Now, our fourth witness to speak will be Ms. Amy Karpel.
    We will be happy to excuse Senators Donnelly and Young, who 
I know have important business to do today. And we want to 
thank you for being here.
    Now, our fourth witness to speak will be Ms. Amy Karpel, 
Chief Counsel for Negotiations, Legislation, and Administrative 
Law at the Office of the United States Trade Representative.
    Prior to beginning her role at the USTR in 2004, Ms. Karpel 
was an attorney representing U.S. workers and producers.
    Ms. Karpel received her undergraduate degree from the 
University of Washington and a juris doctorate from American 
University.
    Our final witness will be Mr. Randolph Stayin, who was most 
recently a partner at the firm Barnes and Thornburg.
    Prior to that, Mr. Stayin was the founder and CEO of U.S. 
Trade Adviser, and much earlier in his career, Mr. Stayin also 
served as the chief of staff and trade adviser to Senator 
Robert Taft, Jr.
    In total, Mr. Stayin has spent more than the past 40 years 
practicing law, with a focus on trade policy and trade 
regulation.
    Mr. Stayin received an undergraduate degree in economics 
and English from Dartmouth College and a juris doctorate from 
the University of Cincinnati.
    I would also like to thank all the witnesses for being here 
today. We are appreciative to listen to them.
    And when you give your opening statements, we will look 
forward to hearing from you.
    So, without further ado, Mr. Kessler, will you please 
begin?

  STATEMENT OF JEFFREY I. KESSLER, NOMINATED TO BE ASSISTANT 
    SECRETARY FOR ENFORCEMENT AND COMPLIANCE, DEPARTMENT OF 
                    COMMERCE, WASHINGTON, DC

    Mr. Kessler. Mr. Chairman, Ranking Member Wyden, members of 
the committee, I am honored to appear before you today as the 
President's nominee to serve as Assistant Secretary of Commerce 
for Enforcement and Compliance.
    I would like to express my gratitude to President Trump for 
nominating me for this important position. I am grateful to 
Secretary Ross for having confidence in my ability to serve as 
his Assistant Secretary. I am also grateful to Under Secretary 
Kaplan.
    And I thank the many other professionals at the Department 
of Commerce who have helped with my nomination.
    I would like to take a moment to acknowledge some family 
members in the audience: my wife Bethany and my two young 
daughters Lucy and Diana; my parents; my parents-in-law; my 
brother.
    Thank you all for being here.
    Mr. Chairman, as you said in your opening remarks, the 
Assistant Secretary of Commerce for Enforcement and Compliance 
is charged with administering the antidumping and 
countervailing duty laws. Congress enacted these laws to give 
U.S. companies and workers an effective remedy against foreign 
countries' unfair trade practices.
    As an international trade lawyer, I work to combat such 
practices on a daily basis. I have represented U.S. 
manufacturers in the chemical products and aerospace industries 
facing foreign subsidies and injurious dumping.
    I have worked to stop government policies that prop up 
favored enterprises and skew the competitive landscape to the 
detriment of U.S. companies and workers. I have helped U.S. 
companies decipher and navigate market access barriers imposed 
by China and other countries.
    The scope and scale of unfair trade practices used by 
foreign governments and companies is truly breathtaking. Unfair 
trade has serious, real-world consequences: lost jobs, lower 
wages, plant closures. It puts U.S. workers' livelihoods at 
risk and undermines the U.S. manufacturing and agricultural 
base.
    This administration has identified aggressive enforcement 
of U.S. trade laws as a top policy priority. With respect to 
the antidumping and countervailing duty laws, this means that 
investigations and other proceedings should be conducted 
rigorously.
    U.S. companies and workers should receive the relief to 
which they are legally entitled. The duties imposed should 
truly correct for the distortive impact of unfair trade. 
Circumvention should not be tolerated.
    If confirmed, I will uphold these principles.
    If confirmed, I will also seriously consider self-
initiating antidumping and countervailing duty investigations.
    Last November, the Department of Commerce self-initiated 
for the first time in more than a quarter century. Continuing 
this practice has the potential to further strengthen 
enforcement of trade remedy laws.
    The Enforcement and Compliance Unit of the Department of 
Commerce also has an important role to play in ensuring that 
foreign governments uphold their commitments under existing 
trade agreements.
    Opening up foreign markets to U.S. exports of goods and 
services is a critical element of the administration's trade 
strategy, and, if confirmed, I plan to pursue this objective 
aggressively as well.
    Mr. Chairman, I believe that when the playing field is 
level, U.S. companies, workers, and products can out-compete 
anyone in the world.
    As the administration has stated, true market-based 
competition should be welcomed. But American workers, farmers, 
ranchers, service providers, and businesses large and small 
should not have to endure injurious dumping, subsidies, and 
other unfair trade practices. That is why we need strict and 
effective enforcement of the trade remedy laws.
    With that, Chairman Hatch, Ranking Member Wyden, and 
members of the committee, thank you again for your 
consideration, and I would be happy to answer any questions.
    The Chairman. Well, thank you. And thanks for your 
willingness to serve.
    [The prepared statement of Mr. Kessler appears in the 
appendix.]
    The Chairman. Ms. Copeland, we will go to you now.

STATEMENT OF ELIZABETH ANN COPELAND, NOMINATED TO BE A JUDGE OF 
          THE UNITED STATES TAX COURT, WASHINGTON, DC

    Ms. Copeland. Chairman Hatch, Ranking Member Wyden, Senator 
Cornyn, who did my lovely introduction, and other distinguished 
members of this committee, I want to thank you for the 
privilege of appearing before you today as the President's 
nominee for a judge of the United States Tax Court. I am 
grateful to the President for his confidence in me.
    And I wish to thank the staff of this committee for their 
generous time working with me on my nomination.
    I would also like--I can say I would not be here without 
the support throughout my life of many. I want to introduce my 
supportive husband Brad Wilder, and my children Lexie Wilder 
and Preston Wilder, who are here today. Also here are my father 
William Copeland, my stepmother Barbara Copeland, my sister-in-
law Pamela Hurst, and my brother-in-law David Hurst.
    The Chairman. Well, we are grateful to have all of you 
here. And this is a great honor for Ms. Copeland. And so we 
will now go to----
    Ms. Copeland. Oh, I am sorry.
    The Chairman. Oh, you are not through yet. [Laughter.]
    Ms. Copeland. I hesitated so they could be recognized.
    My stepson Davis and my amazing mother are also watching 
livestream video.
    I apologize, Chairman Hatch.
    I am honored to have the attendance of a number of judges 
from the United States Tax Court, whom you so nicely recognized 
earlier. They have been both friends and mentors throughout the 
years.
    Early in my career, I had the opportunity to work as 
attorney adviser at the United States Tax Court for the 
honorable Mary Ann Cohen. I learned much under her direction.
    I also then, upon leaving the Tax Court, returned to my 
hometown of San Antonio, TX to practice and pursue a career in 
tax law. I spent over 2 decades specializing in the area of tax 
controversy and litigation with the law firm Oppenheimer, 
Blend, Harrison, and Tate, which later became Strasburger and 
Price and is now known as Clark Hill Strasburger.
    While practicing in Texas, I received board certification 
in tax law by the Texas Board of Legal Specialization. I also 
was very active in the Section of Taxation for the American Bar 
Association and with the State Bar of Texas Tax Section, for 
which I served as chair from 2013 through 2014.
    As a member of the Texas State Bar, I recognized the need 
to assist unrepresented taxpayers, most of whom could not 
afford legal counsel for their Tax Court cases. Working with 
the help of Special Trial Judge Peter Panuthos and 
representatives from IRS Area Counsel, we established an all-
volunteer pro bono assistance program which services all five 
cities in Texas in which the Tax Court holds calendars. It is 
one of my most treasured accomplishments, and the program is 
still thriving today.
    Working with that program and also in my own practice, I 
have seen the vital role that the Tax Court plays in shaping 
tax law. It is imperative for taxpayers to have their cases 
heard in front of an impartial party for both taxpayers and the 
government to be treated with respect.
    I believe my strong background in tax controversy work will 
provide me with the foundation to fairly and impartially 
resolve tax cases in accordance with congressional intent.
    If confirmed, I would hope to maintain and enhance the 
public's confidence in the Tax Court as a neutral prepayment 
forum for the resolution of tax disputes.
    Thank you again, Chairman Hatch, Ranking Member Wyden, 
Senator Cornyn, and other members of this committee. I am happy 
to answer any questions you might have.
    The Chairman. Thank you, Ms. Copeland.
    [The prepared statement of Ms. Copeland appears in the 
appendix.]
    The Chairman. We will now turn to Mr. Urda for his 
testimony.
    Mr. Urda?

 STATEMENT OF PATRICK J. URDA, NOMINATED TO BE A JUDGE OF THE 
            UNITED STATES TAX COURT, WASHINGTON, DC

    Mr. Urda. Chairman Hatch, Ranking Member Wyden, and members 
of the Finance Committee, it is an honor to be here today. 
Thank you for holding this hearing to consider my nomination to 
serve as a judge on the United States Tax Court.
    I am grateful to the President for nominating me and thank 
Senator Donnelly and Senator Young for their kind 
introductions.
    I would also like to express my heartfelt thanks to the 
committee staff for their support throughout the process.
    I sit before you as a nominee because of the support of so 
many people, some of whom have joined me today, most 
importantly my parents, Richard and Kathleen Urda. Dad is a 
solo practitioner in South Bend, IN. He has been a role model 
my entire life, consistently demonstrating how to be a good 
lawyer and a better person. He has a vast knowledge of tax law, 
and I am hoping I have picked up a few things through genetics 
or osmosis. [Laughter.]
    Some of the earliest memories of my mom are playing in the 
halls of St. Mary's College, where she taught statistics. As my 
siblings and I grew older, she spent more time teaching us, not 
just working with us on math and English, but showing us 
through her own example compassion, diligence, service, and 
selflessness.
    Any talk of my parents cannot help but make me think of my 
siblings, Kathleen, Anne, Libby, and Mike, best friends, 
confidants, and occasional sparring partners. That last 
category is pretty much Mike. [Laughter.]
    And I would not be here without the love and support of 
Cristina Cardenas, who has traveled all the way from Argentina 
to be here. Cristina works tirelessly to improve education for 
children throughout the world. And I am so blessed to have her 
in my life.
    I have been truly lucky in terms of colleagues and friends. 
I have learned with and learned from attorneys, office 
managers, paralegals, and legal assistants in Chicago, South 
Bend, and here in Washington. I have been incredibly fortunate 
to learn about the tax field from the women and men of the Tax 
Division as well as my opposing counsel for the last 12 years.
    As to my friends, in a very real and sincere way, I do not 
have friends, I have family. I thank you all, my family.
    I have been blessed through the years with great mentors. 
It would be impossible to name them all, but in particular I 
thank Judge Dan Manion for hiring his first clerk from South 
Bend and for teaching me so much about the law and life.
    I thank Gil Rothenberg for bringing me to the Tax Division 
and developing my knowledge and passion for the field.
    And I thank Diana Erbsen for selecting me to be her 
counsel, broadening my view of our tax system.
    At the main DOJ building, there is a motto inscribed in 
Latin that translates as ``Our duty is a privilege.'' That has 
truly been the case for me. I feel honored to have had the 
opportunity to litigate tax issues in the circuit courts for 
the last 12 years. My service has taught me the breadth and 
complexity of our tax system and has equipped me with the 
ability to analyze the strengths and weaknesses of different 
legal positions, whether those of the taxpayer or those of the 
government.
    My job has given me a deep appreciation for the important 
work of the Tax Court and the need for fair and expeditious 
resolution of tax controversies.
    A long time ago, two wise former AUSAs told me that the 
government wins its point when justice is done. I try to keep 
that in mind when I litigate in my current position, and 
justice, consistent with the law, will be the North Star for me 
if I am so lucky as to be confirmed.
    I pledge to be impartial in approach, diligent in 
preparation, and absolutely committed to following the law 
where it leads.
    I look forward to answering the committee's questions.
    The Chairman. We are happy to have you here.
    [The prepared statement of Mr. Urda appears in the 
appendix.]
    The Chairman. Ms. Karpel?

STATEMENT OF AMY KARPEL, NOMINATED TO BE A MEMBER OF THE UNITED 
     STATES INTERNATIONAL TRADE COMMISSION, WASHINGTON, DC

    Ms. Karpel. Chairman Hatch, Ranking Member Wyden, members 
of the Finance Committee, I am honored to appear before you 
today as the President's nominee for the position of 
Commissioner on the U.S. International Trade Commission.
    I would like to introduce the members of my family who are 
here today: my husband Sloane Strickler, my mother Ann Larson, 
my brother-in-law Andrew Strickler, and my mother-in-law Jo 
Harriet Haley.
    I also want to acknowledge those members of my family who 
could not be here today: my father John Karpel, my sister 
Jennifer Seoane, and lastly, my daughter Haley, who is 
currently enjoying her last week of preschool.
    I want to thank all of them for their love and support 
during the confirmation process and over the years.
    I am also grateful to Senate Minority Leader Schumer and 
Senator Wyden for proposing my appointment as Commissioner.
    I also want to thank the President for nominating me.
    I greatly enjoyed meeting individually with members of this 
committee leading up to today's hearing and thank them for 
their time and insights.
    I am honored to be nominated for Commissioner because of 
the important work the Commission does. The Commission is 
entrusted with the fair, timely, and objective administration 
of our trade remedy laws, including in respect to violations of 
intellectual property rights.
    Vigorous enforcement of our trade remedy laws is important 
because of the relief it provides to help keep U.S. workers 
employed and U.S. businesses functioning in the face of unfair 
trade. It is also important because of the role it plays in 
helping make the case for international trade more broadly. 
International trade touches nearly all sectors of our economy 
and is vital to the strength of our economy and the livelihood 
of the workers and businesses it supports.
    If there is not strong enforcement of our trade remedy laws 
when trade is not fair and when workers or businesses are hurt 
by trade, it is hard to make that case.
    If confirmed as Commissioner, I will administer these laws 
fairly, objectively, and as Congress intended.
    The Commission is also responsible for providing the 
administration and Congress with objective, expert, fact-
finding studies and analysis on tariffs, trade, and U.S. 
competitiveness. These studies serve as an independent source 
of information and analysis for policymakers as they develop 
and implement trade policy.
    If confirmed, I commit to carry out this responsibility as 
Congress intended and to safeguard the independence of the 
Commission.
    I will also, if confirmed, work with my fellow 
Commissioners to be responsive to congressional requests for 
information.
    I believe my upbringing, background, and experience have 
prepared me well for the position of Commissioner. I grew up in 
Washington State along the shores of the Puget Sound. I could 
see the port of Olympia in the distance from our house. 
Container ships and tugboats pulling barges full of logs were a 
regular feature passing by our house.
    I was raised by my mother and father and spent a lot of 
time with my maternal grandmother. My grandmother split her 
time between St. Louis and her husband's farm in rural 
Illinois, and when we were kids, my sister and I used to visit 
in the summers.
    My grandmother would prod us awake at 7 a.m., chiding that 
we were sleeping the day away. Lazy was not something you were 
allowed to be in our family.
    My parents worked hard, both in their occupations and in 
life, and modeled the importance of doing your part to improve 
the world around you. They raised my sister and I to do the 
same.
    Since leaving Washington State, I have spent more than 20 
years studying and working on international trade issues. I 
have worked in private practice representing U.S. workers and 
businesses in trade remedy proceedings, and I have worked in 
public service for almost 13 years, serving most recently as 
Chief Counsel at the Office of the U.S. Trade Representative.
    Each of these capacities involved working with the laws the 
Commission is entrusted to administer, first as an advocate for 
clients petitioning for relief under those laws and then as a 
policymaker relying on the sound and objective information and 
analyses those laws call on the Commission to provide.
    And I now look forward, if confirmed, to continuing in 
public service as a Commissioner on the International Trade 
Commission. In this role I would not be an advocate or a 
policymaker as in my previous positions. Instead, I would be a 
fair, objective, and impartial adjudicator, an independent 
source of expert information and analysis.
    It would be an honor to serve in this capacity.
    Thank you for your consideration.
    The Chairman. Well, thank you.
    [The prepared statement of Ms. Karpel appears in the 
appendix.]
    The Chairman. Mr. Stayin, we will finish with you.

 STATEMENT OF RANDOLPH J. STAYIN, NOMINATED TO BE A MEMBER OF 
 THE UNITED STATES INTERNATIONAL TRADE COMMISSION, WASHINGTON, 
                               DC

    Mr. Stayin. Thank you, Mr. Chairman, Ranking Member Wyden, 
and members of the committee.
    I am honored to appear before you today. And I am humbled 
and grateful to the President for having nominated me to be a 
Commissioner on the International Trade Commission.
    I also want to thank Senators Portman, Roberts, Isakson, 
and Brown for their support.
    But most importantly, I am honored and blessed to have the 
love and support that I have had from my family throughout my 
many years in practicing trade law.
    With me today is my wife Sharon; my sister Donna; my 
children Gregg, Todd, and Beth, along with their spouses 
Stephanie, Laura, and Scott; and my grandson Christopher. I am 
always grateful that they are in my life and for the strength 
they give me.
    I began the practice of law as a litigator in Cincinnati, 
OH. I came to Washington to serve as Chief of Staff for Senator 
Robert Taft, Jr. In that role, I oversaw political, legal, and 
policy issues, along with managing the staff.
    Among my duties, the Senator asked me to give him advice on 
the Trade Act of 1974, and thus was the beginning of my 
involvement in U.S. trade law. It was the first building block 
in my now 40 years of practicing international trade law.
    My career has included litigation of many antidumping and 
countervailing duty investigations and reviews, section 201 
safeguard investigations, and section 232 national security and 
Generalized System of Preferences investigations.
    I also was involved in advising clients during and after 
the Uruguay Round and the NAFTA negotiations, as well as during 
Customs investigations to stop circumvention of antidumping 
duty orders.
    My practice also included serving as general counsel and 
special counsel to 23 trade associations and many companies, a 
significant number of which contributed to the depth of my 
understanding of the realities and the difficulties of running 
a manufacturing company in competition with unfairly traded 
imports.
    Among my many cases I have litigated, I would like to 
briefly mention one that demonstrates the complexity and 
commitment involved in defending U.S. companies from unfair 
trade practices. That case was an antidumping duty 
investigation of imported petroleum wax candles from China.
    In 1984 when I began working on that case, Chinese 
manufacturers were exporting their candles to the United States 
at prices significantly below the cost of production for making 
candles in the United States.
    The initial result of that case was a 54-percent 
antidumping duty order. The Commission determined that the 
imports materially injured the U.S. industry, and the 
Department of Commerce found that the imports were unfair trade 
practices.
    There have been many unsuccessful challenges to that 
antidumping order, including six administrative reviews, nearly 
100 scope reviews, two anticircumvention reviews, six Customs 
investigations, two sunset reviews, and four 5-year reviews, in 
addition to appeals to the Court of International Trade and the 
U.S. Court of Appeals for the Federal Circuit, all of which I 
managed and conducted for the continuing production of this 
industry.
    Not only was the initial 54-percent antidumping duty 
imposed, it was raised each time we were challenged. With every 
administrative review where the importers sought to terminate 
or lower the duty from 54 percent, the duty in fact was 
increased. It increased to where it is today, at 108 percent, 
which is very significant, I think most experts would agree.
    The antidumping duty order regarding candles from China is 
the longest continuous antidumping duty order in the history of 
our country.
    Another result of this effort was that from 2000 to 2007, 
U.S. candle companies received trade injury distributions of 
over $183 million from the application of the Continued Dumping 
and Subsidy Offset Act, also known as the Byrd Amendment.
    This is only one example of the many products I 
represented. As you are all aware, it is only one of thousands 
of U.S. products that are injured by unfair trade practices.
    For me, this is an honor. It is a pinnacle opportunity 
built on my long and successful effort to support and defend 
fair and equitable trade laws and their application. In 
presenting arguments before the ITC, I have always respected 
the very important role that it plays as an independent, 
nonpartisan, quasi-judicial, fact-finding agency.
    Our country's workers, farmers, ranchers, and businesses 
know that they have an objective and fair place to go when they 
have been injured by unfairly traded imports. All parties 
receive a fact-based decision in accordance with due process of 
law.
    I look forward to participating in the ITC process as a 
leader and key decision-maker and in maintaining the 
credibility of U.S. trade remedy laws.
    If confirmed, I assure you that I will serve with integrity 
and that all of my decisions will be based on the facts and the 
law, in accordance with the intent of Congress.
    I further assure you that Congress and the executive branch 
will continue to receive objective, independent, fact-based 332 
studies and expert analysis to assist in the development of 
trade policy.
    I will be proud to join the nearly 400 men and women who 
comprise the ITC. They are to be commended for the excellent 
work that they do every day for Congress, the executive branch, 
and, above all, the American people.
    Thank you for the privilege of being considered for this 
honor. I am now happy to answer your questions.
    The Chairman. Well, thank you.
    [The prepared statement of Mr. Stayin appears in the 
appendix.]
    The Chairman. We are happy to have all of you here today. 
And I have some obligatory questions that I am going to ask all 
the nominees. And you can each answer across the board here.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Kessler. No, Senator.
    Ms. Copeland. No.
    Mr. Urda. No.
    Ms. Karpel. No.
    Mr. Stayin. No.
    The Chairman. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Kessler. No.
    Ms. Copeland. No.
    Mr. Urda. No.
    Ms. Karpel. No.
    Mr. Stayin. No.
    The Chairman. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of the Congress, if you are confirmed?
    Mr. Kessler. Yes.
    Ms. Copeland. Yes.
    Mr. Urda. Yes.
    Ms. Karpel. Yes.
    Mr. Stayin. Yes.
    The Chairman. Okay. Finally, do you commit to providing a 
prompt response in writing to any questions addressed to you by 
any Senator of this committee?
    Mr. Kessler. Yes.
    Ms. Copeland. Yes.
    Mr. Urda. Yes.
    Ms. Karpel. Yes.
    Mr. Stayin. Yes.
    The Chairman. Well, I think I just want to say how proud I 
am of all of you and how pleased I am that you are willing to 
accept these very, very important positions in our government. 
And I have every confidence that each of you is going to be an 
excellent person in the positions for which you have been 
chosen.
    So with that, I just want you to know how much I appreciate 
that you are willing to serve.
    And I will turn to Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    My first question is going to be for our trade enforcers, 
Mr. Kessler, Ms. Karpel, and Mr. Stayin.
    And let me ask it this way. For those of us who are pro-
trade, it is particularly important that we get trade 
enforcement right, because so often in the past it has been 
either too slow or too weak; we have had cheats ripping us off.
    I think I mentioned to you, Ms. Karpel, we had a sting 
operation when I was chairman of the Trade Subcommittee, and we 
invited people to cheat, and all over the world we were being 
flooded with trade cheats.
    So in 2015, the Congress made clear the importance of tough 
enforcement, and particularly Senator Brown's bill, the 
Leveling the Playing Field Act, really speaks to something you 
all have jurisdiction over. You are in charge of that area with 
respect to remedies.
    And my first question just for you three--and I hope we can 
do this in a ``yes'' or ``no'' answer--is, will the three of 
you support vigorously applying this law so that our workers 
and companies can get relief from unfairly traded imports?
    And just go, Mr. Kessler, Ms. Karpel, and Mr. Stayin.
    Mr. Kessler. Yes, Senator.
    Ms. Karpel. Yes.
    Mr. Stayin. Yes.
    Senator Wyden. Good. Let the record note that that was a 
question about vigorous application of Senator Brown's law.
    All right. Let us now go to some additional enforcement 
questions.
    For you, Mr. Kessler: in my view, it is important on trade 
remedy matters that participants in trade remedy proceedings 
have the ability to respond to factual information submitted by 
another party that could be relied on by the Department in 
making its decision before that decision is made.
    Are you, in general, supportive of that proposition?
    Mr. Kessler. Yes, Senator.
    Senator Wyden. Okay.
    Now, let us now move to the section 232 tariffs. And 
companies have indicated to me that it seems that officials in 
the Bureau of Industry and Security may be making decisions 
without giving one side the opportunity to respond to facts 
submitted by the other. And if the Department wants this to 
work, if Commerce wants it to work--we all would like to see it 
work--it seems to me it has got to be a fair and objective 
process.
    Given that the Enforcement Division is going to be involved 
in this process, if confirmed, will you commit not to provide 
recommendations to this agency, the Bureau of Industry and 
Security, on an exclusion request unless and until each side 
has been able to respond to factual information submitted by 
the other party?
    Mr. Kessler. Senator, as you mentioned, the Enforcement and 
Compliance unit plays only a supporting role in the 232 
investigations. It is the Bureau of Industry and Security that 
is primarily responsible for them.
    I fully understand the importance of due process in that 
context as well as the antidumping and countervailing duty 
context. I can commit to being an advocate for due process and 
to working with you and your staff to ensure that the 
requesters get due process.
    Senator Wyden. I think I did not get an answer specifically 
to the question of you not providing recommendations to the 
agency on an exclusion request unless there is due process.
    I am going to hold the record open on this point, because I 
know the staff may have talked to you about this fairly 
recently, so you can flesh out what you think is due process, 
because I am troubled by this.
    And I have discussed it with the Department, and there have 
been some differences between what some officials in the 
Department think it is and what the others think it is. To me, 
this cannot be rocket science. Everybody has got to be in a 
position to have the facts to respond to what the other side is 
saying.
    So, Mr. Chairman, I support Mr. Kessler, as he knows. I 
will hold the record open.
    And if you could give us a response as to what more 
specifically you believe constitutes due process there, that 
would be great.
    And then, finally, to our fine nominees for the Tax Court: 
good luck.
    Thank you, Mr. Chairman.
    The Chairman. Thank you--I think.
    Let me just ask Ms. Karpel and Mr. Stayin, under section 
337 of the Tariff Act of 1930, the ITC has the essential task 
of excluding foreign products that infringe U.S. intellectual 
property protection.
    As you know, the protection of intellectual property is 
very important to me. And I strongly support the ITC's role in 
administering section 337 proceedings.
    Do you see section 337 as a crucial part of the ITC's 
mission? And will you explain how you intend to administer the 
law? That's for Ms. Karpel first and then Mr. Stayin second.
    Ms. Karpel. Thank you for that question. And I very much 
agree on the importance of protecting intellectual property and 
the role that section 337 plays in doing so. And if confirmed, 
I very much look forward to working in that area and ensuring 
the section 337 law is vigorously enforced.
    Mr. Stayin. I do agree with you with respect to the 
importance of section 337.
    Years ago, there were not very many cases brought before 
the International Trade Commission. And then all of a sudden, 
in the last maybe 10, 15 years, there has been a huge volume of 
unfair trade practices which are committed with respect to 
patents and trademarks and copyrights.
    Vigorous enforcement there is very important. And I think 
that the agency has done very well in that respect. And I 
assure you that I will do everything in my power to continue 
that aggressive and vigorous enforcement.
    The Chairman. Now, let me ask you both this question. Do 
you see section 337 as a crucial part of the ITC's mission? And 
will you explain how you intend to administer the law?
    Ms. Karpel. Absolutely, it is a critical part of the ITC's 
responsibilities and mission. In terms of how I would intend to 
administer the law, if confirmed, as I mentioned, I would view 
my role as a Commissioner as an adjudicator who needs to be 
impartial, fair, and objective. In each case, I would work hard 
to understand the facts before me and apply the law to those 
facts as Congress intended that law to be applied.
    Thank you.
    The Chairman. Okay.
    Mr. Kessler, you mentioned in your testimony that you would 
seriously consider having the Commerce Department self-initiate 
antidumping and countervailing duty cases. Typically, AD/CVD 
cases are initiated by U.S. industry when it believes it has 
been harmed by dumped or subsidized products entering the 
United States.
    If confirmed, what criteria would you recommend that the 
Commerce Department apply to determine whether to devote its 
resources toward self-initiating the AD/CVD cases?
    Mr. Kessler. Senator, I do not have a hard-and-fast rule, 
but there are some categories of cases that would certainly be 
candidates for self-initiation. One category of cases is if the 
domestic industry faces the threat of retaliation from a 
foreign country as a result of a potential future AD/CVD case 
and self-initiating would mitigate that threat.
    Another example would be if an industry has small companies 
or is fractured and is unable to petition for relief for that 
reason. That would be another instance where I would consider 
self-initiation.
    The Chairman. You know, I have been pretty impressed with 
each one of you. And I think the President has been very wise 
to pick you folks for these respective positions. And I am just 
very grateful to you for being willing to take these positions.
    They are not easy, but they are extremely, extremely 
important. And I do not think we could have better people than 
you folks. So I am very grateful.
    And I do not think there are any politics involved or 
anything else. It is just a good thing.
    Now, this question is for Ms. Copeland and Mr. Urda.
    As a Tax Court judge, you will preside over many cases that 
involve unsophisticated taxpayers with few resources to deploy 
in making their cases. What lessons do you take from your prior 
professional experiences to ensure that you treat these 
taxpayers with respect and understanding while stopping short 
of awarding them an advantage?
    So we will start with you, Ms. Copeland, first and then Mr. 
Urda.
    Ms. Copeland. Senator Hatch, that is an excellent question. 
In my practice, as I mentioned in my opening statement, I was 
responsible for initiating for the State Bar of Texas Tax 
Section a pro bono assistance program. In connection with that 
program, I had the opportunity to assist low-income taxpayers, 
unrepresented taxpayers.
    In fact, Chairman Hatch, the Tax Court has something like 
70 percent of all cases before it with unrepresented taxpayers, 
and something like 90 percent in their small cases.
    So through the program with the State Bar of Texas and 
through initiatives by the United States Tax Court, there are 
volunteer low-income taxpayer clinics as well as volunteer bar 
organizations that provide pro bono assistance to taxpayers.
    As a judge of the United States Tax Court, I would ensure 
that the parties appearing before me realized that that pro 
bono assistance is available and that they can consult with the 
attorneys who will accommodate the volunteer attorneys in my 
courtroom to provide that assistance. And I would encourage 
taxpayers to take advantage of the free assistance available.
    I would also treat taxpayers as I always have, with dignity 
and respect. And I am also very patient, so that would help.
    The Chairman. Well, thank you. That would be good.
    Mr. Urda?
    Mr. Urda. During my career, I have had the opportunity to 
litigate against a number of pro se people. And I think what 
Ms. Copeland ended with is the right point: it is to treat them 
with dignity and respect.
    Of course, you have to maintain a neutral position as 
judge, but you have to allow the issues that that person is 
bringing to be developed. And you have to work as a judge to 
really hear what that person is saying and what issues they 
seek to challenge.
    As an appellate litigator, part of our obligation to the 
Court is to really give respect to the issues that a pro se, 
maybe inartfully, is trying to raise.
    I would take that same experience to the bench, treating 
them with respect and, consistent with my role as a neutral 
arbiter, to really allow them to develop in the best way 
possible those issues, whether themselves or through the 
resources that Ms. Copeland mentioned.
    The Chairman. Well, thank you so much.
    We will turn to the Senator from Washington.
    Senator Cantwell. Thank you, Mr. Chairman.
    And I want to say I wish I would have been here earlier to 
help introduce Amy Karpel to the committee. We were stuck in a 
hearing with all our FERC Commissioners. But we are glad that 
she is being nominated to the International Trade Commission, 
glad that she grew up in Olympia, WA, went to the University of 
Washington, and then later to American University. So she has a 
lot of experience at USTR, so that is what we hope that we 
continue to see there.
    I know that you are going to play an important role in 
analyzing information. And you get how important trade is to 
the Pacific Northwest. So I think that that just comes as a 
very day-to-day experience for all of us in the Northwest.
    What steps are you going to take to make sure that there is 
an objective, thorough review of this information while you are 
at the ITC as a Commissioner?
    Ms. Karpel. Thank you. Thank you for the introduction. I 
understand you had important matters to cover, so I am glad you 
are here now.
    In terms of what steps, the ITC is an independent agency, 
and I think that is one of the most important things, that the 
Commission is safeguarding that independence. And what comes 
with that is the need to be objective and to be impartial and 
to look at the facts and do careful and rigorous analysis.
    And the ITC does that in a variety of ways. It does it in 
the context of the trade remedy proceedings that are litigated, 
and it does it in the context of the analytical work that it 
does, whether it is per a request under section 332 from one of 
the committees or from the administration. And that work is 
critical.
    There is a great staff at the Commission that has a 
wonderful track record of delivering high-quality, independent 
analysis. And certainly, as a Commissioner, I would want to 
ensure that is maintained.
    Senator Cantwell. Well, I like to say at home, our home, 
that we get around the table and agree to a lot because of 
science. We have a lot of thorny problems, but when we can get 
around the table and have science to guide us, we usually can 
get to a lot of conclusions.
    I would say the same in your role, that this information 
and data are very critical to helping us make important policy 
decisions.
    Mr. Kessler, I wanted to ask you about use of trade tools. 
There are a number of tools to address unfair trade practices. 
Some disputes result in trade enforcement, while others are 
resolved through negotiation. When will you prioritize trade 
enforcement actions over other types of actions?
    Mr. Kessler. Senator, I would enforce the law in the 
situations where industry is requesting antidumping or 
countervailing duty investigations. If the industry is 
interested in some kind of negotiated settlement of an 
investigation, that is certainly something that I would 
consider.
    Senator Cantwell. So will you take into consideration 
possible retaliation to trade enforcement action when deciding 
how to best proceed?
    Mr. Kessler. Senator, the law is not structured to take 
that into account, nor should other countries be retaliating 
against the United States for the legitimate enforcement of our 
trade laws.
    The antidumping and countervailing duty laws represent an 
internationally accepted mechanism for enforcing the law, for 
protecting U.S. companies and workers from unfair trade. And I 
will enforce them rigorously the way that they are written.
    Senator Cantwell. Well, and we have law in the United 
States of America. And lots of businesses get into disputes and 
they decide to settle them legally. So we are not taking that 
away. I am just simply asking, when it comes to trade 
enforcement, our processes today are seemingly to basically get 
into that phase of the negotiations first and ask questions 
later. So we will see where all of this takes us.
    I appreciate your comments and your viewpoint. But the key 
thing that I think is missing in today's debate is--we clearly 
in our State have been involved with everything from WTO, where 
we thought Boeing was unfairly protested against, to now saying 
the Canadians, as it relates to a law that was passed in 
British Columbia, are not allowing direct access.
    But we have reached a point where we had a finding and we 
wanted to pursue that, which is different than now causing a 
lot of shelf space to disappear and maybe disappear for 
decades. So I want to make sure that our strong trading 
economy, particularly with agriculture, in this whole 
discussion does not lose shelf space to the Australians or to 
the Canadians or to somebody else and then, when all this is 
said and done, we wake up 10 years later and we are 15 or 20 or 
30 points behind in a marketplace. So that is why we are asking 
these questions.
    And I so appreciate the time, Mr. Chairman.
    The Chairman. Well, thank you.
    We are very grateful for your willingness to serve this 
government. Each of you is an expert in your fields, and we 
feel very complimented by the fact that you are willing to 
serve. And I want to give you every credit for doing so.
    And we will try to get this done as quickly as possible and 
get you confirmed as quickly as possible.
    But just so you all feel the same way, I just want you to 
know that you are very much appreciated by this Senator and I 
think the other Senators on this committee as well. So I want 
to thank you all for your attendance and participation today.
    I do ask that any member who wishes to submit questions for 
the record do so by noon on Friday, June 15th.
    And with that, this hearing is adjourned. I bet you are 
glad about that. [Laughter.]
    Thanks so much for being here. I am going to come down and 
shake hands with all of you.
    Thanks for being here. And with that, we will adjourn.
    [Whereupon, at 11:13 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


             Prepared Statement of Elizabeth Ann Copeland, 
         Nominated to be a Judge of the United States Tax Court
    Chairman Hatch, Ranking Member Wyden, Senator Cornyn, and other 
distinguished members of the committee, thank you for the privilege of 
appearing before you today as the President's nominee to serve as a 
judge on the United States Tax Court. I am grateful to the President 
for his confidence in me and wish to thank the staff of this committee, 
who have been generous with their time while working with me on my 
nomination.

    I would not be here without the support of many throughout my life 
and my career. I want to introduce my supportive husband Brad Wilder 
and my children Lexie and Preston Wilder, who are here today. Also here 
are my father William Copeland, my stepmother Barbara Copeland, my 
sister-in-law Pamela Hurst, and her husband David Hurst. My stepson 
Davis and my amazing mother, Josephine Copeland, are watching by 
livestream video. I also am honored to have in attendance a number of 
judges from the United States Tax Court, who have been both friends and 
mentors throughout the years.

    Early in my legal career, I had the opportunity to work as an 
Attorney Advisor at the United States Tax Court for the Honorable Mary 
Ann Cohen. I learned much under her direction. Upon leaving the employ 
of the Tax Court, I returned to my hometown of San Antonio, TX to 
pursue a career in tax law. I spent over 2 decades specializing in the 
area of tax controversy and litigation with the law firm Oppenheimer, 
Blend, Harrison, and Tate, Inc., which later became Strasburger and 
Price, L.L.P and is now known as Clark Hill Strasburger. While 
practicing in Texas, I received a board certification in tax law by the 
Texas Board of Legal Specialization. I also was very active with the 
Section of Taxation of the American Bar Association and with the State 
Bar of Texas Tax Section, for which I served as chair in 2013-2014.

    As a member of the Texas State Bar, I recognized a need to assist 
unrepresented taxpayers--most of whom could not afford legal counsel--
with the presentation of their cases in Tax Court. Working with the 
help of Special Trial Judge Peter Panuthos and representatives from IRS 
Area Counsel, we established an all-
volunteer pro bono assistance program to service all five cities in 
Texas in which the Tax Court holds calendars. It was one of my most 
treasured accomplishments, and the program is still thriving today. 
Working with that program and in my own practice, I have seen the vital 
role that the Tax Court plays in shaping tax law. It is imperative for 
taxpayers to have their cases heard before an impartial party and for 
both taxpayers and government attorneys to be treated with respect. I 
believe my strong background in tax controversy work will provide me 
with the foundation to fairly and impartially resolve tax cases in 
accordance with congressional intent. If confirmed, I would hope to 
maintain and enhance the public's confidence in the Tax Court as a 
neutral pre-payment forum for the resolution of tax disputes.

    Thank you again, Chairman Hatch, Ranking Member Wyden, Senator 
Cornyn, and other members of this committee, for your consideration. I 
would be happy to answer any questions you might have.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A.  BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Elizabeth Ann Copeland, 
formerly: Elizabeth Ann Dawson; nicknames: Liz Copeland, Lizzy Copeland 
and, formerly, Liz Dawson.

 2.  Position to which nominated: United States Tax Court.

 3.  Date of nomination: August 3, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: June 1, 1964; Colorado Springs, Colorado.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:


 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        Lemont High School, 1978--1979, no degree received (passed 9th 
        grade, then moved from Illinois to Texas).

        Alamo Heights High School, 1979-1980, no degree received 
        (passed 10th grade, then moved school districts).

        Churchill High School, August, 1980-1982, High School Diploma 
        with Honors, May 1982.

        University of Texas at Austin, 1982-1986, BSA Accounting with 
        Honors, May 1986; University of Texas at Austin School of Law, 
        1989-1992, JD, May 1992.

        Queen Mary and Westfield College (now Queen Mary University of 
        London), September 1991-December 1991, no degree received 
        (Semester in London Program through the University of Texas at 
        Austin School of Law).

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Ernst and Whinney (now Ernst and Young), Senior Accountant, San 
        Antonio, Texas, 1986-1987.

        Ernst and Whinney (now Ernst and Young), Senior Accountant, 
        Dallas, Texas, 1987-1989.

        Vernor, Liipfert, Bernhard, McPherson, and Hand, Chartered (now 
        DLA Piper US, LLC), Summer Associate, Washington DC, summer 
        1990.

        Law, Snakard, and Gambil, P.C., Summer Associate, Fort Worth, 
        Texas, summer 1990.

        Groce, Locke, and Hebdon, Summer Associate, San Antonio, Texas, 
        Summer 1991.

        Oppenheimer, Rosenberg, Kelleher, and Wheatley, Inc., Summer 
        Associate, San Antonio, Texas, summer 1991.

        United States Tax Court, Attorney Advisor to Judge Mary Ann 
        Cohen, Washington, DC, 1992-1993.

        Oppenheimer, Blend, Harrison, and Tate, Inc., Shareholder, San 
        Antonio, Texas, 1993-2012.

        Our Lady of the Lake University, Adjunct Professor, San 
        Antonio, Texas, 1996-1998.

        Strasburger and Price, LLP, Partner, San Antonio, Texas, 2012-
        present.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        South Texas Internal Revenue Service Practitioners Council, San 
        Antonio, Texas, 2002-2005.

        Texas State Board of Legal Specialization Tax Law Advisory 
        Commission and Tax Law Exam Commission, Austin, Texas, 2010-
        2012.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        Oppenheimer, Blend, Harrison, and Tate, Inc., Shareholder, San 
        Antonio, Texas, 2001-2014.

        Strasburger and Price, LLP, Partner, San Antonio, Texas, 2012-
        present.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        American Bar Association Section of Taxation
             Member, 1992-present.
             Tax Court Committee Chair, 2009-2011; Vice-Chair, 2007-
        2009; Member, 2002-2013.
             Pro Bono Committee, Vice Chair, 2009-2011.
             Pro Bono Award Committee, 2014-2016.

        American College of Tax Counsel
             Member, 2014-present.

        American Society of Women Accountants
             Member, 2007-2011.

        Bexar County Women's Bar Association and Foundation
             Vice-President, approx. 2002.
             Treasurer, approx. 1997-1998.
             Board Member, approx. 1999-2001.
             Member, 1994-present.

        Girl Scouta of America
             Troop Leader, 2006-2013.
             Administrative Assistant, 2011-2014.
             Assistant Troop Leader, approx. 1988-1989.

        San Antonio Bar Association
             Member, 2004-present.

        San Antonio Bar Foundation
             Member, 2015-present.

        San Antonio Chapter of the Texas Society of Certified Public 
        Accountants
             Member, 1986-1987 and 1995-2013.

        State Bar of Texas Tax Section
             Chair, 2013-2014.
             Chair-Elect, 2012-2013.
             Secretary, 2011-2012.
             Treasurer, 2010-2011.
             Council Member, 2004-2012.
             Pro Bono Committee Chair, 2007-2010 and 2017-present.
             Tax Controversy Committee Chair, 2002-2004, and Vice-
        Chair, 2001-2002.

        Texas Society of Certified Public Accountants
             Member, 1986-1987 and 1995-2013.

        Travis Park United Methodist Church
             Scholarship Committee Chair, 2004-2005.
             Finance Committee, 2006-2006.
             Foundation Board Member, 2004-2005.
             Staff-Parish Relations Committee, 2007.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       Phone Bank for the 2008 Election Campaign of Barak Obama.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.


               Elizabeth Copeland  Political Contributions
------------------------------------------------------------------------
            Recipient                      Date               Amount
------------------------------------------------------------------------
2008
    Hillary Clinton for President         May 23, 2008           $50.00
    DNC                                August 13, 2008           $25.00
    DNC                                October 6, 2008          $100.00
    Obama for America                 October 13, 2008          $100.00
 
2009
    Hillary Clinton                   January 24, 2009           $50.00
    DNC                                  April 9, 2009           $50.00
    Campaign to Elect Renee              June 24, 2009          $100.00
     McElhaney (R)
    DNC (Reforming Health Care)        October 1, 2009          $100.00
    Polly Jackson Spencer              October 1, 2009          $100.00
     Campaign
    Texans for Kay Bailey             November 2, 2009          $200.00
     Hutchison (R)
    Peter Sakai                      November 11, 2009           $25.00
 
2010
    Campaign to Elect Renee          February 28, 2010           $50.00
     McElhaney (R)
    Cathy Stryker (R)                      May 2, 2010          $100.00
    DNC (Barack Obama B-Day)             July 19, 2010          $100.00
    Marialyn Barnard (R)               August 16, 2010           $25.00
    DNC (November Elections)           August 24, 2010           $50.00
 
2012
    Obama for America                 January 22, 2012           $50.00
    DNC                                  April 6, 2012           $50.00
    Texas Democratic Party               April 6, 2012           $50.00
    Obama for America                    April 6, 2012           $50.00
    Obama Victory Fund                October 16, 2012          $147.00
    Obama Victory Fund 2012           October 30, 2012          $112.00
 
2013
    DNC                              February 15, 2013          $100.00
    Mayor Julian Castro Campaign     February 21, 2013          $100.00
    DNC                                 April 15, 2013           $50.00
    DNC                                   June 5, 2013          $100.00
    State Party Victory Fund              May 20, 2013           $50.00
    Texas Democratic Party                May 20, 2013           $50.00
    DNC Onlinedemocrats.org           October 16, 2013           $10.00
    DNC Onlinedemocrats.org          November 11 ,2013           $35.00
    Democratic Party (online)        November 26, 2013           $10.00
 
2014
    Patricia Rouse Vargas             February 6, 2014          $100.00
    DNC                              February 17, 2014           $25.00
    DNC                                  March 9, 2014           $10.00
    DNC                                 March 31, 2014           $15.00
    DNC                                  April 9, 2014           $10.00
    DNC                                    May 4, 2014           $55.00
    Renee McElhaney for Judge (R)        June 19, 2014          $100.00
    DSCC (Act Blue)                      June 30, 2014           $17.00
    Act Blue DSCC                        July 30, 2014           $25.00
    DNC                             September 30, 2014           $50.00
    DNC                                October 8, 2014           $50.00
    Democratic Senatorial           September 30, 2014           $25.00
     Campaign Committee
    Pete Gallego                      October 10, 2014           $35.00
 
2015
    DNC Membership                       April 7, 2015           $75.00
------------------------------------------------------------------------


14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        Best Tax Lawyers in America, Best Tax Lawyer in San Antonio, 
        2011, 2017, and 2018, listed in Best Lawyers, 2006-present.

        S.A. Scene Magazine, San Antonio's Best Tax Law Attorneys, 
        2004-present.

        Thompson Reuters, San Antonio Super Lawyer, 2003-present.

        Taxanalysts Tax Notes, 2012 Top 10 Tax Persons of the Year, 
        January 2013.

        Bexar County Women's Bar Association, Belva Lockwood 
        Outstanding Lawyer, 2010.

        American Bar Association, Section of Taxation, Janet Spragens 
        Pro Bono Award, 2009.

        American Society of Women Accountants, Balance Award, 2007.

        Bexar County Women's Bar Association, Belva Lockwood 
        Outstanding Young Lawyer, 1998.

        Fulbright and Jaworski, Outstanding Second Year Law Student, 
        1991.

        University of Texas at Austin McCombs School of Business, 
        Outstanding Student, 1986.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

       ``An Update on Innocent Spouse Claims,'' Texas Tax Lawyer, 
spring 2013. Copy attached.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):


                           Elizabeth Copeland
                         Five Year Speech Chart
------------------------------------------------------------------------
        Date                      Speech                Event/Location
------------------------------------------------------------------------
                              2012 Speeches
------------------------------------------------------------------------
    June 12, 2012     Preparing Form 8857,           Tax Alliance
                       Preparing a Protest,           Conference Boot
                       Defending an Innocent Spouse   Camp
                       at the IRS Office of
                       Appeals, then Mock Trial--
                       Innocent Spouse Case
------------------------------------------------------------------------
    August 7, 2012    FATCA: The U.S. Attempt to     San Antonio CPA
                       Take on the World:             Chapter--Speaker
                       Understanding Form 8938,       Series
                       FATCA, and Other Foreign
                       Account Disclosure Issues
------------------------------------------------------------------------
    August 23, 2012   FATCA: The U.S. Attempt to     Rio Grande Valley
                       Take on the World:             Chapter of CPAs
                       Understanding Form 8938,
                       FATCA, and Other Foreign
                       Account Disclosure Issues
------------------------------------------------------------------------
    September 17,     How to Handle the Most Common  Strasburger and
     2012              IRS Disputes (Independent      Price, LLP 2012
                       Contractor vs. Employee,       Tax Symposium
                       Trust Fund Recovery Penalty,   (Dallas)
                       Innocent Spouse,
                       Substantiation, and
                       Reporting Foreign Assets)
------------------------------------------------------------------------
    September 19,     How to Handle the Most Common  Strasburger and
     2012              IRS Disputes (Independent      Price, LLP 2012
                       Contractor vs. Employee,       Tax Symposium (San
                       Trust Fund Recovery Penalty,   Antonio)
                       Innocent Spouse,
                       Substantiation, and
                       Reporting Foreign Assets)
------------------------------------------------------------------------
    November 9, 2012  Tax Issues in Divorce          Austin Chapter of
                                                      the Texas Society
                                                      of Certified
                                                      Public Accountants
------------------------------------------------------------------------
                              2013 Speeches
------------------------------------------------------------------------
    May 30, 2013      How to Handle the Most Common  San Antonio Chapter
                       IRS Disputes (Independent      of the TSCPA
                       Contractor vs. Employee,
                       Trust Fund Recovery Penalty,
                       Innocent Spouse,
                       Substantiation, and
                       Reporting Foreign Assets)
------------------------------------------------------------------------
    June 13, 2013     Texas Community Property:      Tax Alliance
                       When Is What Is Mine Ours?     Conference
------------------------------------------------------------------------
    August 1, 2013    Planning for the Modern        San Antonio Chapter
                       Family: How to Advise          of the TSCPA
                       Clients Now That the U.S.
                       Supreme Court Has Struck
                       Down DOMA
------------------------------------------------------------------------
    August 6, 2013    Planning for the Modern        BCWB Luncheon (San
                       Family: How to Advise          Antonio)
                       Clients Now That the U.S.
                       Supreme Court has Struck
                       Down DOMA
------------------------------------------------------------------------
    August 13, 2013   Honey! You Shrunk Our Assets!  Amarillo Chapter of
                       A Discussion of Tax Issues     TSCPA
                       in Divorce
------------------------------------------------------------------------
    August 14, 2013   Community Property and Tax     Tax Law 101 Texas
                       Issues                         Bar CLE (Houston)
------------------------------------------------------------------------
    August 16, 2013   Hot Issues Under Circular      Advance Tax Law
                       230: A Dialogue With the       Course (Houston)
                       Director
------------------------------------------------------------------------
    August 26-27,     Handling IRS Appeals and       Strasburger and
     2013              Other Tax Controversies        Price 2013 Annual
                                                      Tax Symposium
------------------------------------------------------------------------
    September 27,     A War of the Roses--A          San Antonio Chapter
     2013              Discussion of Tax Issues in    of the TSCPA 15th
                       Divorce                        Annual CE
                                                      Symposium
------------------------------------------------------------------------
    October 17, 2013  Administrative Collection      ALI/CLE Handling a
                       Procedures: Collection Due     Tax Controversy:
                       Process, Offers in             Audits, Appeals,
                       Compromise, and Installment    Litigation, and
                       Agreements and Section 6672    Collections
                       Penalty Matters
------------------------------------------------------------------------
    November 18,      It's a Small World After All-- 2013 Austin CPA
     2013              Understanding FACTA and the    Chapter Annual Tax
                       IRS's Offshore Voluntary       Conference
                       Disclosure Program
------------------------------------------------------------------------
                              2014 Speeches
------------------------------------------------------------------------
    January 25, 2014  Foreign Bank Accounts: The     ABA Section of
                       Latest Developments in OVDP,   Taxation, Midyear
                       Opt Outs, Examinations, and    Meeting, Phoenix,
                       Other IRS Offshore             AZ
                       Enforcement Activities
------------------------------------------------------------------------
    February 21,      Current Issues in Estate       Docket Call in
     2014              Planning: Portability and      Probate Court
                       DOMA                           Seminar Sponsored
                                                      by the San Antonio
                                                      Estate Planners
                                                      Council
------------------------------------------------------------------------
    March 5, 2014     Interest Charge Domestic       Strasburger and
                       International Sales            Price, LLP Tax
                       Corporations (IC-DISC)         Section
------------------------------------------------------------------------
    May 13, 2014      Attention U.S. Manufacturers   San Antonio Chapter
                       and Exporters--You Are         of the TSCPA
                       Paying Too Much U.S. Tax
------------------------------------------------------------------------
    June 11, 2014     Planning for the Modern        Tax Alliance
                       Family--Advising Clients       Conference, Plano,
                       After the Supreme Court        TX
                       Overturned Portions of DOMA
------------------------------------------------------------------------
    July 22, 2014     Don't Get an ``F'': Learn the  ADKF, San Antonio,
                       Latest on FATCA and FBAR       TX
                       Compliance
------------------------------------------------------------------------
    August 15, 2014   Don't Get an ``F'': Learn the  SACPA Continuing
                       Latest on FATCA and FBAR       Education
                       Compliance                     Foundation, Inc.
------------------------------------------------------------------------
    August 25, 2014   Current Developments in Civil  2014 Strasburger
                       and Criminal Controversies     and Price
                                                      Symposium / Dallas
------------------------------------------------------------------------
    October 23, 2014  Don't Get an ``F'': The        Rio Grande Valley
                       Latest on FATCA and FBAR       Chapter of CPAs
                       Compliance
------------------------------------------------------------------------
    November 17,      Don't Get an ``F'': The        Austin CPA Chapter
     2014              Latest on FATCA and FBAR       2014 Annual Tax
                       Compliance                     Conference
------------------------------------------------------------------------
    November 20-21,   Planning for the Modern        Texas Society of
     2014              Family--Advising Clients       CPAs 2014 Texas
                       After the Supreme Court        Tax Institute
                       Overturned Portions of DOMA
------------------------------------------------------------------------
                              2015 Speeches
------------------------------------------------------------------------
    May 7, 2015       No Pain--Big Gain: Assisting   ABA Section of
                       Self- Represented              Taxation, Annual
                       Petitioners at Calendar Call   Meeting,
                                                      Washington, DC
------------------------------------------------------------------------
    July 27, 2015     Foreign Bank and Financial     2015 U.S. Mexico
                       Accounts Report (``FBARs'')    Conference
------------------------------------------------------------------------
    November 19,      Recent Development in          Annual Texas CPA
     2015              Individual Federal Income      Tax Institute--
                       Taxation                       Richardson, TX
------------------------------------------------------------------------
    November 20,      Recent Development in          Annual Texas CPA
     2015              Individual Federal Income      Tax Institute--San
                       Taxation                       Antonio, TX
------------------------------------------------------------------------
                              2016 Speeches
------------------------------------------------------------------------
    January 25, 2016  Individual Tax Update PATH     Akin, Doherty,
                       Act Changes to TEFRA           Klein, and Feuge,
                       Partnership Audit Rules and    P.C. Internal CPE
                       Recent Developments in         for CPA Firm
                       Individual Federal Income
                       Taxation
------------------------------------------------------------------------
    March 25, 2016    Qualities of Effective         2016 Leadership
                       Leaders                        Academy
------------------------------------------------------------------------
    October 26, 2016  Federal Tax Controversy Hot    State Bar of Texas
                       Topics                         Annual Advanced
                                                      Tax Law Course
------------------------------------------------------------------------
                              2017 Speeches
------------------------------------------------------------------------
    May 12, 2017      Breaking Bad--Dealing With     ABA Section of
                       the Partnership Audit Rules    Taxation May
                       and Partnership Agreement      Meeting
                       Drafting Considerations
------------------------------------------------------------------------
    June 14, 2017     Effective Representation in    Texas Federal Tax
                       Today's IRS Appeals            Institute
------------------------------------------------------------------------
    July 26, 2017     Breaking Bad--Dealing With     ABA Section of
                       the Partnership Audit Rules    Taxation Webinar
                       and Partnership Agreement
                       Drafting Considerations
------------------------------------------------------------------------
    August 18, 2017   Federal Tax Controversy--Hot   State Bar of Texas
                       Topics 2017                    Annual Advanced
                                                      Tax Law
------------------------------------------------------------------------


17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have been practicing tax law in the tax controversy area for 
        over 20 years. I have tried many cases in the United States Tax 
        Court and settled many more over the years. I regularly speak 
        to CPA and attorney groups on tax law topics. Most importantly, 
        I was instrumental in developing the Tax Court Pro Bono Program 
        for the State Bar of Texas Tax Section that assists low-income 
        taxpayers throughout the State of Texas with their cases in 
        front of the United States Tax Court. Because an extremely 
        large percentage of cases that come before the United States 
        Tax Court involve pro se litigants, my work and experience with 
        that program will be a valuable resource for understanding how 
        to deal with such persons in the courtroom.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        In connection with the nomination process, I have consulted 
        with the Administrative Office of the U.S. Courts (AOUSC) to 
        prepare and file a financial disclosure report in compliance 
        with the Ethics in Government Act of 1978. The AOUSC Committee 
        on Financial Disclosure has confirmed that my report, which has 
        been provided to the committee, is in compliance with 
        applicable laws and regulations.

        I am not aware of any potential conflicts of interest. Should 
        any matter arise that involved an actual or potential conflict 
        of interest, I would handle it by careful and diligent 
        application of the Code of Conduct for United States Judges as 
        well as other relevant canons and statutory provisions, and I 
        would consult with the appropriate ethics officials in the 
        AOUSC, as applicable.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        Please note that the Tax Court hears cases all over the 
        country. I would unlikely be assigned to administer the Tax 
        Court calendar for my home city of San Antonio, which would 
        eliminate almost all appearances of conflict of interest.

        As a partner in Strasburger and Price, LLP, I could perceive a 
        potential conflict if one of the attorneys from that firm were 
        to appear in my courtroom. I would offer to recuse myself from 
        that litigation, should that occur.

        If Valero Energy Corporation (``Valero'') were a litigant in my 
        courtroom, I would also likely need to recuse myself, because 
        they were a large client in the past; however, I am not aware 
        of any Tax Court case pending for Valero.

        I am listed as one of the attorneys for the following Tax Court 
        case that would require me to withdraw as counsel and 
        subsequently recuse myself from the litigation or any Tax Court 
        deliberations: James Ivy.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

        As Chair of the State Bar of Texas Tax Section, I submitted the 
        following comment projects on behalf of the Tax Section (copies 
        attached):

        Comments Concerning the Proposed Amendments to Rules 1, 182(e), 
        183, 200, and 202 of the United States Tax Court Rules of 
        Practice and Procedure (9/6/05);

        Comments Regarding Privacy Protection for Filings Made With the 
        Court (2/2/06):

        Comments Regarding Proposed Amendments to the Rules of the 
        United States Tax Court (2/27/12);

        Comments on the Material Advisor Penalty Regulations (9/19/13);

        Comments on the Innocent Spouse Relief Regulations (1/7/14);

        Comments on Proposed Section 1411 Department of Treasury 
        Regulations (2/20/14);

        Comments on the Proposed Treasury Regulations regarding 
        ``Excepted Benefits'' for Purposes of the Affordable Care Act 
        (2/24/14);

        Comments on the Proposed Regulations Covering Section 706 QDOT 
        Elections (3/19/14);

        Comments on Proposed New Texas Comptroller of Public Accounts 
        Rule 3.11 Regarding Settlements on Redetermination (4/4/14);

        Comments on Proposed Treasury Regulations Covering Section 
        1.704-3 (5/5/14);

        Comments on Proposed Regulations Regarding Disguised Sales and 
        the Allocation of Liabilities (6/20/14);

        Comments on Internal Revenue Notice 2014-5, Discrimination 
        Testing Standards Applicable to Softly Frozen Defined Benefit 
        Pension Plans (6/25/14); and

        Comments on Circular 230's Prohibition Against Contingent Legal 
        Fees (6/26/14).

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        If confirmed, I will carefully review any potential conflicts 
        by reference to 28 U.S.C. Sec. 455, Canon 3 of the Code of 
        Conduct for United States Judges, and any and all other laws, 
        rules, and practices governing such circumstances. I will also 
        consult, as applicable, with the appropriate ethics officials 
        in the AOUSC.

 5.  Copies of opinions--Two copies of written opinions should be 
provided directly to the committee by the designated agency ethics 
officer of the agency to which you have been nominated and by the 
Office of Government Ethics concerning potential conflicts of interest 
or any legal impediments to your serving in this position.

        Provided to the committee.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court or administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 

                  An Update on Innocent Spouse Claims

                      by Bryan T. Camp, Esq. and 
                     Elizabeth A. Copeland, Esq.\1\
---------------------------------------------------------------------------

    \1\ Both authors are honored to have been listed as two of nine 
runners-up for the 2012 Tax Persons of the Year by Tax Analysts 
2013<SUP><dbl-dagger></SUP> in the January 7, 2013 issue of tax 
notes<SUP>'</SUP>.

---------------------------------------------------------------------------
I. ISSUES RELATED TO THE FILING OF RETURNS.

    A. Joint Returns and Joint and Several Liability. The decision to 
file a joint return is one that must be carefully thought out during 
periods of separation and divorce or within a troubled marriage because 
of the joint and several liability issues in connection with the filing 
of a joint return.

    B. Consider Filing Separately. Historically, the tax on married 
couples filing jointly generally has been lower than the combined tax 
on married couples filing separate returns. Now, however, in many 
cases, a married couple's tax will be the same whether they file 
jointly or separately. That's because (1) the end point of the 15% 
bracket for married couples filing jointly is now twice the end of the 
15% bracket for a single filer or a married person filing separately, 
I.R.C. Sec. 1(f)(8)) and (2) the standard deduction for a married 
couple filing jointly is twice the standard deduction of a single 
person or a married person filing separately. I.R.C. Sec. 63(c)(2)). 
Thus, if there is a pending divorce or a spouse has questionable tax 
items, there may now be greater occasion to file separately than in the 
past because, in many cases, filing separately may no longer involve an 
increased tax cost or may only involve a slightly or moderately 
increased tax cost. However, joint filing may still produce a lower tax 
cost in many situations because there is still a marriage penalty for 
the income brackets above the 15% bracket and numerous tax breaks are 
unavailable \2\ or less favorable on separate returns.
---------------------------------------------------------------------------
    \2\ Filing a separate return can result in the loss of important 
tax credits. For example, a married couple cannot file separate returns 
and claim the earned income tax credit.

    C. Using I.R.C. Sec. 66 to Escape Community Property Rules in Year 
---------------------------------------------------------------------------
of Divorce.

    In Texas, a community property state, tax returns filed during 
periods of separation and in the year of divorce can be a trap for the 
unwary. It is important to note that, with the exception that will be 
discussed below related to I.R.C. Sec. 66, spouses are required to file 
either joint returns or married filing separate returns during periods 
of separation. In addition, in the year of divorce, one-half of all 
community income must be reported on the federal income tax return of 
the non-earning spouse, if earned prior to the date the decree becomes 
final Community income includes wages, partnership income and other 
business income generated by a former spouse. This means where there is 
a gross disparity in earning power as between husband and wife, in the 
year of divorce the lower earning spouse will have a substantial tax 
liability for the one-half of all community income earned by the higher 
earning spouse up until the dissolution of the marriage. That lower 
income spouse may not have the assets to cover that liability.

  1. Requirements for I.R.C. Sec. 66.

    The United States Congress recognized this potential disparity and 
passed I.R.C. Sec. 66 as a solution or some spouses. However, the rules 
under I.R.C. Sec. 66 are very stringent and do not apply in all 
situations. In order for I.R.C. Sec. 66 to apply:

        a. The spouses must live apart at all times during the calendar 
        year;
        b. They must not file a joint tax return for that year;
        c. They must have earned income which is community income; and
        d.  They must not transfer any portion of that earned income 
        between spouses except for the payment of child support.

    If these conditions are met, then the earned community income, 
meaning wages and self-employment income from trades or businesses or 
partnerships, will be reportable by the party who earned the income 
rather than one-half being allocated to the non earning spouse under 
community property laws. Very importantly, all other community income 
such as interest, dividends or capital gains are split equally and must 
be reported one-half by each spouse, even under the application of 
I.R.C. Sec. 66.

    It should be made clear that alimony payments, during the period of 
separation, destroy the applicability of I.R.C. Sec. 66 because they 
allow for the transfer of income. Any support and separate maintenance 
payments are also problematic to the applicability of I.R.C. Sec. 66. 
On the other hand, payment of child support during periods of 
separation is acceptable and does not impair the parties ability to use 
I.R.C. Sec. 66.

    This means that where income is shared between spouses (except for 
child support) I.R.C. Sec. 66 will not apply. To avoid this egregious 
result, the earned income between spouses should be separately 
accounted for during the periods of separation. If there are other 
assets available to maintain and support the spouse, those assets 
should be used during the periods of separation. For example, if there 
is an existing bank account or investment account with sufficient 
assets to pay the house payment and other direct expenses, those assets 
should be used rather than the continuing earned income during the year 
of separation. All checks should be written by the spouse living in and 
using the house (electricity, etc.). If the earned income of the higher 
earning spouse is used to make house payments and pay other bills, the 
provisions of I.R.C. Sec. 66 will not apply.

  2. Client Doesn't Want I.R.C. Sec. 66 to Apply.

    If it is beneficial to your client to split earned income, he/she 
may be precluded from doing so under I.R.C. Sec. 66(b), unless such 
client notifies the other spouse prior to the due date of the return 
(April 15th) the amount of the community income to be split and the 
nature of such income (wages, interest earnings, partnership income, 
etc.).

  3. Case Law.

    Will the Internal Revenue Service look into these items? What has 
the Internal Revenue Service done in the past? Although not a targeted 
area, the Internal Revenue Service has shown a willingness to 
investigate I.R.C. Sec. 66 abuses. For example, in a case involving a 
Texas couple, Cline v. Commissioner, T.C. Memo 1982-44 (1982), the 
Clines, a separated but not yet divorced couple who were residents of 
Texas during 1977, filed married, filing separate returns. Mrs. Cline 
reported 100% of the community income as it was earned by her. She also 
paid 100% of the tax liability attributable to that income. In later 
years, the Internal Revenue Service audited Mr. Cline's return and 
allocated to him one-half of the community income, even though that tax 
had already been paid by Mrs. Cline on her return. The court upheld the 
determination by the Internal Revenue Service.

    In another Texas case, Adams v. Commissioner, 82 T.C. 563 (1984), a 
Texas couple was divorced in 1977. The husband was a partner in a CPA 
firm On each of their returns in the year of divorce, the couple 
reported their share of the partnership income up until the time of 
divorce. Mrs. Adams used a per share per day pro rata method of 
allocating income and Mr. Adams awaited the closing of the books and 
made an allocation based on the full year's earnings. Mr. Adams' return 
was subsequently adjusted, even though his manner of reporting the 
income was an acceptable method. Mr. Adams' method was inconsistent 
with the methods as between both spouses and resulted in a loss of 
revenue to the taxing authority based on the different methods used 
between the parties. The lesson learned in this case was that the 
parties must agree in the decree of divorce how business income of 
partnerships, S-corporations, or limited liability companies will be 
allocated in the year of divorce.

II. OTHER CONSIDERATIONS

    A. Using I.R.C. Sec. 7703 to File as Head of Household Prior to 
Divorce

    I.R.C. Sec. 66 helps spouses deal with inequities resulting from 
the application of community property laws during periods of separation 
and divorce. In addition, the Internal Revenue Code provides an 
additional benefit for separated spouses who maintain a household for a 
dependent child or children. That benefit is found at I.R.C. Sec. 7703.

    1. I.R.C. Sec. 7703. Under I.R.C. Sec. 7703, a taxpayer may file an 
individual return claiming head of household status, even though 
married, if the following requirements are met:

            a.  The taxpayer has a child;
            b.  The taxpayer has paid greater than one-half of the 
        expenses maintaining the household for that child;
            c.  The parties were separated for greater than 6 months; 
        and
            d.  The spouse has not lived in the home for the last six 
        months of the tax year.

    This is an excellent opportunity for the taxpayer supporting a 
child to take advantage of the head of household rate schedules, rather 
than deciding between a Married Filing Separate tax return or the 
liability associated with a Joint Return. Remember though that I.R.C. 
Sec. 7703 deals with filing status only; to avoid reporting \1/2\ of 
community income on the head of household return refer to I.R.C. 
Sec. 66(b) discussion above.

    2. The Noncustodial Spouse. The logical extension of the rule under 
I.R.C. Sec. 7703 is that the separated spouse, who is not maintaining a 
household for the child(ren) will have to file under a married filing 
separate status.

III. OVERVIEW OF INNOCENT SPOUSE RULES.

    Thankfully, legislation provides relief to certain spouses who have 
filed joint returns. The relief is found in I.R.C. Sec. 6015. For an 
account of the very interesting legislative history of this statute, 
enacted as part of the 1998 IRS Restructuring and Reform Act, see Bryan 
T. Camp, Between a Rock and a Hard Place, 108 Tax Notes, 359 (July 18, 
2005), available at http://papers.ssm.com/sol3/papers.cfm?abstract_
id=911275; and Bryan T. Camp, The Unhappy Marriage of Law and Equity in 
Joint Return Liability, 108 Tax Notes, 1307 (September 12, 2005): 
http://papers.ssrn.com/sol3/papers.cfm?abstract_id=1505653.

    After 1998, the following three types of relief are available:

    A. Sec. 6015(b) Traditional Innocent Spouse Election

    Taxpayers can elect this relief when:

        1.  A joint return has been filed for the taxable year;
        2.  There is an understatement of tax on the return 
        attributable to the erroneous items of the non-requesting 
        spouse;
        3.  In signing the return, the requesting spouse did not know 
        or had no reason to know, that there was such an 
        understatement;
        4.  Taking into account all of the fact and circumstances, it 
        is inequitable to hold the requesting spouse liable for the 
        deficiency in tax; and
        5.  The request is made within two years of when IRS collection 
        action first initiated.

    B.  Sec. 6015(c) Separate Liability Election

    Taxpayer can elect this relief when:

        1.  In signing the return, the requesting spouse had no actual 
        knowledge that there were erroneous items of the non-requesting 
        spouse;

        2.  At the time the election is filed, the requesting spouse is 
        no longer married to, or is legally separated from, the non-
        requesting spouse; or the requesting spouse was not a member of 
        the same household as the non-requesting spouse at any time 
        during the 12-month period ending on the date the election is 
        filed; and

        3.  The request is made within two years of when IRS collection 
        action first initiated.

    C.  Sec. 6015(f) Equitable Relief:

    The Service will grant this relief when:

        1.  Relief is not available under I.R.C. Sec. Sec. 6015(b) or 
        (c); and
        2.  Taking into account all the facts and circumstances, it is 
        inequitable to hold the requesting spouse liable.

To help taxpayers and Courts with this ``facts and circumstances'' 
test, the IRS has published guidance laying out a variety of factors 
that its employees will use in deciding whether to grant relief 
requested under subsection (f). While these are very helpful for 
practitioners to know, the Tax Court has repeatedly emphasized that: 
``In section 6015(f) cases, however, we do not simply count [the IRS 
factors]. Likewise, we are not bound by them. The factors are 
guidelines we use in evaluating all of the relevant facts and 
circumstances to reach a conclusion.'' Henson v. Commissioner, T.C. 
Memo 2012-288.

The last published guidance from the Service on what factors it would 
consider in determining relief under subsection (f) was Rev. Proc. 
2003-61. On January 5, 2012, the Service issued Notice 2012-8 which 
proposed a revenue procedure that, if finalized, would revise the 
factors and supersede Rev. Proc. 2003-61.

Notice 2012-8 states that, ``until the revenue procedure is finalized, 
the Service will apply the provisions in the proposed revenue procedure 
instead of Rev. Proc. 2003-61 in evaluating claims for equitable relief 
under section 6015(f).'' However, the Notice also states that a 
taxpayer requesting relief can choose either set of factors to be 
evaluated under.

As of the date this Article was submitted, the IRS has not issued a 
final Rev. Proc. That supersedes Rev. Proc. 2003-61. In Sriram v. 
Commissioner, T.C. Memo. 2012-91 the Tax Court said it would ``continue 
to apply the factors in Rev. Proc. 2003-61, 2003-2 C.B. 296, in view of 
the fact that the proposed revenue procedure is not final and because 
the comment period under the notice only recently closed.''

The main difference between the Rev. Proc. factors and the Notice 2012-
8 factors is the Service's treatment of the abuse and financial control 
factors. The Service has eliminated ``abuse'' as a separate factor. 
Instead, the Service will now consider both spousal abuse and control 
of household finances as part of its determination on whether the 
requesting spouse knew or had reason to know of either the 
understatement of tax or the underpayment, as the case may be. If the 
requesting spouse was abused (and the Notice describes a broad concept 
of abuse in 4.03(2)(c)(iv)) or if the other spouse kept control of the 
household finances by restricting the requesting spouse's access to 
financial information, then such situations could make this factor 
neutral or weigh in favor of the granting the requested relief.

IV.  PROCEDURES FOR SEEKING SPOUSAL RELIEF.

    Taxpayers can use a combination of administrative procedures and 
judicial procedures to get spousal relief.

    A. Administrative Procedures to Seek Relief.

The IRS basically has two jobs: to determine the proper tax, which it 
then assesses, and to collect a properly assessed but unpaid tax. 
Taxpayers can seek spousal relief from the IRS in both the tax 
determination stage and tax collection stage.

First, taxpayers can seek spousal relief as part of the deficiency 
proceedings. Before 1998, this was the only procedure available. 
Taxpayers would ask for relief as part of the audit process, including 
any meetings with the Office of Appeals. If the IRS denied relief, that 
would be part of the Notice of Deficiency (NOD), which is the ``ticket 
to the Tax Court.'' So taxpayers could then obtain Tax Court review of 
that denial as part of a petition contesting the deficiency.

Second, taxpayers can seek relief as part of the Collection Due Process 
(CDP) hearing. This second procedure is one Congress added in the 1998 
IRS Restructuring and Reform Act (RRA 98). It is a post-assessment 
procedure. Before the IRS may use its full lien and levy powers, it 
must give taxpayers a chance to show why liens and levies were not 
appropriate collection actions. See Sec. 6220, 6230. The IRS does this 
through a special notice, called the CDP Notice, which gives taxpayers 
30 days to ask for a CDP hearing with the Office of Appeals. As part of 
the hearing about the appropriateness of collection, taxpayers could 
ask for spousal relief After all, it's not appropriate to collect a tax 
that should not have been assessed! The Office of Appeals makes its 
decision by issuing a document called a ``Notice of Determination'' 
(note the ``NOD'' abbreviation here--that's on purpose). Just like a 
``Notice of Deficiency,'' the ``Notice of Determination'' is a ticket 
to Tax Court review. If you want Tax Court review, you must have an NOD 
of some sort!

Notice that both the NOD procedures allow taxpayers to ask for spousal 
relief as part of another procedure (either review of a proposed 
deficiency or review of a proposed collection action).

Third, a taxpayer can seek spousal relief at any time after the IRS has 
begun collection action against him or her. This third procedure 
results in what is called a ``stand-alone'' petition for relief. It is 
not part of any other type of proceeding. The taxpayer can then appeal 
any denial of relief to the Office of Appeals who will issue a Notice 
of Determination that is, once again, a ticket to Tax Court review. See 
Sec. 6015(e).

Fourth, taxpayers can seek spousal relief through a claim for refund. 
This is a very different procedural posture from the other three. The 
first three procedures are all pre-payment procedures. However, a claim 
for refund is a post-payment procedure. That is, whenever a taxpayer 
has fully paid all the taxes assessed by the IRS, that taxpayer can 
file an administrative claim for refund, giving any good reason why the 
taxpayer may have overpaid. Section 6511 requires that administrative 
claims for refunds be filed either within 3 years after a return was 
filed or within 2 years after the payment was made. Remember, however, 
that refunds are not allowed as part of the relief under Sec. 6015(c), 
but only for (b) and (f) relief.

    1.  Preparing the Administrative Claim: Form 8857

In all of the above procedures, the taxpayer starts the administrative 
claim process with a Form 8857. Although claims for refund are made on 
Form 1040x, taxpayers would attach a Form 8857 to it. Further, although 
the Internal Revenue Manual (IRM) says that the IRS will accept any 
submission so long as it contains all the information, it is best to 
use Form 8857. That is the form the IRS designed and that is the form 
IRS employees are trained to interpret.

The basic rule here is: be as thorough as possible as time permits. 
Putting in the time and effort on the front end will not only save time 
and effort on the back end, but will also increase the chances of 
success. Thoroughness will not only help the IRS employee see the truth 
but will also demonstrate the taxpayer's determination to obtain 
relief. That determination itself may persuade an IRS employee to grant 
relief in a close case. This is especially true at the Office of 
Appeals level where the Appeals Officers are supposed to take ``hazards 
of litigation'' into consideration. For the particular rules that the 
Office of Appeals uses to review Spousal Relief denials, see IRM Part 
25, Chapter 15, Section 12 (e.g., IRM 25.15.12).

The most important part of being thorough is finding documents that 
support the information given on Form 8857. For example, if the 
taxpayer claims abuse, try to find documentary evidence of that. If 
there are no police reports, or women's shelter reports, or medical 
reports, try at least getting witness statements. Abuse is not simply a 
one-time event. It is often a pattern of over-controlling that can be 
demonstrated by eyewitnesses over a period of time. On Part V of the 
form, try to provide as much documentation as possible about current 
financial position. Current economic hardship can play a huge role in 
getting spousal relief

Experienced practitioners strongly suggest attaching documentation. The 
best practice here is to attach a narrative. Tell the story and 
methodically explain the basis for relief If the taxpayer seeks 
equitable relief under subsection (f) the best practice is to include a 
chart summarizing each of the ``equitable factors'' contained in Rev. 
Proc. 2003-61, with an explanation of how those factors play out. 
Here's one suggestion:


------------------------------------------------------------------------
                                              Favors
         Factor            Favors IRS?      Taxpayer?        Neutral?
------------------------------------------------------------------------
Marital status
------------------------------------------------------------------------
Economic hardship
------------------------------------------------------------------------
Knowledge or reason to
 know
------------------------------------------------------------------------
    - mitigated by
     abuse?
------------------------------------------------------------------------
    - mitigated by lack
     of control over
     finances?
------------------------------------------------------------------------
Legal obligation to pay
------------------------------------------------------------------------
Significant benefit
------------------------------------------------------------------------
Compliance with tax
 laws
------------------------------------------------------------------------
Mental or physical
 health
------------------------------------------------------------------------
Total
------------------------------------------------------------------------

    2. Timing

Administrative requests must be made timely. As with much else in law, 
the first action to take to seek spousal relief is to figure out how 
much time to you have to file Form 8857. To do this, the best practice 
is to get a transcript of your client's accounts. The easiest way to 
get transcripts is through the IRS e-Services route. If you are not a 
current e-Services user and/or lack access to the e-Service products, 
you must complete an on-line IRS e-file application and pass a 
suitability check which is the same check required by Electronic Return 
Originators. Publication 3112, (IRS e-file Application) contains 
additional details on the application and suitability processes. You 
can also get a transcript by calling the practitioner hotline (866-860-
4259).

A request for spousal relief must not be made too soon or too late. Too 
soon is before the IRS has selected the return for audit or, for 
underpayment situations, before the IRS has taken a collection action 
against the requesting spouse. The following IRS actions open the door 
to requesting spousal relief: (1) sending the requesting spouse a 
Sec. 6330 Collection Due Process (CDP) Notice; (2) making a Sec. 6402 
offset of an overpayment made by the requesting spouse; (3) filing suit 
against the requesting spouse in court; or (4) filing a claim for 
payment of the tax in any proceeding where the requesting spouse is a 
party or which involves property of the requesting spouse. Other 
actions that might be thought of as collection don't count, such as 
notice and demand, the filing of a Notice of Federal Tax Lien (NFTL) 
(although the IRS must send the CDP notice shortly after filing the 
NFTL.

Waiting more than 2 years after the first IRS collection jeopardizes 
spousal relief. The statute says that a taxpayer must seek subsection 
(b) or (c) relief within 2 years after the first collection action 
(listed above). Although the Treasury regulations also create a similar 
2-year period for requests for equitable relief under subsection (f), 
the IRS has stated, in Notice 2011-70, that it will no longer enforce 
the regulation.

    3.  How the IRS Processes the Administrative Claim

Be sure to fill out the current version of the Form 8857, available on 
the IRS website. Send the Form to the Cincinnati Centralized Innocent 
Spouse Operation (CCISO) in the Covington, Kentucky IRS Campus. For 
clients under audit, or who have reached the point in the collection 
process where they get personal ``service'' from an IRS Revenue 
Officer, give a copy to the IRS employee. But the determination gets 
made in at the Cincinnati Centralized Innocent Spouse Operation (CCISO) 
in Covington, Kentucky. See IRM 25.15.8.2.2 (Collection Policy 
Decision) (08-17-2010). So always be sure to send it there.

The first action the IRS takes with each Form 8857 is to see whether it 
is filled out with enough information to make a determination. To be 
processable, the form must at least (1) identify the tax periods for 
which relief is requested; (2) identify the requesting spouse's 
taxpayer identification number; and (3) have a valid signature (one 
that says it is signed under the penalties of perjury). The IRS 
generally accepts faxed documents and considers faxed signatures valid. 
See IRM 25.15.7.5.2 (Screening Procedures) (02-25-2011). Competent 
practitioners, however, should give much more information than the bare 
minimum.

Once an IRS employee accepts a Form 8857 for processing, that employee 
will enter certain freeze codes in the requesting spouse's account to 
prevent further collection actions. See e.g., IRM 25.15.8.5.2.2 
(Processable Form 8857) (08-17-2010). That's the good news. The bad 
news is that the CSED is suspended for the period during which the IRS 
is prohibited from levying against the requesting spouse. See 
Sec. 6015(e)(2).

After the IRS employee decides the submitted Form 8857 is processable, 
a CCISO employee will make a substantive decision about relief. That 
outcome will depend in part on how thorough a Form 8857 is presented. 
If the IRS denies relief, the requesting spouse has a right to go to 
theOffice of Appeals. Good information about representing a client in 
Appeals is here: http://www.irs.gov/individuals/content/
0,,id=98196,00.html.

    4.  Judicial Review of the Administrative Procedure

If the IRS (including the Office of Appeals) denies a taxpayer's 
request for spousal relief, it is generally possible to petition the 
Tax Court for review of the IRS decision, unless the request for 
spousal relief was part of a claim for refund. In that latter 
situation, the proper court is a federal district court or the U.S. 
Court of Federal Claims.

Whether spousal relief arises as part of a deficiency proceeding, a CDP 
proceeding or a stand alone proceeding, the Tax Court now applies the 
same rules of procedure: it allows taxpayers to introduce new evidence 
and reviews the IRS decision de novo. In the past the Tax Court had 
different rules for different procedures but Porter v. Commissioner, 
132 T.C. 203 (2009) changed that and illustrates how judicial review 
works.

In Porter, Suzanne Porter asked for equitable relief from the tax and 
penalties relating to mis-reporting of an early IRA distribution taken 
by her ex-husband. The IRS denied relief. When Porter asked the Tax 
Court to review the case, the IRS argued that the Tax Court should use 
an ``abuse of discretion'' review. That is, the Court should (1) just 
consider the information that the IRS considered, and (2) defer to the 
IRS decision unless the Tax Court thought it was so wrong headed as to 
be an abuse of the IRS discretion. In contrast, Mrs. Porter asked the 
Tax Court to use a ``de novo'' standard of review. That is, the Court 
should (1) consider new information that she wanted to give, and (2) 
not defer to the IRS decision but instead make a completely independent 
decision.

Historically, the Tax Court had used de novo review for Sec. 6015(b) 
and (c) cases, but it had reviewed denials of Sec. 60 l 5(f) relief 
using abuse of discretion standard. That was because the language in 
the Code gave the Tax Court jurisdiction over (b) and (c) cases but not 
(f) cases. However, when Congress passed the Tax Relief and Health Care 
Act of 2006 (TRHCA), 120 Stat. 2922, 3061 (TRHCA), it explicitly gave 
the Court jurisdiction over stand-alone (f) petitions. The Court 
decided that it could apply the same standard of review for 
Sec. 6015(f) relief cases as for (b) and (c) cases. Accordingly, in 
cases brought under I.R.C. Sec. 6015(f), the Court now applies a de 
novo standard of review as well as a de novo scope of review.

Applying that standard in Porter the Court concluded that Ms. Porter 
was entitled to Sec. 6015(f) equitable relief. The Court found that the 
factors favoring relief were: she and her husband were divorced; she 
would suffer hardship if relief were not granted; she didn't receive a 
significant benefit beyond normal support from the IRA distribution; 
and she diligently complied with income tax laws in later years. 
Factors against relief were that Porter had reason to know of the IRA 
distribution because it appeared on the face of their return. Despite 
that, the Court allowed relief; noting that while it had upheld similar 
denials of relief under the abuse of discretion standard, the Court was 
no longer required to defer so much to the IRS. The Court decided that 
Porter's knowledge of the item was outweighed by the other factors and 
was further tempered by the fact that she regularly inquired into her 
husband's :finances during the preceding year and he refused to answer 
or answered evasively.

The Ninth Circuit has recently upheld the Tax Court's decision that 
``de novo'' review was the appropriate scope and standard for it to use 
in reviewing the Service's denial of spousal relief Wilson v. 
Commissioner, 705 F.3d 980 (9th Cir. 2013).

    5. Reconsideration

The IRS has started a spousal reconsideration program, similar to audit 
reconsideration. See IRM 25.15.17. Generally, the IRS will reconsider a 
previously denied claim if the taxpayer shows that the taxpayer's 
previous request was denied because of some communication glitch. This 
is useful if a client tried to get relief on his or her own or if a 
client's spouse had previously sought administrative relief for the 
spouse and had failed, such as was the case in Lantz v. Commissioner, 
132 T.C. 131 (2009), rev 'd 607 F.3d 479 (7th Cir. 2010) (jailed 
dentist tried to obtain spousal relief for his wife from deficiencies 
attributed to his income from Medicare fraud).

B. Seeking Relief Directly from a Bankruptcy Court.

One additional procedure to obtain spousal relief may be bankruptcy. 
Section 505 of the Bankruptcy Code allows a bankruptcy court to 
``determine the amount or legality of any tax.'' Bankruptcy courts have 
used this authority to hear and decide requests for spousal relief. 
Sometimes bankruptcy courts require the debtor to first file an 
administrative claim. See In re Shafman, 267 B.R. 709, 714-717 (Banla. 
N.D. W. VA. 2001) (after filing bankruptcy debtor filed adversary 
proceeding seeking spousal relief from the IRS and court had debtor 
first seek relief from IRS. IRS denial was reviewed (and in part 
reversed) by bankruptcy court). Sometimes they do not. See In re 
Hinckley, 256 B.R. 814 (Banla. M.D. Fla. 2000) (debtor requested relief 
in an objection to IRS tax claim and court ruled on issue without 
requiring administrative determination, granting relief). See also In 
re Waggoner, 100 A.F.T.R.2d (RIA) 6426 (Bankr. N.D. Tex. 2007) (debtor 
sought spousal relief in an adversary proceeding and court rejected the 
IRS defense that the debtor had not first sought administrative 
relief).

As a statutory matter, there is no reason a bankruptcy court cannot, 
independently of the IRS, decide a request for spousal relief under 
either 6015(b) or (c). However, because the statutory language in 
6015(f) says that ``the Secretary may relieve such individual of such 
liability,'' bankruptcy courts have declined to make any independent 
judgment, but instead require the taxpayer to seek relief first from 
the IRS and then review the IRS decision under a more deferential 
standard than the Tax Court uses. See In re Cummings, 2005 Bankr. LEXIS 
2040 (Bankr. S.D. Fla. 2005).

C. Procedural Problems to Watch For.

The reasonable practitioner should be aware of several procedural 
problems (or traps).

    1. The 2-year rule for Sec. 6015(b) and (c) relief

In order to obtain relief under Sec. 6015(b) or (c), the requesting 
spouse must ask at the right time, which is the 2-year period after the 
Service initiates collection action against the requesting spouse. This 
2-year rule creates some problems. Recall that Treas. Reg. 1.6015-5 
says that the 2 year period begins to run from the earliest of the 
following IRS actions: (1) sending the requesting spouse a Sec. 6330 
Collection Due Process (CDP) Notice; (2) making a Sec. 6402 offset of 
an overpayment made by the requesting spouse; (3) filing suit against 
the requesting spouse in court; or (4) filing a claim for payment of 
the tax in any proceeding where the requesting spouse is a party or 
which involves property of the requesting spouse. This generally means 
a federal bankruptcy proceeding, although it might also include a state 
receivership proceeding or a probate proceeding.

The problem is that your client will not always know when the 2-year 
period has started. It is particular difficult to tell when the IRS may 
have performed a setoff of an overpayment that starts the 2-year 
period. That is why it is critical to obtain the account transcript for 
the years the requesting spouse seeks relief Only a transcript will 
reveal whether and when the IRS has taken one of the collection actions 
that trigger the 2-year period.

    2. The One Bite Rule in Sec. 6015(g)

The best way to think of the Sec. 6015(g) rule is to recall the 
difference between claim preclusion and issue preclusion. Claim 
preclusion operates to deny a litigant the ability to re-litigate a 
``claim'' regardless of whether the litigant has new legal arguments or 
new evidence regarding that claim. Claim preclusion bars re-litigating 
any matter that was actually raised or that could have been raised in 
the prior proceeding. In contrast, issue preclusion operates to bar re 
litigation of a particular legal issue when that issue was actually 
raised and litigated in a prior proceeding.

Section 6015(g) establishes a rule of issue preclusion. Section 6015(g) 
basically says that taxpayers get only one chance to ask for spousal 
relief from a court, whether under subsections (b), (c), or (f). 
Specifically, 6015(g) says that if a taxpayer ``participated 
meaningfully'' in any judicial proceeding where a court actually 
considered the issue of spousal relief: then that taxpayer is barred 
from asking any other court for relief.

The problem is knowing when taxpayers have taken that first bite. This 
problem comes up in many ways. It most commonly arises when the IRS has 
audited a return and the couple contests the proposed deficiency in Tax 
Court. If both spouses are parties to the petition, then it may be 
difficult for either spouse to later ask for spousal relief because 
they were supposed to do it as part of the deficiency proceeding. The 
problem is what does ``participated meaningfully'' mean? The Tax Court 
has a good discussion of this in Deihl v. Commissioner, 134 T.C. 156 
(2010). In that case, the taxpayer and her husband were petitioners for 
petitions covering 3 years: 1996, 1997, and 1998. The 1996 pleadings 
had raised the issue of Sec. 6015 relief, but the taxpayer withdrew her 
claim for innocent spouse relief in the stipulation of facts. Neither 
of the petitions for 1997 and 1998 raised the issue. The Tax Court 
decided that (1) the issue was not actually raised because it was not 
in the pleadings for two of the years and it got dropped as uncontested 
in the other year, and (2) the taxpayer did not participate 
meaningfully in the deficiency.

This case has a pretty good discussion of what counts for meaningful 
participation. You can see that by why the Court thought Mrs. Deihl had 
not participated meaningfully in the deficiency proceeding:

        Petitioner, who is not an attorney and did not complete her 
        high school education, did not sign any court documents in the 
        consolidated cases. She did not review the petitions or the 
        stipulations of facts, nor did she agree to any of the 
        stipulations. Mr. MacPherson and Mr. Hartmann did not discuss 
        these documents with petitioner. In fact, she saw them for the 
        first time at trial in the present matter. Petitioner did not 
        meet with any IRS personnel, participate in any settlement 
        negotiations with the IRS, or sit in on any such meetings 
        between her attorneys and the IRS during the litigation in the 
        consolidated cases. However, petitioner was called as a witness 
        in the 2004 trial and testified briefly about certain expenses 
        for entertainment and computers deducted by her and Mr. Deihl's 
        S corporation.

Another time this problem comes up is when the IRS denies a claim, the 
taxpayer does not appeal, and then the taxpayer later submits a new 
claim for spousal relief Can the taxpayer avoid the one-bite rule by 
failing to appeal the first denial? The regulations say no. A 
requesting spouse is entitled to only one final administrative 
determination of relief for a given assessment, unless the spouse was 
still married at the time of the first request and so did not qualify 
for (c) relief In that case the taxpayer can later ask for (c) relief 
and take an appeal See the discussion in Barnes v. Commissioner, 130 
T.C. 248 (2008), where the court dismissed a Sec. 6015(f) claim because 
the IRS had previously denied what was essentially the same claim and 
the taxpayer had not appealed that denial

    3. The Intervening Spouse

In Nunez v. Commissioner, T.C. Memo 2012-121, the tax liability arose 
from the operation of a California business. The issue was whether the 
requesting spouse met the 7th ``threshold'' conditions for relief in 
Rev. Proc. 2003-61, Sec. 4.01, that the tax liability be solely 
attributable to the non-requesting spouse unless the reason the 
requesting spouse had joint liability was solely because of community 
property law. Ms. Nunez claimed that income and expense items were 
attributable to her solely due to the operation of California's 
community property law. Her ex-husband had asked to intervene during 
the administrative process but had not responded to either of two 
letters asking for information and so Appeals closed the case by 
offering the taxpayer full relief. Eventually, the ex-husband contacted 
Appeals and convinced them that the requesting spouse was co-owner of 
the business and so Appeals changed its decision to a grant of 50% 
relief rejecting her testimony that she was listed on the business 
documents only because of California law.

The taxpayer rejected the offer of partial relief and sought review in 
the Tax Court. Again, the ex-husband intervened and his testimony 
helped convinced the Tax Court that the requesting spouse was not only 
the co-owner but that she had actively participated in the business. 
The Court concluded: ``After weighing the testimony and evidence in 
this fact-intensive and nuanced case, we hold petitioner is not 
entitled to relief from joint and several liabilities for the joint 
income tax for each of the years at issue.''

    4. Representing Non-Requesting Spouses

Non-requesting spouses face problems as well. Rev. Proc. 2003 19; 2003 
1 C.B. 371 sets out the rights of non-requesting spouses. Basically, 
the non-requesting spouse can participate in the administrative process 
but has only limited rights to judicial review.

Specifically, if the requesting spouse gets an administrative denial 
and takes it to Tax Court, the non-requesting spouse can intervene and 
participate (if the non-
requesting spouse learns of the Tax Court petition). See King v. 
Commissioner, 115 T.C. 118 (2000) in which a non-requesting spouse was 
allowed to intervene. See also T.C. Rule 325.

However, if the IRS grants relief administratively, there is precious 
little the non-requesting spouse can do about it. In Maier v. 
Commissioner, 119 T.C. 267 (2002), The IRS granted relief under 
Sec. 6015(f) to Judith Maier during the administrative proceedings. 
Husband John Maier filed a petition in Tax Court seeking a 
redetermination of the innocent spouse relief to Judith. Noting that it 
is a court of limited jurisdiction, the Tax Court held that if the 
Judith did not file a petition for review of the Internal Revenue 
Service determination, John could not file a petition and oppose the 
administrative determination granting relief as Congress had not given 
the Tax Court with jurisdiction to hear his case.

V. RECENT DEVELOPMENTS

    A. Changes in Equitable Factors.

On January 5, 2012, the Internal Revenue Service (IRS) released Notice 
2012-8, 2012-4 I.R.B. 309, which proposed a revenue procedure that, if 
finalized, would revise the factors the IRS will use to evaluate a 
requesting spouse's claim for equitable relief under section 6015(f) 
and would supersede Rev. Proc. 2003-61.

Notice 2012-8 states that, ``until the revenue procedure is finalized, 
the Service will apply the provisions in the proposed revenue procedure 
instead of Rev. Proc. 2003-61 in evaluating claims for equitable relief 
under section 6015(f).'' As of the date this Article was submitted, the 
IRS has not issued a final Rev. Proc. that supersedes Rev. Proc. 2003-
61. However, Notice 2012-8 also states that a taxpayer requesting 
relief can choose either set of factors to be evaluated under. The 
major conceptual change in the Notice was to take what had been a 
separate factor--abuse--and use it instead to ameliorate the knowledge 
factor.

In Sriram v. Commissioner, T.C. Memo. 2012-91 the Tax Court said it 
would ``continue to apply the factors in Rev. Proc. 2003-61, 2003 2 
C.B. 296, in view of the fact that the proposed revenue procedure is 
not final and because the comment period under the notice only recently 
closed.''

    B.  Elimination of the 2-Year Period for Requesting (f) Relief.

Treas. Reg. Sec. 1.6015-5(b)(1), implemented by Revenue Procedure 2003-
61, Sec. 4.01(3) both provide that a requesting spouse must file a 
claim for equitable relief (whether under Sec. 6015(f) or Sec. 66(c)) 
no later than 2 years after the date of the Service's first collection 
activity.

The Tax Court had consistently held that the Treasury Regulation was 
invalid. Just as consistently, it was overruled by Circuit Courts of 
Appeal See Bryan T. Camp, Interpreting Statutory Silence, 128 Tax Notes 
501 (August 2, 2010). On April 18, 2011 three U.S. Senators and forty-
nine Congressmen sent letters to IRS Commissioner Douglas Shulman 
urging the IRS to reconsider its position of applying a two year 
limitations period to Sec. 6015(f) relief requests. The Congressmen 
reasoned that the IRS was violating ``the spirit of the law,'' which 
was intended to make it easier for taxpayers to apply for innocent 
spouse relief. The Senators wrote that ``the 2-year limitation served 
to deny equitable relief to the very taxpayers the law was designed to 
reach.''

The Service responded with Notice 2011-70, saying it would not enforce 
the regulatory 2-year rule. Sure enough, in Sec. 4.01(3) of Notice 
2012-8, the Service has proposed removing the 2-year rule from its 
evaluation of Sec. 60 l 5(f) claims. Instead, the Notice provides that 
requests for equitable relief under Sec. 6015(f) or Sec. 66(c) must be 
filed before the expiration of the period of limitation for collection 
under Sec. 6502, or, if applicable, the period of limitation for credit 
or refund under section 6511.

    C. Ninth Circuit Upholds Tax Court De Novo Standard and Scope of 
Review.

Wilson v. Commissioner, 705 F.3d 980 (9th Cir. 2013) is a Ninth Circuit 
case where the panel spit 2-1 over whether the Tax Court properly 
reviewed the IRS decision to deny spousal relief to Ms. Wilson. In its 
review the Tax Court had considered new evidence presented by Ms. 
Wilson that she had not presented during the consideration of her case 
by the IRS Office of Appeals. The Tax Court also applied a de novo 
standard of review, essentially substituting its judgment for the IRS's 
judgment. In light of the new evidence, the Tax Court decided that Ms. 
Wilson was eligible for relief.

The government appealed two issues: (1) whether the Administrative 
Procedure Act limited the Tax Court's review to only such information 
as was in the administrative record; and (2) whether, since the grant 
of Sec. 6015(f) relief was discretionary on the part of the IRS, the 
Tax Court could just substitute its judgment for that of IRS, or must 
instead simply review the decision to ensure the IRS did not abuse its 
discretion.


As to the first issue, the Ninth Circuit found it of great significance 
that when Congress gave the Tax Court jurisdiction to ``determine'' 
Sec. 6015(f) ``petitions'' for relief it used the words ``petition'' 
and ``determine'' rather than ``appeal'' in Sec. 6015(e). The Circuit 
then explained that giving the Tax Court the ability to hear new 
evidence made sense in light of the statutory placement of the Tax 
Court in tax administration and said that not to allow the Tax Court 
the ability to hear new evidence and conduct a de novo hearing in 
Sec. 6015(f) stand-alone petitions would create an anomaly with the 
Court ability to do so when Sec. 6105(f) relief was raised during a 
deficiency proceeding.

As to the second issue, the Ninth Circuit again decided to read the 
``plain'' language of Sec. 6015(e) as allowing the Tax Court to apply a 
de novo standard of review. Here the word was ``determine'' which the 
Ninth Circuit thought was good enough. The court agreed with the 
government that it was illogical for the Tax Court to ``review'' the 
IRS decision for abuse of discretion on the basis of evidence that the 
taxpayer may not have presented to the IRS during the administrative 
process. However, since the Tax Court acted properly to allow new 
evidence, this logic cut against the government's contention that the 
Tax Court was limited to abuse-of-discretion review.

                                 ______
                                 
      Questions Submitted for the Record to Elizabeth Ann Copeland
                 Question Submitted by Hon. John Thune
    Question. Some have criticized the Tax Court for restricting access 
to court documents, when similar documents are publicly available in 
cases being heard by Federal District and Circuit Courts. I understand 
that steps would have to be taken to protect taxpayers who are 
representing themselves so that personal information is not 
accidentally disclosed. What are your views on whether the Tax Court 
should move to public electronic access via the Internet to court 
documents in order to increase the transparency of the Tax Court's 
proceedings?

    Answer. Transparency of United States Tax Court (the ``Tax Court'') 
proceedings is an important goal. As you note, the Tax Court takes a 
restrictive approach to access, only allowing online public access to 
its own orders and decisions. In analyzing the issue of electronic 
access, I would bring to the Tax Court my perspective as a practitioner 
working outside of the DC area, who, on occasion, needs access to Tax 
Court documents. I understand the important task of protecting personal 
information present in most Tax Court proceedings. Unrepresented 
taxpayers make up a very large percentage of the Tax Court's docket and 
have often failed to properly redact personal information such as 
social security numbers from pleadings, motions and other court 
filings. Attorneys representing taxpayers have likewise inadvertently 
failed to redact social security numbers and other personal 
information. If confirmed, I would work with Tax Court staff to achieve 
the benefit of electronic access without creating the risk of 
accidentally disseminating personal taxpayer information.

                                 ______
                                 
                 Question Submitted by Hon. Bill Nelson
    Question. Given all of the glitches and general confusion created 
by the new tax law (Pub. L. 115-97), how do you plan to help ordinary 
Americans navigate these waters and resolve any complications brought 
on by the new tax law?

    Answer. The new tax law (Pub. L. 115-97) is indeed complex and will 
present challenges to taxpayers. Before passage of the law, it was 
already procedurally difficult for taxpayers to navigate the Internal 
Revenue Code. If confirmed, I would respectfully allow taxpayers to 
present their facts and understanding of the law and provide government 
attorneys the same courtesy. I would encourage those who are 
unrepresented to seek the help of free legal counsel provided by low 
income taxpayer clinics and state bar association attorneys who 
volunteer their time at Tax Court calendar calls in order to understand 
how Pub. L. 115-97 affects their tax matter. I would strive to issue 
timely and clearly written opinions interpreting the text and 
Congressional intent of the law to assist both taxpayers and the 
government in its understanding and application.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider pending trade and tax nominations.

    Today, we will have an opportunity to hear from nominees for three 
trade policy positions, and two nominees to be tax judges.

    Each of these positions is key in enforcing the work and 
legislation we produce from this committee.

    Our first nominee is Mr. Jeffery Kessler, who has been nominated to 
serve as Assistant Secretary for Enforcement and Compliance at the 
Department of Commerce.

    This is a position that is responsible for administering anti-
dumping and countervailing duty trade laws and ensuring compliance with 
trade agreements negotiated on behalf of U.S. industries. If confirmed, 
Mr. Kessler will need to fully and faithfully administer U.S. trade 
remedy laws.

    As I have said before, it is important that the Department of 
Commerce consult closely with Congress and members of this committee.

    And, frankly, there is room for improvement in that department.

    I expect Mr. Kessler to be an asset in improving that relationship.

    Today we also have two tax judges, Ms. Elizabeth Ann Copeland, and 
Mr. Patrick J. Urda.

    The Tax Court is important for many reasons, not the least of which 
is that it allows taxpayers to challenge a liability before paying it.

    It is a venue for everyone, from large corporations to individual 
taxpayers, to get a fair and impartial hearing when a disagreement 
arises with the Internal Revenue Service.

    We are honored today to be joined by Chief Judge Maurice Foley, 
Judge Tamara Ashford, Judge John Colvin, Judge Albert Lauber, Judge 
Cary Pugh, and Special Trial Judge Diana Leyden.

    Thank you all for attending today.

    Just last year, we signed into law the Tax Cuts and Jobs Act. As 
the largest reform of the tax code in more than three decades, we 
recognize there will potentially be some large questions for the Tax 
Court.

    More than ever, we need brilliant minds to do this important work.

    Given their credentials, I trust that Ms. Copeland and Mr. Urda 
will be just what our country needs for the Tax Court to continue to 
give taxpayers a fair hearing as the TCJA is implemented.

    Finally, we also have before us two nominees to the International 
Trade Commission, Ms. Amy Karpel, and Mr. Randy Stayin.

    Ms. Karpel and Mr. Stayin, as nominees to be commissioners of the 
International Trade Commission, you will play an important role in 
administering our trade remedy laws, and providing Congress and the 
administration with unbiased, independent analysis.

    This work is becoming more important than ever, as trade has become 
an increasingly larger part of our economy, and businesses of all sizes 
rely on imports and exports.

    I expect that each of you will continue the good work of the ITC in 
administering our trade remedy laws in a fair and unbiased manner.

    I want to thank all five of you for your dedication to our country 
and your willingness to serve.

    As I've looked through each of your respective resumes, it's clear 
that the President has selected individuals who are well-qualified to 
serve in these important posts.

    And I hope to see each of you working to improve our country as 
soon as practicable.

                                 ______
                                 
   Prepared Statement of Amy Karpel, Nominated to be a Member of the 
              United States International Trade Commission
    Chairman Hatch, Ranking Member Wyden, members of the Finance 
Committee, I am honored to appear before you today as the President's 
nominee for the position of Commissioner on the U.S. International 
Trade Commission.

    I would like to introduce the members of my family who are here 
today: my husband Sloane Strickler, my mother Ann Larson, my brother-
in-law Andrew Strickler, and my mother-in-law Jo Harriet Haley. I also 
want to acknowledge those members of my family who couldn't be here 
today: my father John Karpel, my sister Jennifer Seoane, and lastly my 
daughter Haley, who is currently enjoying her last week of preschool. I 
want to thank all of them for their love and support during the 
confirmation process and over the years.

    I am also grateful to Senate Minority Leader Schumer and Senator 
Wyden for proposing my appointment as Commissioner. I also want to 
thank Senator Cantwell for her kind introduction and the President for 
nominating me. I greatly enjoyed meeting individually with members of 
this committee leading up to today's hearing and thank them for their 
time and insights.

    I am honored to be nominated for Commissioner because of the 
important work the Commission does. The Commission is entrusted with 
the fair, timely and objective administration of our trade remedy laws, 
including in respect of violations of intellectual property rights. 
Vigorous enforcement of our trade remedy laws is important because of 
the relief it provides to help keep U.S. workers employed and U.S. 
businesses functioning in the face of unfair trade. It is also 
important because of the role it plays in helping make the case for 
international trade more broadly. International trade touches nearly 
all sectors of our economy and is vital to the strength of our economy 
and the livelihoods of the workers and businesses it supports. If there 
is not strong enforcement of our trade remedy laws when trade is not 
fair and when workers or businesses are hurt by trade, it is hard to 
make that case. If confirmed as Commissioner, I will administer these 
laws fairly, objectively, and as Congress intended.

    The Commission is also responsible for providing the administration 
and Congress with objective, expert fact-finding studies and analysis 
on tariffs, trade and U.S. competitiveness. These studies serve as an 
independent source of information and analysis for policy makers as 
they develop and implement trade policy. If confirmed, I commit to 
carry out this responsibility as Congress intended and to safeguard the 
independence of the Commission. I will also, if confirmed, work with my 
fellow Commissioners to be responsive to congressional requests for 
information.

    I believe my upbringing, background, and experience have prepared 
me well for the position of Commissioner. I grew up in Washington State 
along the shores of the Puget Sound. I could see the port of Olympia in 
the distance from our house. Container ships and tug boats pulling 
barges full of logs were a regular feature passing by our house. I was 
raised by my mother and father, and spent a lot of time with my 
maternal grandmother. My grandmother split her time between St. Louis 
and her husband's farm in rural Illinois, and when we were kids, my 
sister and I used to visit in the summers. My grandmother would prod us 
awake at 7 a.m., chiding that we were ``sleeping the day away.'' Lazy 
was not something you were allowed to be in our family. My parents 
worked hard, both in their occupations and in life, and modeled the 
importance of doing your part to improve the world around you. They 
raised my sister and I to do the same.

    Since leaving Washington State, I have spent more than 20 years 
studying and working on international trade issues. I have worked in 
private practice representing U.S. workers and businesses in trade 
remedy proceedings. And I have worked in public service for almost 13 
years, serving most recently as Chief Counsel at the Office of the U.S. 
Trade Representative. Each of these capacities involved working with 
the laws the Commission is entrusted to administer, first as an 
advocate for clients petitioning for relief under those laws and then 
as a policy maker relying on the sound and objective information and 
analyses those laws call on the Commission to provide.

    And I now look forward, if confirmed, to continuing in public 
service as a Commissioner on the International Trade Commission. In 
this role I would not be an advocate or a policy maker as in my 
previous positions. Instead, I would be a fair, objective, and 
impartial adjudicator and an independent source of expert information 
and analysis. It would be an honor to serve in this capacity.

    Thank you for your consideration.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Amy Karpel.

 2.  Position to which nominated: Commissioner, U.S. International 
Trade Commission.

 3.  Date of nomination: February 27, 2018.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: Springfield, MO; June 7, 1974.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        Capital High School, 1988-1992, high school diploma received/
        granted June 1992.

        University of Washington, Jackson School of International 
        Studies, 1992-1996, B.A. with honors received/granted June 
        1996.

        American University, Washington College of Law, 1996-1999, J.D. 
        received/granted May 1999.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        The Limited, Sales Clerk, Washington, DC, July 1997-April 1998.

        American University, Residence Hall Desk Clerk, Washington, DC, 
        January 1997-May 1997.

        Law Offices of Stewart and Stewart, Law Clerk, Washington, DC, 
        June 1998-April 1999.

        Law Offices of Stewart and Stewart, Associate, Washington, DC, 
        September 1999-April 2004.

        Office of the United States Trade Representative, Assistant/
        Associate General Counsel, Washington, DC, April 2004-January 
        2011.

        Office of the United States Trade Representative, Director for 
        Environment and Natural Resources, Washington, DC, January 
        2011-October 2012.

        Office of the United States Trade Representative, Chief Counsel 
        for Negotiation, Legislation, and Administrative Law, 
        Washington, DC, October 2012-February 2017.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        Federal Communications Commission, Legal Intern, Washington, 
        DC, July 1997-August 1997.

        U.S. Department of State, Legal Extern, Washington, DC, January 
        1998-May 1998.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        None.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        Member of the New York Bar (admitted January 2000); Member of 
        the District of Columbia Bar (admitted April 2001).

        Ambassador (volunteer) for the Greater DC Diaper Bank (I will 
        resign upon my confirmation).

        Member of the American Bar Association (approx. 2000-2006).

13.  Political affiliations and activities:

        a. List all public offices for which you have been a candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       None.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       I believe I contributed to President Obama's presidential 
campaigns but cannot recall the amounts; it was likely in the $50-$100 
range.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        I received two small academic-based scholarships while at the 
        University of Washington, one for Phi Beta Kappa, and one I 
        believe was called a Certificate of High Scholarship.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        Co-author, Rules in a Rules-Based WTO: Key to Growth; The 
        Challenges Ahead (Transnational Pub. 2002).

        Co-author, ``Handbook of WTO/GATT Dispute Settlement'' 
        (Transnational Pub. 2003) (Pierre Pescatore and Stewart and 
        Stewart eds.).

        Terence P. Stewart and Amy Ann Karpel, ``Review of the Dispute 
        Settlement Understanding: Operation of Panels,'' 31 Law and 
        Pol'y Int'l Bus. 593-655 (2000).

        Amy Ann Karpel, ``The European Commission's Decision on the 
        Boeing McDonnell Douglas Merger and the Need for Greater U.S-EU 
        Cooperation in the Merger Field,'' 47 Am. U.L. Rev. 1029 
        (1998).

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        I have nearly 2 decades of experience in trade law and policy, 
        initially as a law clerk and attorney for nearly 6 years with 
        the Law Offices of Stewart and Stewart representing U.S. 
        companies and workers in trade remedy proceedings and later as 
        an attorney and policy adviser for nearly 13 years at the 
        Office of the United States Trade Representative (USTR). From 
        my years of public service at USTR and in the private sector 
        working on behalf of U.S. companies and workers, I have a deep 
        knowledge of U.S. trade law and policy across a wide range of 
        trade and trade-related issues, as well as the process by which 
        trade laws and policies are developed and implemented within 
        the United States. While at Stewart and Stewart I represented 
        U.S. companies and workers in antidumping and countervailing 
        duty proceedings, including investigations before the U.S. 
        International Trade Commission. While at USTR, I served as 
        Chief Counsel where I managed a staff of over 30 attorneys on a 
        range of trade law and policy issues, including with respect to 
        USTR's policy review of U.S. International Trade Commission 
        section 337 determinations. In addition, at USTR, I advised 
        senior USTR officials on the application of U.S. trade law and 
        the negotiation and implementation of U.S. trade agreements, 
        drafted and negotiated U.S. trade agreements, and regularly 
        engaged with other regulatory agencies, congressional staff, 
        and members of the public on a range of regulatory and 
        legislative matters affecting U.S. trade law and policy.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        None.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

        None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the committee with two copies of any trust or other 
agreements.)

        No conflicts of interests. I will resign as an Ambassador for 
        the Greater DC Diaper Bank upon my confirmation.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
            Questions Submitted for the Record to Amy Karpel
                 Questions Submitted by Hon. Ron Wyden
                       trade enforcement--general
    Question. I am committed to standing up for all American workers 
through tough trade enforcement. It is absolutely vital--to my home 
state of Oregon and to the American people--that our country fully 
enforces its trade laws and addresses unfair trade. Our trade 
enforcement has sometimes been too slow or too weak to keep up with the 
cheats who seek to undermine our domestic industries. In 2015, Congress 
made clear the importance of tough enforcement when it passed Senator 
Brown's bill, the Leveling the Playing Field Act, a package of 
substantial improvements to U.S. enforcement laws.

    Will you commit to fully applying that law so U.S. workers and 
companies can get relief from unfairly traded imports?

    Answer. Yes, if confirmed, in making determinations in trade remedy 
proceedings, I commit to fully enforcing the U.S. antidumping and 
countervailing duty laws, which were designed to provide relief to U.S. 
workers and businesses hurt by dumped or subsidized imports.
                      trade enforcement at the itc
    Question. Too often, trade relief is too little, too late for hard-
working Americans facing unfair trade. In 2015, Congress amended the 
definition of material injury and the factors the International Trade 
Commission (``ITC'') examines in evaluating injury to prohibit the ITC 
from finding that there has been no injury merely because an industry 
happens to be profitable or if its financial situation has recently 
improved. For a range of Oregon industries--including softwood lumber, 
solar, and steel producers--this clarification is critical to ensuring 
that companies can get relief while they are still in the black and 
before they are on life support.

    Do you agree that a domestic industry may suffer material injury 
from dumped and subsidized imports even though it manages to remain 
profitable or its performance has improved? Do you agree there are 
circumstances in which the Commission could find material injury where 
an industry would have done better, but for dumped and subsidized 
imports?

    Answer. Yes. The 2015 amendments to title VII of the Tariff Act of 
1930 (codified at 19 U.S.C. 1677(7)(J)) make clear that an industry may 
be materially injured by dumped or subsidized imports even though it 
remains profitable or its performance has recently improved. If 
confirmed, in making determinations in antidumping and countervailing 
duty investigations, I commit to applying the law as Congress intended.
                             digital trade
    Question. Digital Trade is increasingly important to all aspects of 
the U.S. economy. The Internet sector alone reportedly accounts for 
more than five million jobs, and this does not count all of the 
manufacturers and small businesses that rely on digital trade. In 
recent years, the ITC, at my request, has done important analysis of 
barriers to digital trade, an issue of importance to my constituents in 
Oregon. The first of three reports on this subject was released to the 
public in September 2017; the second is expected this fall; and the 
third is due to be delivered in spring 2019.

    Do you view as important the ITC's studies of barriers to digital 
trade? Will you commit to continued analysis of these issues?

    Answer. Yes, the ITC's studies on barriers to digital trade are 
very important. Digital trade and technologies are transforming 
business and international trade and are helping fuel economic growth 
in the United States and globally. Yet, many countries have imposed 
regulatory and policy barriers that slow or halt the adoption of 
digital technologies and digital trade flows. If confirmed, I commit to 
continuing these studies and undertaking additional analysis of these 
issues if requested by the Senate Finance Committee, House Ways and 
Means Committee or the U.S. Trade Representative.
                    itc independence and objectivity
    Question. The ITC is charged with providing technical advice on 
trade policy issues to USTR and to both this committee and the House 
Ways and Means Committee. The Commission has rightly prided itself in 
the past on the objective, thorough, non-partisan nature of its advice 
to these entities.

    Can you commit to this committee that you will do your utmost to 
ensure the ITC's analysis will be independent and thorough, not rushed, 
and that the process will be driven by substance, rather than political 
pressure?

    Answer. Yes, if confirmed, I commit to do my utmost to safeguard 
the independence of the Commission and ensure its analysis is thorough, 
not rushed (but timely) and driven by the law and facts and not 
political pressure.
        consultation with agencies in section 337 investigations
    Question. Section 337 of the Tariff Act of 1930 requires the 
Commission to consult with other Federal departments and agencies--
including the Federal Trade Commission--during the course of its 
section 337 investigations. The FTC and other Federal agencies will 
often have critical insights about the potential impact of section 337 
investigations on competition, including how to maintain vibrant and 
competitive U.S. domestic industries.

    Will you commit to me that, if you are confirmed, the International 
Trade Commission will consult closely with the FTC and other agencies 
on cases where the U.S. public interest is at issue?

    Answer. Yes, if confirmed, I commit to ensure that, in analyzing 
the public interest in section 337 investigations, the ITC will 
``consult with, and seek advice and information from, the Department of 
Health and Human Services, the Department of Justice, the Federal Trade 
Commission, and such other departments and agencies as it considers 
appropriate'' (19 U.S.C. 1377(b)(2)).
                     assessing the balance of trade
    Question. In making assessments about the balance of trade between 
the United States and its trading partners, the President only takes 
into account the trade in goods, and does not include trade in 
services, even though the United States is a global leader in providing 
high-level services to the world.

    In your view, shouldn't services exports be included in assessing 
whether our trade relationship with other countries is balanced?

    Answer. The United States is the world's largest services market 
and the largest cross-border services exporter and importer. U.S. 
exports of services in 2017 totaled nearly $798 billion, giving the 
United States a $255 billion dollar trade surplus in services. Services 
trade is clearly a fundamental and critical part of U.S. trade and the 
U.S. trade balance, and any full assessment of the U.S. trade 
relationship with other countries should include services. If 
confirmed, I commit to conducting assessments of the U.S. trade 
relationship with other countries, in accordance with U.S. law and as 
may be requested by the Senate Finance Committee, House Ways and Means 
Committee, or the U.S. Trade Representative.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. My bill, the Leveling the Playing Field Act, became law 
in 2015 and strengthened U.S. trade remedy statutes. One specific 
provision of the law expanded the criteria the ITC must consider when 
evaluating industry and clarified that an industry can be profitable 
but still be injured by imports. These provisions were enacted to 
ensure that U.S. businesses and workers could obtain relief from unfair 
trade practices without having to close their doors or lose their jobs.

    If confirmed, will you commit to fully implementing the Leveling 
the Playing Field Act, including the changes to injury criteria, as 
Congress intended?

    Answer. Yes. The 2015 amendments to title VII of the Tariff Act of 
1930 make clear that an industry may be materially injured by dumped or 
subsidized imports even though it remains profitable or its performance 
has recently improved. If confirmed, in making determinations in 
antidumping and countervailing duty investigations, I commit to 
applying the law as Congress intended.

    In making its injury determinations, the ITC decides whether U.S. 
industries and workers obtain relief from unfair trade practices.

    Question. If confirmed, will you commit to applying trade remedy 
law in a way that ensures there is a real remedy available to 
industries and workers who are adversely affected by unfair trade 
practices?

    Answer. Yes, if confirmed, I commit to applying the trade remedy 
laws as Congress intended to provide relief to domestic industries 
materially injured by dumped or subsidized imports.

    Sometimes when U.S. petitioners file trade remedy cases, foreign 
competitors will flood the market with products to beat any antidumping 
or countervailing duties that may be applied. A provision in U.S. 
statute called critical circumstances is intended to provide relief to 
the U.S. industry in this instance.

    Question. Will you commit to interpreting the law as Congress 
intended and providing retroactive relief when the statutory test for 
critical circumstances is met?

    Answer. ``Critical circumstances'' is a provision in the 
antidumping and countervailing duty laws that allows for retroactive 
imposition of duties if certain conditions are met. Affirmative 
determinations of critical circumstances, by both the Department of 
Commerce and the Commission, result in the retroactive imposition of 
duties on unliquidated entries entered on or after the date which is 90 
days prior to the date the duties would normally be levied. If 
confirmed, I commit to applying this provision as Congress intended and 
providing such relief when the statutory criteria are met.

                 Question Submitted by Hon. John Thune
    Question. I support the administration's efforts to address unfair 
trade practices that are harming U.S. industries. However, I am 
concerned about the impact that anti-dumping and countervailing duties 
can have on U.S. users of the product as a result of antidumping 
investigations.

    Do you think the International Trade Commission's determination on 
an antidumping duty investigation should include an analysis of the 
economic impact to the U.S. consumers of the product that will be 
affected by the duties in instances where the ITC reaches affirmative 
determinations?

    Answer. The focus of the antidumping law as written by Congress is 
to provide relief to domestic industries that are materially injured by 
dumped or subsidized imports. The law does not make the impact that an 
antidumping order may have on consumers or downstream industries a 
relevant factor in the Commission's analysis of whether a domestic 
industry is injured by dumped or subsidized imports, and if confirmed, 
I would be bound to apply the law as Congress intended. I know that 
consumers and downstream industries of products can be affected by the 
imposition of antidumping duties on those products, and the antidumping 
law directs the Commission in its investigations to provide an 
opportunity for consumers and industrial users to submit relevant 
information concerning material injury to the domestic industry by 
reason of dumped or subsidized imports.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. Accurate and detailed trade data is necessary for private 
businesses to track imports and exports of their products as well as 
for government agencies to administer trade policy. Section 484f of the 
Tariff Act of 1930 provides authority for the Secretary of Treasury, 
the Secretary of Commerce, and the USITC to adopt statistical reporting 
numbers for these purposes.

    What is your understanding of the current process used by the USITC 
to evaluate requests from industry to adopt more detailed statistical 
reporting numbers than presently exist? What factors do Treasury, 
Commerce, and the USTIC take into consideration when evaluating such a 
request from domestic industry? When such a request is denied, what 
opportunities exist for domestic industry to appeal the ruling?

    Answer. Any interested entity, foreign or domestic, may request 
under section 484(f) that tariff categories be adopted or modified to 
gather data of particular interest. Requests to the 484(f) Committee, 
comprising the USITC, the U.S. Customs and Border Protection (CBP) and 
the U.S. Department of Commerce's Bureau of the Census (Census Bureau), 
are accepted based on two deadlines: March 15th, for HTS and Schedule B 
provisions to take effect on the following July 1, and July 15th, for 
HTS and Schedule B provisions to take effect on the following January 
1st.

    After the USITC does an initial review of a request to ensure it is 
complete and contains no confidential information, CBP reviews each 
request to verify the correct tariff classification of the covered good 
or goods and the description's administrability. The USITC and CBP work 
with the requesting party to resolve any issues identified in either 
agency's respective review, and then USITC sends the request to the 
Census Bureau. The Census Bureau does a survey to determine the annual 
level of trade in the product or products that are the subject of the 
request, to ensure that publishing the statistical data requested would 
not disclose confidential information, by having too few firms 
reporting shipments. At the same time, USITC's Office of Industries 
assesses the potential benefits to the domestic industry/trade of 
granting the request and the feasibility of reporting data as 
requested. A summary of the Census Bureau's and the USITC's Office of 
Industries' assessments is made publicly available in the committee's 
minutes. If the relevant tests are met, the request will generally be 
granted.

    The 484(f) Committee meets, usually in late May and in mid-October, 
to discuss the requests received and determine which ones to grant and 
which ones to deny. The following criteria are used in the 484(f) 
Committee's decision-making process:

          Each proposed 10-digit non-legal statistical category must 
        cover an individual good, or a grouping of goods, typically 
        having $1 million in annual trade.

          The requested annotation must have a clear and administrable 
        description and commonly used units of quantity.

          There must be at least 3 importers or exporters reporting 
        shipments in the requested statistical category on an average 
        monthly basis to avoid disclosure of confidential information.

    After the committee meets, the committee provides feedback in 
writing to each requestor on the committee's decision. If a request is 
denied, follow-up discussions can be arranged with committee members to 
see if a request can be modified or supplemented to meet the tests 
above. In such cases, the requestor may resubmit the request as soon as 
the next committee cycle, taking into account the reasons the committee 
denied the original request. As noted above, requests meeting these 
tests are generally granted. Governmental requests relating to program 
needs can be processed off-cycle, for example to administer antidumping 
or countervailing duty orders.

                                 ______
                                 
                 Question Submitted by Hon. John Cornyn
    Question. There will soon be billions of computing and 
communications devices that depend on 5G technology, including devices 
that the U.S. Government, private companies, and consumers use for 
critical applications and infrastructure. The United States cannot 
afford to let other nations lead the race to develop and implement 5G 
technology.

    Can you commit that you will take into consideration the national 
security imperative of the United States having a domestic supply base 
that can lead the world in the development of 5G technology and 
products when hearing cases before the ITC?

    Answer. The section 337 statute states that ``if the Commission 
determines, as a result of an investigation under this section, that 
there is a violation of this section, it shall direct that the articles 
concerned, imported by any person violating the provision of this 
section, be excluded from entry into the United States, unless, after 
considering the effect of such exclusion upon the public health and 
welfare, competitive conditions in the United States economy, the 
production of like or directly competitive articles in the United 
States, and United States consumers, it finds that such articles should 
not be excluded from entry.'' If confirmed, I commit that, in any 
section 337 investigation before me, I will apply the section 337 
statute as Congress intended along with any applicable case law to the 
facts of the investigation, including with respect to any national 
security issues that may be relevant to the Commission's examination of 
the public interest.

             Questions Submitted by Hon. Patrick J. Toomey
    Question. I have serious concerns about the administration's 
decision to use the pretext of a national security concern to raise 
taxes on imported steel and aluminum products. This policy will 
inevitably increase costs on Pennsylvania consumers, workers, and 
employers. Moreover, the section 232 tariffs punish some of our 
Nation's closest allies, including the European Union, Canada, and 
Mexico, and will invite retaliation on U.S. goods and services.

    As you know, the International Trade Commission (ITC) conducts 
sunset reviews every five years on existing antidumping (AD) and 
countervailing duty (CVD) orders to determine whether revocation of 
those orders would likely cause material injury to the domestic 
industry. During these investigations, Federal statute requires that 
the ITC take into account relevant economic factors within the context 
of the business cycle and competitive factors that are distinctive to 
the affected industry. As a result, future sunset reviews will likely 
be affected by the recently imposed section 232 tariffs on steel and 
aluminum, which are applied in addition to AD/CVD duties already in 
effect. For example, if a 25-percent steel tariff is imposed under 
section 232 on a product that is also under an AD/CVD order, then the 
tariff may reduce the likelihood that future imports of that product 
will injure the domestic industry, and thus the AD/CVD duty is no 
longer needed.

    If confirmed, how will you account for the recently imposed section 
232 tariffs on steel and aluminum during the ITC's 5-year sunset review 
process? Do you anticipate that some AD/CVD orders will be rescinded 
due to the section 232 tariffs?

    Answer. The antidumping and countervailing duty statutes direct the 
Commission to ``evaluate all relevant economic factors within the 
context of the business cycle and the conditions of competition that 
are distinctive to the affected industry'' (19 U.S.C. 1675a(a)(4)). If 
confirmed, I commit to evaluating trade remedy measures such as any 
relevant section 232 tariffs as a relevant economic factor within the 
context of the conditions of competition for the industry at issue in 
making antidumping and countervailing duty determinations. I cannot 
speak to a particular antidumping or countervailing duty order at this 
time because each determination would be based on evaluating the facts 
and the relevant statutory factors in the review at issue.

    The sunset review process provides the ITC with the opportunity to 
remove AD/CVD duties that are no longer needed to protect the domestic 
industry. However, in practice, ITC rarely revokes AD/CVD orders. 
According to ITC data, between 2013 and 2017, only 23 orders were 
revoked under sunset reviews, while 156 new orders were imposed. 
Moreover, these orders cover a substantial value of trade. In 2017 
alone, newly imposed AD/CVD orders resulted in duties on imported goods 
worth approximately $12 billion.

    Question. With that in mind, can you describe how you would 
approach sunset reviews, if confirmed? Do you believe that there are 
orders currently in effect that have outlived their purpose, and if so, 
which?

    Answer. Under the likelihood standard in a 5-year review, the 
Commission engages in a counterfactual analysis; it must decide the 
likely impact in the reasonably foreseeable future of an important 
change in the status quo--the revocation or termination of a proceeding 
and the elimination of its restraining effects on volumes and prices of 
imports. Thus, the likelihood standard is prospective in nature. The 
U.S. Court of International Trade has found that ``likely,'' as used in 
the 5-year review provisions of the Act, means ``probable.'' If 
confirmed, I commit to applying that standard in 5-year reviews when 
considering the likely volume, price effect, and impact of imports of 
the subject merchandise on the industry if the orders are revoked or 
the suspended investigation is terminated. I cannot speak to a 
particular antidumping or countervailing duty order at this time 
because each determination would be based on evaluating the facts and 
the relevant statutory factors in the review at issue. I note however 
that all parties, including importers, foreign producers, and 
purchasers who may believe that an ``order has outlived its 
usefulness,'' have an opportunity to participate and submit evidence in 
five-year reviews which the Commission will consider with the other 
evidence in the record in making its determination.

    After the Commerce Department receives an AD/CVD petition, the ITC 
conducts a short preliminary investigation before the case can advance. 
The preliminary phrase is designed to avoid unnecessary investigations 
for cases where there is no reasonable indication that imports are 
causing material injury to the domestic industry. However, the ITC 
rarely disapproves preliminary investigations. Allowing weak cases to 
progress to a full investigation has several negative consequences, 
including high legal costs to participating firms and taxpayers, as 
well as market disruptions and uncertainty during the course of the 
investigation.

    Question. Do you consider preliminary investigations to be a useful 
process for weeding out weak cases, or do you think that all petitions 
deserve the expensive investigative process involved in a full 
investigation?

    Answer. At the preliminary phase of antidumping and countervailing 
duty investigations, the Commission determines based on the information 
available to it at the time whether there is a reasonable indication 
that a domestic industry is materially injured or threatened thereof by 
reason of the subject imports. The reasonable indication standard as 
set forth by the Federal Circuit in American Lamb requires more than a 
finding that there is a possibility of material injury. If confirmed, I 
commit to applying this standard when making preliminary determinations 
in antidumping and countervailing duty investigations.

                                 ______
                                 
  Prepared Statement of Jeffrey I. Kessler, Nominated to be Assistant 
    Secretary for Enforcement and Compliance, Department of Commerce
    Mr. Chairman, Ranking Member Wyden, members of the committee, I am 
honored to appear before you today as the President's nominee to serve 
as Assistant Secretary of Commerce for Enforcement and Compliance. I 
would like to express my gratitude to President Trump for nominating me 
for this important position. I would like to thank Secretary Ross and 
Under Secretary Kaplan for their support, as well as many other 
outstanding professionals at the Department of Commerce who have helped 
with my nomination.

    I would like to take a moment to acknowledge some family members in 
the audience: my wife Bethany, and my two young daughters Lucy and 
Diana.

    Mr. Chairman, the Assistant Secretary of Commerce for Enforcement 
and Compliance is charged with administering the antidumping and 
countervailing duty laws. Congress enacted these laws to give U.S. 
companies and workers an effective remedy against foreign countries' 
unfair trade practices.

    As an international trade lawyer, I work to combat such practices 
on a daily basis. I have represented U.S. manufacturers in the chemical 
products and aerospace industries facing foreign subsidies and 
injurious dumping. I have worked to stop government policies that prop 
up favored enterprises and skew the competitive landscape to the 
detriment of U.S. companies and workers. I have helped U.S. companies 
decipher and navigate market access barriers imposed by China and other 
countries. The scope and scale of unfair trade practices used by 
foreign governments and companies is truly breathtaking.

    Unfair trade has serious, real-world consequences--including lost 
jobs, lower wages, and plant closures. It puts U.S. workers' 
livelihoods at risk, and undermines the U.S. manufacturing and 
agricultural base.

    This administration has identified aggressive enforcement of U.S. 
trade laws as a top policy priority. With respect to the antidumping 
and countervailing duty laws, this means that investigations and other 
proceedings should be conducted rigorously. U.S. companies and workers 
should receive the relief to which they are legally entitled. The 
duties imposed should truly correct for the distortive impact of unfair 
trade. Circumvention should not be tolerated. If confirmed, I will 
uphold these principles.

    If confirmed, I will also seriously consider self-initiating 
antidumping and countervailing duty investigations. Last November, the 
Department of Commerce self-
initiated for the first time in more than a quarter century. Continuing 
this practice has the potential to further strengthen enforcement of 
the trade remedy laws.

    The Enforcement and Compliance unit of the Department of Commerce 
also has an important role to play in ensuring that foreign governments 
uphold their commitments under existing trade agreements. Opening up 
foreign markets to U.S. exports of goods and services is a critical 
element of the administration's trade strategy, and if confirmed I plan 
to pursue this objective aggressively as well.

    Mr. Chairman, I believe that when the playing field is level, U.S. 
companies, workers, and products can out-compete anyone in the world. 
As the administration has stated, true market-based competition should 
be welcomed. But American workers, farmers, ranchers, service 
providers, and businesses large and small should not have to endure 
injurious dumping, subsidies, and other unfair trade practices. That is 
why we need strict and effective enforcement of the trade remedy laws.

    With that, Chairman Hatch, Ranking Member Wyden, and members of the 
committee, thank you again for your consideration and I would be happy 
to answer any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Jeffrey Ian Kessler.

 2.  Position to which nominated: Assistant Secretary of Commerce for 
Enforcement and Compliance.

 3.  Date of nomination: November 2, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: December 12, 1982, Washington, DC.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        Institution: Stanford University.
        Dates attended: August 2007 to July 2010.
        Degree(s) received: JD, MA (economics).

        Institution: University of Chicago.
        Dates attended: June 2005 to June 2007.
        Degree(s) received: MA (philosophy).

        Institution: Yale University.
        Dates attended: September 2001 to May 2005.
        Degree(s) received: BA (classics and philosophy), magna cum 
        laude.

        Institution: Walt Whitman High School.
        Dates attended: Fall 1997 to Spring 2001.
        Degree(s) received: Diploma.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Name of employer: Wilmer Cutler Pickering Hale and Dorr LLP 
        (WilmerHale).
        Title/description: Counsel.
        Location of work: Washington, DC.
        Dates of employment: January 2011 to the present.

        Name of employer: Stanford University.
        Title/description: Research Assistant for Professor A.M. 
        Polinsky.
        Location of work: Stanford, CA.
        Dates of employment: March 2009 to December 2010.

        Name of employer: King and Wood (now King and Wood Mallesons).
        Title/description: Foreign Student Intern.
        Location of work: Beijing, China.
        Dates of employment: September 2010 to October 2010.

        Name of employer: Department of the Treasury.
        Title/description: Intern, Office of Investment Security.
        Location of work: Washington, DC.
        Dates of employment: August 2009 to September 2009.

        Name of employer: Wilmer, Cutler, Pickering, Hale, and Dorr LLP 
        (WilmerHale).
        Title/description: Summer Associate.
        Location of work: Washington, DC.
        Dates of employment: June 2009 to August 2009.

        Name of employer: Office of the U.S. Trade Representative.
        Title/description: Intern, Office of General Counsel.
        Location of work: Washington, DC.
        Dates of employment: May 2008 to July 2008.

        Name of employer: BetterEssays.
        Title/description: Edited essays part-time.
        Location of work: New Haven, CT and Chicago, IL.
        Dates of employment: November 2002 to June 2007 (estimated).

        Name of employer: Pamnani and Pamnani Advocates and Solicitors.
        Title/description: Legal Assistant.
        Location of work: Mumbai, India.
        Dates of employment: June 2006 to July 2006.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        None.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        I am a limited partner in The Pyramid Company, L.L.L.P., which 
        is a Virginia-based company with real estate holdings in 
        Virginia.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        I am a member of the American Bar Association, and a Term 
        Member of the Council on Foreign Relations.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       None.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

        Portman for Senate Committee ($500), February 12, 2016.
        Jeb 2016, Inc. ($500), February 11, 2016.
        Jeb 2016, Inc. ($500), January 12, 2016.
        Romney for President, Inc. ($100), October 25, 2012.
        Harabedian for City Council 2012 ($50); January 26, 2012.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

          John M. Olin Law and Economics Academic Year Fellowships 
        (Stanford University, 2008-2009 and 2009-2010).
          Century Fellowship for graduate studies in philosophy 
        (University of Chicago, 2005).
          Master-Adams Cup for leadership and character (Jonathan 
        Edwards College, Yale University, 2005).
          Berkeley, Biddle, and Woolsey fellowship for travel and 
        research (Yale University, 2005).
          Paskus Summer Fellowship for travel and writing (Jonathan 
        Edwards College, Yale University, 2004).
          Winthrop Prize for ancient Greek translation (Yale 
        University, 2004).
          Paul Mellon Undergraduate Research Grant for travel and 
        research (Yale University, 2003).
          Berkeley, Biddle, and Woolsey Travel Fellowship (Yale 
        University, 2003).
          Bristed Scholarship for ancient Greek translation (Yale 
        University, 2003).

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

          ``What to Expect From a Trump Administration Trade Policy: 
        Revisiting NAFTA.'' WilmerHale (Dec. 16, 2016) and republished 
        in Law360 (Jan. 3, 2017, with different title and different 
        authors).
          ``What to Expect From a Trump Administration Trade Policy.'' 
        WilmerHale (Nov. 21, 2016) and republished in Law360 (Dec. 23, 
        2016, with different title).
          ``China's Cybersecurity Law Imposes New Requirements on 
        Doing Business in China.'' WilmerHale (Nov. 10, 2016) and 
        republished in Mondaq (Nov. 14, 2016).
          ``U.S.-China Trade and Investment: 2014 JCCT Yields 
        Significant Market Access Commitments by China.'' WilmerHale 
        (Jan. 6, 2016) and republished in Mondaq (Jan. 7, 2015, with 
        different authors).
          ``U.S. and China Agree to Reduce Tariffs and Expand High-
        Tech Trade Through the Information Technology Agreement.'' 
        WilmerHale (Nov. 24, 2014) and republished in Mondaq (Nov. 25, 
        2014).
          ``Competing Interests in China's Competition Law 
        Enforcement: China's Anti-Monopoly Law Application and the Role 
        of Industrial Policy.'' U.S. Chamber of Commerce (Sept. 9, 
        2014). (I was the lead author, but the report does not identify 
        me.)
          ``Laying the Political Groundwork for Continued Economic 
        Reform: The Chinese Communist Party Central Committee's Third 
        Plenum.'' WilmerHale (Nov. 15, 2013) and republished in Mondaq 
        (Nov. 16, 2013).
          ``U.S., EU and International Sanctions Against Libya.'' 
        WilmerHale (Mar. 10, 2011).
          Book review: ``Contingent Protectionism in International 
        Trade.'' Stanford Journal of International Law (2010).

In addition, from 2009 to 2010 I contributed to an informal blog titled 
globalpolicymemo.com, which has been defunct for several years.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        As an international trade attorney in private practice, I have 
        advised leading global companies and U.S. industry associations 
        on a wide range of high-profile, cutting-edge international 
        trade, investment, and market access issues. Through this work, 
        I have developed expertise in international trade law and 
        policy, including the challenges that unfair trade poses to 
        U.S. companies and workers.

        With respect to domestic trade remedies, I have represented 
        U.S. manufacturers in the chemicals and aerospace industries 
        before the U.S. Department of Commerce, the U.S. International 
        Trade Commission, and the U.S. Court of International Trade.

        In the area of World Trade Organization dispute resolution, I 
        have been involved in litigating several precedent-setting 
        cases, with successful challenges to foreign country trade 
        practices that restrict billions of dollars of international 
        trade per year, as well as successful defenses of U.S. trade 
        practices.

        I have also assisted U.S. companies and industry associations--
        especially those in innovative, IP-intensive industries--to 
        decipher and navigate Chinese trade and investment barriers, 
        such as sector-wide subsidy programs, IP policy and 
        enforcement, cybersovereignty and related policies, technology 
        transfer requirements, national security-related technical 
        standards, and restrictions on the supply of foreign services.

        I have also advised U.S. companies on free trade agreement 
        rules and negotiations, export controls, and other trade-
        related matters.

        I earned a BA magna cum laude from Yale University, an MA from 
        the University of Chicago, and a JD and MA from Stanford 
        University, where I was an Articles Editor of the Stanford Law 
        Review and a John M. Olin Law and Economics fellow. I am a 
        member of the American Bar Association and a Term Member of the 
        Council on Foreign Relations. I have working knowledge of 
        French, Spanish, and Mandarin.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes. I will maintain my account in a 401(k) plan sponsored by 
        my current employer, WilmerHale, which is independently managed 
        by John Hancock Retirement Plan Services. No further 
        contributions will be made to my account following termination 
        of my employment.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        Any potential conflict of interest will be resolved in 
        accordance with the terms of my ethics agreement, which was 
        developed in consultation with ethics officials at the 
        Department of Commerce and the Office of Government Ethics. I 
        understand that my ethics agreement has been provided to the 
        committee. I am not aware of any potential conflict other than 
        those addressed by my ethics agreement.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        Any potential conflict of interest will be resolved in 
        accordance with the terms of my ethics agreement, which was 
        developed in consultation with ethics officials at the 
        Department of Commerce and the Office of Government Ethics. I 
        understand that my ethics agreement has been provided to the 
        committee. I am not aware of any potential conflict other than 
        those addressed by my ethics agreement.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

        As an international trade attorney in private practice, I have 
        advised clients on international law and policy, so that they 
        can assess, among other things, whether and how to raise 
        concerns about possible violations of international agreements 
        and other trade policy matters with government agencies. For 
        example, I have:

          Represented The Boeing Company in connection with World 
        Trade Organization disputes, including by supporting the 
        litigation efforts of attorneys at the Office of the U.S. Trade 
        Representative.
          Advised the Semiconductor Industry Association on efforts to 
        inform U.S. policymakers about China's semiconductor-related 
        industrial policies.
          Advised and served as the lead author for a U.S. Chamber of 
        Commerce report regarding China's discriminatory application of 
        competition law. (See response to Question A.15 above.)
          Advised The Business Roundtable regarding its trade policy 
        agenda and associated outreach.

        I have also represented clients in discrete matters involving 
        administrative and judicial proceedings; applications for 
        export licenses and import certificates; voluntary disclosures 
        of violations of trade controls or Customs laws; and 
        communications with government officials regarding Customs, 
        export controls, and sanctions compliance.

        In addition, I advised a Task Force on U.S.-China Policy 
        organized by the Asia Society's Center on U.S.-China Relations 
        and the University of California San Diego's 21st Century China 
        Center.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        Any potential conflict of interest will be resolved in 
        accordance with the terms of my ethics agreement, which I 
        understand has been provided to the committee.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
        Questions Submitted for the Record to Jeffrey I. Kessler
               Question Submitted by Hon. Orrin G. Hatch
    Question. IP is a driver of the U.S. economy and of digital trade 
in particular. The Department of Commerce found that the largest share 
of our ICT trade surplus is from IP licensing. Yet, rampant IP theft 
online continues to curb the United States' ability to fully compete in 
the global digital marketplace.

    Do you agree that strong IP protections are critical to the health 
and sustainability of the digital marketplace and that we must avoid 
exporting broad legal loopholes from liability?

    Answer. The Trump administration's trade policy focuses on 
promoting innovation and protecting intellectual property (IP), and 
ensures that U.S. rights holders can use and profit from their IP 
globally. I support this policy and agree that strong IP protections 
are critical to the health and sustainability of the digital 
marketplace. TPA laid out important negotiating objectives with respect 
to intellectual property and digital trade, and I support the pursuit 
of these objectives in trade agreement negotiations--which is primarily 
the responsibility of the Office of the U.S. Trade Representative.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
             fairness in section 232 investigation process
    Question. In its antidumping and countervailing duty proceedings, 
Commerce's Enforcement and Compliance division (``E&C'') follows a 
clear and transparent process for collecting and responding to the 
views of all interested parties. This ensures everyone has a fair 
opportunity to provide their views on information that might be the 
basis for a decision before that decision is made. In contrast, it 
seems that officials in the Bureau of Industry and Security (``BIS'') 
may be making decisions in the section 232 tariff exclusion process 
without even giving one side the opportunity to respond to facts 
submitted by the other. If Commerce wants this process to work--and I 
think we would all like to see it work--it has to be fair and 
objective. Specifically, Commerce officials have given conflicting 
guidance on whether a company requesting an exclusion can respond to 
objections filed by U.S. steel manufacturers if they believe that the 
objections do not fairly portray the availability of the steel product 
for which an exclusion is requested.

    Given that E&C has been tasked with assisting BIS with the 
exclusion process, and may be called upon to assist in future 
investigations, if confirmed, will you commit not to provide 
recommendations to BIS on an exclusion request unless and until each 
side has been able to respond to factual information submitted by the 
other party?

    Answer. I agree that the section 232 product exclusion process 
should be fair and objective. I also understand the rationale for 
giving each side an opportunity to respond to factual information 
submitted by other parties. At the same time, Commerce must establish 
limits on opportunities to comment, so that rulings are expeditious. 
Furthermore, if certain information pertains to national security, it 
might be inappropriate to disclose it to the parties.

    If confirmed, I will have greater visibility into the product 
exclusion process, and I will be in a better position to determine 
whether companies requesting an exclusion can respond to objections 
filed by other parties. If they cannot, I will assess why. On that 
basis, I will consider whether any modifications to E&C's portion of 
the exclusion process are appropriate.
         balancing resources of commerce's enforcement division
    Question. E&C seems to have experienced a substantial increase in 
its caseload last year--an approximately 60-percent increase in new 
trade remedy cases filed by industry. The President's budget for next 
year calls for a modest increase in funding for the enforcement 
division, but it also proposes that the division establish a team 
dedicated to running section 232 national security investigations, as 
well as continuing to enhance its ability to self-initiate more AD and 
CVD investigations. Expansion of trade enforcement initiatives is 
welcomed, but it is critical that they be pursued in a robust manner 
and geared towards achieving effective and meaningful results.

    As Chairman Hatch and I have pointed out in a recent letter to 
Secretary Ross, the section 232 product exclusion process has been a 
disaster. How do you think Commerce's enforcement division can best be 
deployed to improve the section 232 process? How would you ensure that 
Commerce's enforcement unit continues to issue timely decisions in 
trade remedy cases and remains a strong administrator of trade remedy 
laws while taking on this expanded role in the section 232 process?

    Answer. My understanding is that E&C plays only a supporting role 
in the section 232 process. Specifically, E&C determines whether 
articles that are the subject of exclusion requests are produced in the 
United States in a sufficient and reasonably available amount or of a 
satisfactory quality, based on the evidence presented. However, the 
final decision as to whether to grant an exclusion--as well as the 
overall structure of the exclusion process--is up to BIS.

    Commerce has already begun to improve the section 232 process by 
dedicating additional resources outside of BIS to assist with the 
caseload. In particular, I understand that E&C personnel, detailees 
from elsewhere in the Department of Commerce's International Trade 
Administration, and contractors working under the supervision of E&C 
have recently been tasked with assisting in this effort. These 
additional resources are part of an unprecedented effort to process 
exclusion requests expeditiously, while also ensuring that 
determinations are fair and transparent.

    E&C's core function is and should remain the conduct of AD/CVD 
cases, in a timely and high-quality manner. Domestic business and 
workers that are injured by dumped and subsidized goods must receive 
the relief to which they are entitled under U.S. trade remedy laws. If 
confirmed, I will manage E&C resources to ensure that E&C continues to 
perform this core function, while also supporting BIS with the 
additional resources described above.
                    semiconductor trade enforcement
    Question. Semiconductors are an export of particular importance to 
my home State of Oregon, as well as an industry of strategic importance 
to maintaining U.S. technological leadership. China has been targeting 
this industry as part of its ``Made in China 2025'' policies, 
reportedly by using massive subsidies which could create excess chip 
supply in the global market and put pressure on American manufacturers 
like those in my State.

    In our meeting in advance of the hearing to consider your 
nomination, you told me about your experience representing American 
semiconductor producers dealing with trade-related challenges. Based on 
that experience, what could you do in your role leading Commerce's 
enforcement division to help ensure that American semiconductor 
producers and their employees are not harmed by China's unfair tactics?

    Answer. Semiconductors--the microchips that power the digital 
economy--are an important driver of American innovation and 
productivity, and central to many emerging technologies. Semiconductors 
are core elements of cutting-edge technologies including artificial 
intelligence, aerospace systems, autonomous vehicles, and the Internet 
of things.

    However, China is actively seeking to displace the United States as 
the world leader in semiconductor technology. For example, one of 
China's policy documents calls for China to reach an advanced world 
level in all major segments of the semiconductor industry by 2030. To 
that end, China resorts to unfair, non-market-based policies such as 
massive, sector-wide subsidies. The economic and national security 
ramifications for the United States are quite serious.

    In my view, the United States should consider all trade policy 
``tools in the toolbox'' to counter China's disruptive, market-
distorting policies. One tool is the imposition of antidumping and 
countervailing duties, if the relevant legal requirements are met. 
Other potentially available tools include tariffs imposed pursuant to 
section 301 of the Trade Act of 1974; CFIUS; export controls; WTO 
cases; and working with U.S. partners and allies to strengthen 
international rules disciplining the types of unfair practices that 
China engages in. If confirmed, I will work with counterparts in other 
trade-related agencies in support of a strong, rules-based, whole-of-
government response to China's semiconductor-related industrial 
policies.
                     transparency and consultation
    Question. Meaningful consultations with Congress and communications 
with the public are necessary for every aspect of our trade agenda. I 
note that consultations will only be meaningful if conducted in a way 
that allows Members of this committee and their staffs to actually 
reflect on what is being considered and to offer comments. It is simply 
unacceptable to only engage the committee just before a proposal is 
offered or an agreement is reached. Especially now, when the 
administration has so many irons in the fire regarding trade, it is 
critical that Commerce and other agencies keep Congress informed of 
trade initiatives and developments. This administration continues to 
fall short in providing us with timely and detailed briefings on 
critical developments in trade that are having big impacts on American 
workers and businesses.

    If confirmed will you commit to brief my Finance Committee staff on 
the enforcement division's activities promptly and in detail upon 
request?

    Answer. Yes.
      maintaining the effectiveness of trade remedy investigations
    Question. I am committed to standing up for all American workers 
through tough trade enforcement. It is absolutely vital--to my home 
State of Oregon and to the American people--that our country fully 
enforces its trade laws and addresses unfair trade. Our trade 
enforcement has sometimes been too slow or too weak to keep up with the 
cheats who seek to undermine our domestic industries. In 2015, Congress 
made clear the importance of tough enforcement when it passed the 
Leveling the Playing Field Act, a package of substantial improvements 
to U.S. enforcement laws.

    Will you commit to fully applying that law so U.S. workers and 
companies can get relief from unfairly traded imports? What will you do 
to prevent China and other countries from reducing the effectiveness of 
U.S. trade remedies through litigation at the WTO and elsewhere?

    Answer. Yes; if confirmed, I will fully apply the Leveling the 
Playing Field Act. The Act is an important legal tool that expands and 
clarifies the Department of Commerce's authority to apply adverse facts 
available (AFA)--a critical tool for encouraging foreign companies and 
governments to cooperate in antidumping and countervailing duty 
proceedings. I appreciate that Congress passed the Act to strengthen 
U.S. trade remedy laws and to ensure that U.S. manufacturers and 
workers get the relief they deserve from unfair trading practices, and 
if confirmed I intend to administer the law accordingly.

    Other countries are using WTO litigation to try to weaken U.S. 
trade remedies, and have unfortunately been doing so for many years. If 
confirmed, I will support USTR in defending U.S. trade remedy laws 
aggressively at the WTO. I will also seek out opportunities to defend 
U.S. trade laws through collaboration with interagency colleagues as 
well as outreach to other WTO members. In addition, if confirmed, I 
will ensure that determinations under the antidumping and 
countervailing duty statutes reflect a rigorous interpretation of U.S. 
law, as enacted by Congress--not the findings of the WTO, which does 
not have the authority to enact or modify U.S. law or administrative 
determinations.
                     assessing the balance of trade
    Question. In making assessments about the balance of trade between 
the United States and its trading partners, the President only takes 
into account the trade in goods, and does not include trade in 
services, even though the United States is a global leader in providing 
high-level services to the world.

    In your view, shouldn't services exports be included in assessing 
whether our trade relationship with other countries is balanced?

    Answer. I recognize the United States' global leadership role in 
providing high-level services to the world. The U.S. services sector is 
highly innovative and a key driver of economic growth.

    Maintaining a vibrant U.S. services sector and expanding U.S. 
services exports are vital to a healthy economy and a core objective of 
U.S. trade policy.

    The Bureau of Economic Analysis includes both goods and services in 
their official estimate of the U.S. trade balance. However, in the 
context of particular policy discussions, it may be appropriate to 
focus on either the goods or services portion of the trade balance.
                 retaliatory tariffs and ``trade wars''
    Question. Shortly after announcing the United States would be 
imposing tariffs on steel and aluminum, the President tweeted that 
``trade wars are good, and easy to win.''

    In light of the retaliatory tariffs and other repercussions that 
U.S. businesses and workers are now facing from our trading partners, 
do you agree with the President's statement that ``trade wars are good 
and easy to win''?

    Answer. The President's statement is an expression of confidence in 
the U.S. ability to confront and eliminate other countries' unfair 
trade practices. I agree with this sentiment.

    Retaliatory tariffs imposed by U.S. trading partners are a serious 
concern, particularly when they jeopardize U.S. businesses or the 
livelihoods of U.S. workers, farmers, or ranchers. Potential 
retaliation should be weighed carefully when making major trade policy 
decisions. However, the threat of retaliation should not prevent the 
United States from pursuing its national interests, including with 
respect to the legitimate enforcement of trade laws.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. As you know, in 2015 Congress enacted my bill the 
Leveling the Playing Field Act to restore strength to our trade remedy 
laws in response to foreign competitor's efforts to weaken them. That 
bill has helped workers and manufacturers more successfully petition 
for relief in the face of unfair trade practices, but I'm concerned 
that the attacks on our antidumping and countervailing duty laws 
continue.

    Do you believe there are ongoing efforts by our trading partners 
and foreign competitors to weaken our trade remedy laws? If so, how 
should the U.S. respond to these attacks?

    Answer. Yes, there are ongoing efforts to weaken U.S. trade remedy 
laws. These efforts take many forms, such as WTO litigation, attempts 
to circumvent antidumping and countervailing duties, and duty evasion.

    I believe it is critical for the U.S. to counter such efforts 
vigorously. At the WTO, the U.S. should aggressively defend U.S. trade 
laws. Simultaneously, the U.S. should exercise its sovereign right to 
enforce the antidumping and countervailing duty laws rigorously, 
recognizing that the WTO does not have the legal authority to enact or 
modify U.S. law or administrative determinations. The U.S. should be 
vigilant about circumvention of antidumping and countervailing duties 
and fully utilize the statutory authority for countering circumvention 
(e.g., 19 U.S.C. Sec. 1677j). In addition, U.S. Customs and Border 
Protection should work to mitigate the risk of duty evasion. If 
confirmed, I will strongly support these objectives.

    With respect to the Leveling the Playing Field Act: I appreciate 
that Congress passed the Act to strengthen U.S. trade remedy laws and 
to ensure that U.S. manufacturers and workers get the relief they 
deserve from unfair trading practices, and if confirmed I intend to 
administer the law accordingly.

    Question. There has been bipartisan support in Congress for 
investigating currency undervaluation as a countervailable subsidy.

    If confirmed as Assistant Secretary of Commerce and if a petition 
were filed that alleged currency undervaluation in addition to other 
subsidies, would you investigate the currency undervaluation allegation 
in addition to Commerce's other work on the case?

    Answer. I fully appreciate the distortive and unfair effects that 
currency manipulation can have on trade flows. If confirmed, I will 
examine any allegation of currency undervaluation carefully, and assess 
whether it meets the legal requirements for initiating a countervailing 
duty investigation. This assessment will depend on the particular 
allegations and supporting information contained in the relevant 
petition.

    Question. As I'm sure you're aware, respondents from China and 
other countries work aggressively to circumvent antidumping and 
countervailing duty orders after they're applied. These circumvention 
efforts undercut the effectiveness of our trade remedy laws.

    If confirmed, will you make it a priority to consider expeditiously 
any circumvention cases brought by U.S. petitioners?

    Answer. Yes. If confirmed, I will ensure that Enforcement and 
Compliance considers any allegation of circumvention carefully and 
expeditiously.

                                 ______
                                 
                 Question Submitted by Hon. John Thune
    Question. The administration has indicated its strong preference 
and intention to negotiate bilateral trade agreements with countries 
that currently do not have trade measures in place with the United 
States. That's an objective that I think will garner significant 
bipartisan support as a constructive solution to many of the trade 
imbalances that the President is seeking to address.

    Given the role that the Commerce Department has played as part of 
the trade team in this administration, how do you see your role in 
facilitating the negotiation and implementation of future bilateral 
trade agreements?

    Answer. I support the administration's goal of negotiating trade 
deals that work for all Americans, including through new bilateral 
trade agreements where possible. As I stated at my confirmation 
hearing, opening up foreign markets to U.S. exports of goods and 
services is a critical element of the administration's trade strategy, 
and if confirmed I plan to pursue this objective aggressively.

    As an international trade lawyer, I have worked for years to open 
up foreign markets and combat other countries' foreign trade practices. 
In addition, if confirmed, I will be charged with monitoring the 
operation of trade agreements and seeking foreign government compliance 
with such agreements. If confirmed, I will bring all of this experience 
to bear in the context of any new trade agreements that the 
administration considers, so as to open up new markets for U.S. 
businesses, workers, farmers, ranchers, and services providers, on the 
basis of strong, enforceable disciplines.

                                 ______
                                 
              Questions Submitted by Hon. Robert Menendez
    Question. Mr. Kessler, in instances where a domestic company has 
applied for a product exclusion from the section 232 tariffs on steel 
or aluminum, and domestic industry has not filed comments in 
opposition, how will the Department evaluate whether to grant such an 
exclusion?

    Answer. The Bureau of Industry and Security has primary 
responsibility for administering the section 232 product exclusion 
process. The Department of Commerce's Enforcement and Compliance unit 
(which I will lead if confirmed) plays only a supporting role.

    My understanding is that in situations where the Department posts 
product exclusion requests for public comment, and no comments are 
received, the Department will evaluate the requests on the basis of 
information in the requests themselves, as well as information from 
interagency consultations, in light of the Department's criteria for 
accepting or rejecting exclusion requests.

    Question. Would such a fact pattern enable the Department to make a 
final determination more quickly? If there is no opposition from 
domestic industry, under what circumstances would the Department deny 
the application?

    Answer. My understanding is that the Department seeks to process 
all product exclusion requests expeditiously, including those in 
response to which no comments are filed. The Department may deny 
product exclusion requests if the relevant product is available 
domestically in a satisfactory quality and in sufficient quantity, if 
it is not in the U.S. national security interest to grant the request, 
if the request is legally insufficient, or if the request would be 
unadministrable if granted.

    Question. New Jersey has many manufacturing companies that benefit 
from enforcement of our AD/CVD laws but also has many others whose 
businesses and workers are put at risk by the imposition high duties.

    What are your views about the relevance under the law of downstream 
industries and their workers, particularly those who provide added 
manufacturing value? If confirmed, how will you consider these issues 
when rendering your decisions?

    Answer. If confirmed, I will be responsible for administering the 
antidumping and countervailing duty statutes. Commerce's determinations 
under these laws address the existence and magnitude of dumping and 
subsidization for the relevant class of imported articles. Downstream 
industries and workers are not a factor in such determinations. 
However, the International Trade Commission may consider all relevant 
economic factors in determining whether the domestic industry is 
materially injured, or threatened with material injury, by reason of 
imports or sales for importation.

                                 ______
                                 
                Questions Submitted by Hon. Bill Nelson
    Question. As you might know, Florida growers were not able to get 
the Commerce Department to self-initiate a trade case against Mexican 
growers for the dumping of subsidized tomatoes, cucumbers, blueberries, 
strawberries, and bell peppers during the winter months.

    Considering how costly and difficult it is for local growers to 
successfully mount a trade case against Mexico for seasonal trade 
abuses, do you agree that it's important for NAFTA to allow regional 
growers to use seasonal data in antidumping and countervailing duty 
cases--to make it easier for growers to obtain a level of fairness in 
the marketplace?

    Answer. One of USTR's NAFTA negotiating objectives (as of November 
2017) is to seek a separate domestic industry provision for perishable 
and seasonal products in AD/CVD proceedings. I support USTR's 
prerogative to negotiate trade agreements on the basis of negotiating 
objectives that it formulates, consistent with TPA.

    Question. If confirmed, you'll be in charge of enforcing U.S. trade 
law and holding companies accountable for any trade violations.

    If state-sponsored companies, like ZTE or Huawei, willfully violate 
our laws, how do you plan to deal with external pressure from other 
areas of the executive branch or from other countries, like China?

    Answer. There are no exceptions under the antidumping and 
countervailing duty laws for state-sponsored companies. If confirmed, I 
will enforce the law rigorously as it is written. External pressure 
will not distract me from this task.

                                 ______
                                 
 Prepared Statement of Randolph J. Stayin, Nominated to be a Member of 
            the United States International Trade Commission
    Good morning.

    Mr. Chairman, Ranking Member Wyden, and members of the committee, I 
am honored to apprear before you today, and I am humbled and grateful 
to the President for nominating me to serve as a Commissioner on the 
United States International Trade Commission. I also want to thank 
Senator Portman for his support and kind introduction today. Most 
importantly, I am honored and blessed to have the love and support of 
my family; not only throughout my years of trade law practice, but 
every day. My wife Sharon, my sister Donna, and my children Greg, Todd, 
and Beth, and her husband Scott, are here with me today.

    I began the practice of law as a litigator in Cincinnati, OH. I 
came to Washington to serve as Chief of Staff for Senator Robert Taft, 
Jr. Among my duties, Senator Taft asked me to be his advisor regarding 
The Trade Act of 1974, which was the beginning of my involvement with 
U.S. trade law, and was the first building block in my, now, 32 years 
of practicing international trade law. My career has included 
litigation of many anti-dumping and countervailing duty investigations 
and reviews, section 201 safeguard investigations, 232 national 
security and Generalized System of Preferences investigations, advising 
clients on NAFTA and Uruguay Round negotiations, and Customs 
investigations to stop circumvention of antidumping and countervailing 
duty orders.

    My law practice has also included serving as general counsel and 
special counsel to 23 trade associations and many companies, a 
significant number of which contributed to the depth of my 
understanding of the realities and difficulties of running 
manufacturing companies that are in competition with unfairly traded 
products.

    Among the many trade cases I have litigated, I would like to 
briefly mention one that clearly demonstrates the complexity and 
commitment involved in defending U.S. companies from unfair trade 
practices: an antidumping investigation of imported candles from China, 
beginning in 1984, which came about due to Chinese manufacturers 
exporting their candles at prices significantly below the production 
costs of U.S. products. The initial result of that case was a 54-
percent duty being imposed on Chinese imports once Commerce found 
unfair trade practices and the Commission determined that those imports 
materially injured the U.S. industry. For over 30 years, that duty has 
been unsuccessfully challenged many times, including six administrative 
reviews, nearly 100 scope reviews, two anticircumvention reviews, six 
Customs investigations, two sunset reviews, and four 5-year reviews, in 
addition to appeals to the U.S. Court of International Trade and the 
U.S. Court of Appeals for the Federal Circuit, all of which I managed 
and conducted for the continuing protection of this U.S. industry. Not 
only was the initial 54-percent duty imposed, it was raised each time 
it was challenged, to the eventual level of 108 percent, where it has 
remained for the last 10 years, making it the longest standing U.S. 
antidumping order. Another result of this effort, from 2000-2007, was 
that U.S. candle companies received trade injury distributions of over 
$183 million dollars from the application of the Continued Dumping and 
Subsidy Offset Act, also know as ``the Byrd Amendment.''

    This example is only one of the many U.S. products I have 
represented, and as you all are aware, it is only one of thousands of 
U.S. products we must ensure will not be injured by unfair trade 
practices.

    For me, this honor is the pinnacle opportunity built from a long 
and successful effort to support and defend fair and equitable trade 
laws and their application. In presenting arguments before the ITC, I 
have always respected the very important role it plays as an 
independent, nonpartisan, quasi-judicial, fact-finding agency. Our 
country's workers, farmers, ranchers, and businesses know that they 
have an objective and fair place to go when they have been injured by 
unfairly traded imports. All parties receive a fact-based decision in 
accordance with due process of law.

    I look forward to participating in the ITC process as a leader and 
key decision-maker, and in maintaining the credibility of U.S. trade 
remedy laws. If confirmed, I assure you that I will serve with 
integrity and that all of my decisions will be based on the facts and 
the law, in accordance with the intent of Congress. I further assure 
you that the Congress and the executive branch will continue to receive 
objective, independent, fact-based 332 studies and expert analysis to 
assist in the development of trade policy. I will be proud to join the 
nearly 400 men and women who comprise the ITC. They are to be commended 
for the excellent work they do every day for Congress, the executive 
branch, and, above all, the American people.

    Thank you for the privilege of being considered for this honor. I 
am now happy to answer your questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Randolph J. Stayin (Randy).

 2.  Position to which nominated: Commissioner, U.S. International 
Trade Commission.

 3.  Date of nomination: September 28, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: October 30, 1942, Cincinnati, OH.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        University of Cincinnati Law School (Cincinnati, OH)--1965-
        1967--Juris Doctor--1967.
        Northwestern Law School (Chicago, IL)--1964-1965.
        Dartmouth College (Hanover, NH)--1960-1964--Bachelor of Arts.
        Western Hills High School (Cincinnati, OH)--1956-1960--High 
        School Diploma.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Partner--Barnes and Thornburg Law Firm (Washington, DC)--1988-
        2010.
        Partner--Taft, Stettinius, and Hollister Law Firm (Washington, 
        DC)--1977-1988.
        Chief of Staff--U.S. Senator Robert Taft, Jr. (Washington, 
        DC)--1973-1976.
        Associate--Frost and Jacobs Law Firm (Cincinnati, OH)--1967-
        1972.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        Advisory Committee for the U.S. and Foreign Commercial 
        Service--(unpaid) in the 1980s (during Reagan administration).

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        See Question A-9--Barnes and Thornburg Law Firm: Managing 
        Partner of DC Office, Chairman of International Trade Practice, 
        Member of Management Committee.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        DC Bar, American Bar Association, Ohio Bar Association.
        Washington National Cathedral: Chairman of Fund Committee and 
        Co-Chair of 1907 Society.
        President, Cincinnati Recreation Commission.
        President, Cincinnati Mental Health Commission.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       N/A.


        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       N/A.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       N/A.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        Rated ``AV Preeminent,'' Martindale-Hubbell; listed in ``Who's 
        Who in American Law'' and in ``The World's Leading 
        International Trade Lawyers.''

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        N/A.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        No ``formal'' speeches in the last 5 years, but presented many 
        ``current status'' trade issue updates on international trade 
        issues throughout my career; also participated in international 
        trade panel discussions, seminars, and meetings with national 
        and international groups and associations.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        See ``Attachment A: Qualifications.''

                  B.  FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        N/A.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

        Nothing on legislation. I was engaged by clients to represent 
        them in antidumping investigations and other unfair trade 
        remedies provided by U.S. laws.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        I would recuse myself from any matter that would involve 
        conflict of interest.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        It will be done; provided by the ITC.

                      D.  LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        See ``Attachment B: Additional Information--List of 
        Supporters'' and additional character reference letter (in 
        addition to those character references provided during the FBI 
        interviews).

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

              Attachment A--Qualifications--Question A-17

    Question A-17: State what, in your opinion, qualifies you to serve 
in the position for which you have been nominated.
                      international trade attorney
      I have over 40 years of international trade litigation and trade 
legislative and regulatory advisory experience in international trade 
policy, international trade law, and international trade regulatory 
compliance.

      My career has focused on trade law, trade regulation, and trade 
policy, representing clients seeking relief from unfair and unlawful 
trade practices, clients seeking compliance with U.S. trade laws, and 
clients impacted by other countries' trade practices.

      My international trade services span the range from trade 
litigation, to regulatory relief, to government policy, to legislation, 
to corporate strategy, to general business consulting.

      I have litigated antidumping and countervailing duty 
investigations, sunset reviews, administrative reviews, scope and 
anticircumvention investigations, 201 safeguards, 232 national 
security, Generalized System of Preferences, export regulation, trade 
sanctions, antiboycott issues, and U.S. Customs enforcement.

      I have achieved an exceptional record of success in cases/
matters litigated and positions defended. Many cases were litigated 
before the U.S. International Trade Commission, the U.S. Department of 
Commerce, and the U.S. Trade Representative.

      I have represented individual clients and entire industries, in 
matters involving international standards, export regulation, trade 
sanctions, foreign corrupt practices, and antiboycott issues. In 
addition, I conducted U.S. Customs and compliance investigations 
regarding duty preference regimes, valuation, tariff classification, 
country-of-origin, and fraud matters.

      In appeals of U.S. international trade decisions, I have 
represented clients before the U.S. Court of International Trade, the 
Court of Appeals for the Federal Circuit, and in dispute resolution 
hearings before NAFTA panels.

      During the NAFTA and Uruguay Round negotiations, I played lead 
roles in representing client positions in government and industry 
discussions and deliberations.

      I have advised clients on trade and import-export policy 
matters, including representation before White House officials, members 
of the U.S. Senate and the U.S. House of Representatives, and U.S. 
department heads and senior staff.

      I have regularly consulted on trade matters with private-sector 
principals and colleagues throughout the world.

      I have advised, represented, and litigated on behalf of 
individuals, corporations, trade associations, and coalitions of large 
portions of entire industries.
                   outside general or special counsel
      I have advised many national and international associations, 
including but not limited to, the American Gear Manufacturers 
Association, the Bicycle Parts Manufacturers Association, the Canadian 
Lumber Remanufacturers Alliance, the Food Processing Suppliers 
Association, the Hot-Dip Galvanizers Association, the Machinery Dealers 
National Association, the Meat Industry Suppliers Association, the 
National Candle Association, the Process Equipment Manufacturers 
Association, the Quebec Lumber Manufacturers Association, the Water and 
Wastewater Equipment Manufacturers Association, and the Wheat Gluten 
Industry Council.
                  chief of staff--united states senate
      I am the former Chief of Staff and Director of Legislation to 
U.S. Senator Robert Taft, Jr., serving as Senator Taft's top strategic, 
political, and legislative advisor.

      I served as the Senator's lead trade advisor in negotiating the 
passage of the Trade Act of 1974.

      I managed Senator Taft's legislative, political, and support 
staffs on Capitol Hill and in Ohio, totaling 60 political, legislative, 
and administrative personnel.

      I had a Top Secret security clearance.
                       manager and public speaker
      I managed legal, political, and support staffs of up to 60 
individuals.

      At the Barnes and Thornburg Law Firm I served as Managing 
Partner of the Washington office, Chair of the International Trade 
Practice Group, and as a member of the Management Committee. At the 
Taft, Stettinius, and Hollister Law Firm I served as Chair of the 
International Trade Practice Group.

      I have been a frequent speaker at trade association meetings, 
legal seminars, and University programs and have been a member of the 
American Society of Association Executives (active in its law and 
international sections).
               international trade representative matters
Following is a sampling of the many international trade litigations, 
trade reviews, trade regulation, and trade practice matters I have 
successfully conducted. These matters are a strong indication of the 
breadth and depth of my international trade experience, and my 
successes in international trade law, regulation, and policy.

      Represented the National Candle Association as petitioner in an 
antidumping investigation of candles from China, including nine 
administrative reviews, over 400 scope reviews, two anticircumvention 
reviews, four sunset reviews, a new shipper investigation, six Customs 
investigations, and appeals to the U.S. Court of International Trade 
and to the U.S. Court of Appeals for the Federal Circuit--resulting in 
a continuous 108-percent duty and CDSOA distributions of $183 million 
to U.S. candle companies. (The original dumping duty was 56 percent, 
but with each administrative review challenge by Chinese exporters, the 
duty rose to 108 percent, where it still remains.)

      Represented U.S. manufacturers of baseball hats, as petitioners 
in antidumping investigation, against headware from China.

      Represented U.S. sparkler manufactures, as petitioners in an 
antidumping investigation of sparklers from China, resulting in an 
affirmative determination.

      Represented a coalition of U.S. importers of emulsion styrene-
butadiene rubber from South Korea, resulting in a negative injury 
determination.

      Represented an importer of outboard engines from Japan, 
resulting in a negative injury determination.

      Represented a Canadian producer of thermostatically controlled 
appliance plugs, resulting in a negative injury determination.

      Represented Quebec lumber manufacturers of softwood lumber from 
Canada in the Binational Panel review of the countervailing duty 
investigation in the 1990s, resulting in a settlement between the U.S. 
and Canadian governments.

      Represented Canadian lumber remanufacturers of softwood lumber 
in the Binational Panel review of the countervailing duty investigation 
in the 2000s, resulting in a settlement by the U.S. and Canadian 
governments.

      Represented a Brazilian producer of tillage tools, resulting in 
termination of the countervailing duty order.

      Represented U.S. producers of wheat gluten in a Sec. 201 market 
distribution/safeguards investigation, resulting in a 3-year quota and 
a subsequent grant from the Department of Agriculture of $40 million.

      Represented a Japanese manufacturer of ceramic packages in a 
Sec. 232 investigation by the U.S. Commerce Department of the impact of 
the imports on U.S. national security, resulting in no restrictions on 
exports to the U.S.

      Represented U.S. producers of glassware from Mexico in 
Generalized System of Preferences investigations, resulting in 
withdrawal of GSP duty-free treatment of imports from Mexico and in 
Uruguay Round multilateral trade negotiations.

      Represented U.S. producers in Generalized System of Preferences 
investigations of saccharin from South Korea, resulting in withdrawal 
of GSP duty-free treatment of the imports from South Korea.

      Advised American Gear Manufacturers and European association on 
international standards process in order to avoid trade barriers.

      Challenged standards of the National Fire Protection Association 
(NFPA) on two separate matters, successfully resulting in NFPA 
withdrawing the standards, returning them to committee, and adding 
representatives of the client association to its committee.

      Challenged two proposed standards (Teflon coated re bar and mud-
flaps for trucks) at Federal Highway Administration and National 
Highway Safety Administration that would exclude products of two 
different associations, successfully resulting in withdrawal of both 
proposed standards.

      Advised clients regarding the beneficial requirements and 
positive impacts of, and strategies for responding to, Federal and 
State ``Buy America'' legislation.

      Represented exporter in U.S. Customs investigation of Export 
Control violation.

      Represented U.S. exporter in acquiring the necessary export 
license for high technology equipment.

      Represented U.S. manufacturer in acquiring the necessary export 
license for medical supplies and equipment to export to a country 
subject to U.S. sanctions.

      Represented foreign manufacturer in excluding its products from 
application of U.S. sanctions, thereby allowing export to the U.S.

      Represented three trade associations in dual use equipment 
export control negotiations, leading to narrowing the scope of dual use 
export controls over process equipment.

      Represented U.S. importer of motorcycle pedals from China in 
Customs seizure based on alleged trademark infringement/counterfeit 
goods, resulting in a ruling in favor of the imports.

                                 ______
                                 

                  Attachment B--Additional Information

          List of Supporters--Additional Character References

                           list of supporters
      The Honorable Rob Portman, U.S. Senator (OH).

      The Honorable Kevin Brady (TX), chairman, House Ways and Means 
Committee.

      The Honorable Lewis Eisenberg, U.S. Ambassador to Italy, former 
finance chair, RNC.

      The Honorable Bill Archer, former chairman of the House Ways and 
Means Committee.

      The Honorable Mitch Daniels, president of Purdue University, 
former Governor of Indiana.

      The Honorable Robert Taft II, former Governor of Ohio.

      Gil Kaplan, nominee for Under Secretary of Commerce for 
International Trade.

      The Honorable Grant Aldonas, director, Georgetown University Law 
Center--Institute of International Economic Law, former Under Secretary 
of Commerce for International Trade.

      The Honorable David Spooner, former Assistant Secretary of 
Commerce for Import Administration.

      Dan Carmichael, former general counsel, Eli Lilly.

                                 ______
                                 

                           C. Raymond Marvin

U.S. Senate
Committee on Finance
219 Dirksen Senate Office Building
Washington, DC 20510-6200

Dear Senators,

A friend of many years has been nominated by the President to be member 
of the U.S. International Trade Commission: Randolph J. Stayin. I have 
known Randy since the mid-90s as a fellow volunteer at the Washington 
National Cathedral. We worked together to raise financial support for 
the Cathedral's mission and vision and succeeded in breaking records 
together. He was the chair of the Cathedral Fund Committee for many 
years, while I served on the committee and then succeeded him as chair. 
We became social and Cathedral friends and have stayed in contact over 
the years. I know of his personal values and character and believe that 
he is a man of impeccable honesty, inherent fairness, ethical conduct, 
and strong intellectual capability. I have not had experience working 
with him on any law or international trade matter, and cannot speak to 
that, nor do I express any view about any policy matters that may be 
presented to the USITC. I do voice support for Randy Stayin's character 
and his personal temperament. I believe that if he is confirmed by the 
Senate, he will serve as a Commissioner with energy, judiciousness, 
fairness, and distinction. If you are able to meet with him personally, 
you will likely understand how easily he engenders confidence on the 
part of those with whom he works. It is a pleasure and honor for me to 
speak up for Randy Stayin as being eminently qualified by knowledge, 
experience, and temperament to be confirmed as a member of the USITC. 
And for the record, I have never had and will never have any matter in 
which I have any economic or political interest involving the USITC.

Thank you for giving Randy the best of your serious consideration, as 
you consider his nomination.
With appreciation for your service to our Nation in the Senate,

C. Raymond Marvin.

                                 ______
                                 
        Questions Submitted for the Record to Randolph J. Stayin
                 Questions Submitted by Hon. Ron Wyden
                       trade enforcement--general
    Question. I am committed to standing up for all American workers 
through tough trade enforcement. It is absolutely vital--to my home 
State of Oregon and to the American people--that our country fully 
enforces its trade laws and addresses unfair trade. Our trade 
enforcement has sometimes been too slow or too weak to keep up with the 
cheats who seek to undermine our domestic industries. In 2015, Congress 
made clear the importance of tough enforcement when it passed Senator 
Brown's bill, the Leveling the Playing Field Act, a package of 
substantial improvements to U.S. enforcement laws.

    Will you commit to fully applying that law so U.S. workers and 
companies can get relief from unfairly traded imports?

    Answer. Yes, if confirmed, I commit to strictly enforcing the 
statute in making determinations in antidumping and countervailing duty 
investigations.
                      trade enforcement at the itc
    Question. Too often, trade relief is too little, too late for hard-
working Americans facing unfair trade. In 2015, Congress amended the 
definition of material injury and the factors the International Trade 
Commission (``ITC'') examines in evaluating injury to prohibit the ITC 
from finding that there has been no injury merely because an industry 
happens to be profitable or if its financial situation has recently 
improved. For a range of Oregon industries--including softwood lumber, 
solar and steel producers--this clarification is critical to ensuring 
that companies can get relief while they are still in the black and 
before they are on life support.

    Do you agree that a domestic industry may suffer material injury 
from dumped and subsidized imports even though it manages to remain 
profitable or its performance has improved? Do you agree there are 
circumstances in which the Commission could find material injury where 
an industry would have done better, but for dumped and subsidized 
imports?

    Answer. I am aware that 19 U.S.C. 1677(7)(J), which was added to 
the statute in 2015, states that the Commission may not make a negative 
determination merely because the domestic industry is profitable or 
because its performance has recently improved. If confirmed, I commit 
to strictly enforcing the statute and to consider all the relevant 
statutory factors when making determinations in antidumping and 
countervailing duty investigations.
                             digital trade
    Question. Digital Trade is increasingly important to all aspects of 
the U.S. economy. The Internet sector alone reportedly accounts for 
more than 5 million jobs, and this does not count all of the 
manufacturers and small businesses that rely on digital trade. In 
recent years, the ITC, at my request, has done important analysis of 
barriers to digital trade, an issue of importance to my constituents in 
Oregon. The first of three reports on this subject was released to the 
public in September 2017; the second is expected this fall; and the 
third is due to be delivered in spring 2019.

    Do you view as important the ITC's studies of barriers to digital 
trade? Will you commit to continued analysis of these issues?

    Answer. Yes, for both questions. I view all three of the reports 
the ITC is preparing in this series as important, and I fully support 
completion of the second and third reports, which are due by October 
29, 2018 and March 29, 2019, respectively. I also support continued ITC 
analysis of these issues, particularly as may be requested by this 
committee, the Committee on Ways and Means, and the USTR.

    I understand that Ambassador Froman, in his letter requesting the 
three Commission reports, indicated that USTR intends to classify 
portions of the second and third reports on the basis that they concern 
economic matters relating to national security and that USTR intends to 
treat the two reports as interagency memoranda containing predecisional 
advice subject to the deliberative process privilege.
                    itc independence and objectivity
    Question. The ITC is charged with providing technical advice on 
trade policy issues to USTR and to both this committee and the House 
Ways and Means Committee. The Commission has rightly prided itself in 
the past on the objective, thorough, non-partisan nature of its advice 
to these entities.

    Can you commit to this committee that you will do your utmost to 
ensure the ITC's analysis will be independent and thorough, not rushed, 
and that the process will be driven by substance, rather than political 
pressure?

    Answer. Yes. As a Commissioner, I will do my best to ensure that 
the ITC's analysis remains independent and thorough, timely but not 
rushed, and is driven by substance and not political pressure. It is 
clear from the ITC's enabling legislation that Congress has gone to 
great length to ensure that the ITC is an independent agency in both 
name and reality. The ITC serves Congress and the President best when 
it acts in that capacity.
        consultation with agencies in section 337 investigations
    Question. Section 337 of the Tariff Act of 1930 requires the 
Commission to consult with other Federal departments and agencies--
including the Federal Trade Commission--during the course of its 
section 337 investigations. The FTC and other Federal agencies will 
often have critical insights about the potential impact of section 337 
investigations on competition, including how to maintain vibrant and 
competitive U.S. domestic industries.

    Will you commit to me that, if you are confirmed, the International 
Trade Commission will consult closely with the FTC and other agencies 
on cases where the U.S. public interest is at issue?

    Answer. I understand that section 337 states that ``during the 
course of each investigation under this section, the Commission shall 
consult with, and seek advice and information from, the Department of 
Health and Human Services, the Department of Justice, the Federal Trade 
Commission, and such other departments and agencies as it considers 
appropriate'' (19 U.S.C. Sec. 1337(b)(2)). As a Commissioner, I commit 
to applying the statute and applicable case law to the facts of any 
section 337 investigation before me for deliberation.
                     assessing the balance of trade
    Question. In making assessments about the balance of trade between 
the United States and its trading partners, the President only takes 
into account the trade in goods, and does not include trade in 
services, even though the United States is a global leader in providing 
high-level services to the world.

    In your view, shouldn't services exports be included in assessing 
whether our trade relationship with other countries is balanced?

    Answer. Yes, services exports should be included. Including trade 
in both goods and services provides the most comprehensive picture of 
U.S. global competitiveness.
                 retaliatory tariffs and ``trade wars''
    Question. Shortly after announcing that the United States would be 
imposing tariffs on steel and aluminum, the President tweeted that 
``trade wars are good, and easy to win.''

    In light of the retaliatory tariffs and other repercussions that 
U.S. businesses and workers are now facing from our trading partners, 
do you agree with the President's statement that ``trade wars are good, 
and easy to win?''

    Answer. No.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. My bill, the Leveling the Playing Field Act, became law 
in 2015 and strengthened U.S. trade remedy statutes. One specific 
provision of the law expanded the criteria the ITC must consider when 
evaluating industry and clarified that an industry can be profitable 
but still be injured by imports. These provisions were enacted to 
ensure that U.S. businesses and workers could obtain relief from unfair 
trade practices without having to close their doors or lose their jobs.

    If confirmed, will you commit to fully implementing the Leveling 
the Playing Field Act, including the changes to injury criteria, as 
Congress intended?

    Answer. I am aware that the Leveling the Playing Field Act, which 
became law in 2015, expanded the criteria the Commission must consider 
in antidumping and countervailing duty investigations including 
clarifying that the domestic industry can be profitable but still 
injured by imports. If confirmed, I commit to strictly enforcing the 
statute and to consider all the relevant statutory factors when making 
determinations in antidumping and countervailing duty investigations.

    Question. In making its injury determinations, the ITC decides 
whether U.S. industries and workers obtain relief from unfair trade 
practices.

    If confirmed, will you commit to applying trade remedy law in a way 
that ensures there is a real remedy available to industries and workers 
who are adversely affected by unfair trade practices?

    Answer. If confirmed, I commit to strictly enforcing the statute, 
and to evaluate the facts regarding the U.S. industry and workers and 
consider all the relevant statutory factors when making determinations 
in antidumping and countervailing duty investigations.

    Question. Sometimes when U.S. petitioners file trade remedy cases, 
foreign competitors will flood the market with products to beat any 
antidumping or countervailing duties that may be applied. A provision 
in U.S. statute called ``critical circumstances'' is intended to 
provide relief to the U.S. industry in this instance.

    Will you commit to interpreting the law as Congress intended and 
providing retroactive relief when the statutory test for critical 
circumstances is met?

    Answer. I am aware that, in making changes to the statute regarding 
critical circumstances in the URAA, Congress stated ``the legislation 
clarifies that the Commission is to determine whether the surge in 
imports prior to the suspension of liquidation, rather than the failure 
to provide retroactive relief, is likely to seriously undermine the 
remedial effect of the order'' (SAA at 877). The Commission considers 
the list of statutory factors and makes its critical circumstances 
determination independently of Commerce. If confirmed, I commit to 
strictly enforcing the statute, and to evaluate the facts and relevant 
statutory factors to determine whether the test for critical 
circumstances is met.

                 Question Submitted by Hon. John Thune
    Question. I support the administration's efforts to address unfair 
trade practices that are harming U.S. industries. However, I am 
concerned about the impact that anti-dumping and countervailing duties 
can have on U.S. users of the product as a result of antidumping 
investigations.

    Do you think the International Trade Commission's determination on 
an antidumping duty investigation should include an analysis of the 
economic impact to the U.S. consumers of the product that will be 
affected by the duties in instances where the ITC reaches affirmative 
determinations?

    Answer. I am aware that 19 U.S.C. 1677f(h) directs the Commission 
to provide an opportunity for consumers and industrial users of subject 
merchandise to submit relevant information concerning material injury 
by reason of the dumped or subsidized imports. If confirmed, I would 
consider all relevant submissions, including any submitted economic 
analysis, when making determinations in antidumping duty 
investigations.

                                 ______
                                 
               Question Submitted by Hon. Robert Menendez
    Question. Accurate and detailed trade data is necessary for private 
businesses to track imports and exports of their products as well as 
for government agencies to administer trade policy. Section 484f of the 
Tariff Act of 1930 provides authority for the Secretary of Treasury, 
the Secretary of Commerce, and the USITC to adopt statistical reporting 
numbers for these purposes.

    What is your understanding of the current process used by the USITC 
to evaluate requests from industry to adopt more detailed statistical 
reporting numbers than presently exist? What factors do Treasury, 
Commerce, and the USTIC take into consideration when evaluating such a 
request from domestic industry? When such a request is denied, what 
opportunities exist for domestic industry to appeal the ruling?

    Answer. Requests to the 484(f) Committee are accepted based on two 
deadlines: March 15th, for HTS and Schedule B provisions to take effect 
on the following July 1st, and July 15th, for HTS and Schedule B 
provisions to take effect on the following January 1st.

    After an initial review by the USITC to be sure a request is 
complete and contains no confidential information, U.S. Customs and 
Border Protection (CBP) reviews each request for classification and 
administrability. Any issues after both agencies' reviews are worked 
out with the requesting party before sending the request to the U.S. 
Department of Commerce's Bureau of the Census. Census does a trade 
report to determine the annual import level and to be sure there is no 
disclosure involved in publishing the statistical data that would be 
reported in the new annotation. At the same time, USITC's Office of 
Industries also does a staff report focused on the potential benefits 
to the domestic industry/trade of creating the requested statistical 
breakout.

    All committee members meet, usually in late May and in mid-October, 
to discuss the requests received and determine which ones will be 
accepted and which ones will be denied.

    The following criteria are used in the 484(f) Committee's decision-
making process:

          Each proposed 10-digit nonlegal statistical category must 
        cover a product or a grouping of goods typically having $1 
        million in annual trade.

          The proposed annotation must have a clear and administrable 
        description.

          There must be at least 3 importers or exporters reporting 
        shipments in the proposed category on an average monthly basis 
        to avoid disclosure of confidential information.

    Feedback on the committee's processing of requests and on the 
outcomes is provided to each requesting party after the committee 
meeting. If a request is denied, follow-up discussions can be arranged 
with committee members. Any denied request can be resubmitted as soon 
as the next committee cycle with appropriate modifications and/or 
additional information provided that take into account the basis of the 
denial.

                                 ______
                                 
                 Question Submitted by Hon. John Cornyn
    Question. There will soon be billions of computing and 
communications devices that depend on 5G technology, including devices 
that the U.S. Government, private companies, and consumers use for 
critical applications and infrastructure. The United States cannot 
afford to let other nations lead the race to develop and implement 5G 
technology.

    Can you commit that you will take into consideration the national 
security imperative of the United States having a domestic supply base 
that can lead the world in the development of 5G technology and 
products when hearing cases before the ITC?

    Answer. I understand that under section 337, ``if the Commission 
determines, as a result of an investigation under this section, that 
there is a violation of this section, it shall direct that the articles 
concerned, imported by any person violating the provision of this 
section, be excluded from entry into the United States, unless, after 
considering the effect of such exclusion upon the public health and 
welfare, competitive conditions in the United States economy, the 
production of like or directly competitive articles in the United 
States, and United States consumers, it finds that such articles should 
not be excluded from entry.'' As a Commissioner, I commit to applying 
the statute and applicable case law to the facts of any section 337 
investigation before me for deliberation.

                                 ______
                                 
             Questions Submitted by Hon. Patrick J. Toomey
    Question. I have serious concerns about the administration's 
decision to use the pretext of a national security concern to raise 
taxes on imported steel and aluminum products. This policy will 
inevitably increase costs on Pennsylvania consumers, workers, and 
employers. Moreover, the section 232 tariffs punish some of our 
Nation's closest allies, including the European Union, Canada, and 
Mexico, and will invite retaliation on U.S. goods and services.

    As you know, the International Trade Commission (ITC) conducts 
sunset reviews every five years on existing antidumping (AD) and 
countervailing duty (CVD) orders to determine whether revocation of 
those orders would likely cause material injury to the domestic 
industry. During these investigations, Federal statute requires that 
the ITC take into account relevant economic factors within the context 
of the business cycle and competitive factors that are distinctive to 
the affected industry. As a result, future sunset reviews will likely 
be affected by the recently imposed section 232 tariffs on steel and 
aluminum, which are applied in addition to AD/CVD duties already in 
effect. For example, if a 25-percent steel tariff is imposed under 
section 232 on a product that is also under an AD/CVD order, then the 
tariff may reduce the likelihood that future imports of that product 
will injure the domestic industry, and thus the AD/CVD duty is no 
longer needed.

    If confirmed, how will you account for the recently imposed section 
232 tariffs on steel and aluminum during the ITC's 5-year sunset review 
process? Do you anticipate that some AD/CVD orders will be rescinded 
due to the section 232 tariffs?

    Answer. I am aware that section 232 tariffs were recently imposed 
on steel and aluminum products. In 5-year reviews, the statute directs 
the Commission to ``evaluate all relevant economic factors within the 
context of the business cycle and the conditions of competition that 
are distinctive to the affected industry'' (19 U.S.C. 1675a(a)(4)). If 
confirmed, I commit to evaluating trade remedy measures such as the 
section 232 tariffs as a relevant economic factor within the context of 
the conditions of competition for the industry at issue in making 
antidumping and countervailing duty determinations. I cannot speak to a 
particular antidumping or countervailing duty order at this time 
because each determination would be based on evaluating the facts and 
the relevant statutory factors in the review at issue.

    Question. The sunset review process provides the ITC with the 
opportunity to remove AD/CVD duties that are no longer needed to 
protect the domestic industry. However, in practice, ITC rarely revokes 
AD/CVD orders. According to ITC data, between 2013 and 2017, only 23 
orders were revoked under sunset reviews, while 156 new orders were 
imposed. Moreover, these orders cover a substantial value of trade. In 
2017 alone, newly imposed AD/CVD orders resulted in duties on imported 
goods worth approximately $12 billion.

    With that in mind, can you describe how you would approach sunset 
reviews, if confirmed? Do you believe that there are orders currently 
in effect that have outlived their purpose, and if so, which?

    Answer. I am aware that, under the likelihood standard in a 5-year 
review, the Commission will engage in a counterfactual analysis; it 
must decide the likely impact in the reasonably foreseeable future of 
an important change in the status quo--the revocation or termination of 
a proceeding and the elimination of its restraining effects on volumes 
and prices of imports. Thus, the likelihood standard is prospective in 
nature. The U.S. Court of International Trade has found that 
``likely,'' as used in the 5-year review provisions of the Act, means 
``probable.'' If confirmed, I commit to applying that standard in 5-
year reviews when considering the likely volume, price effect, and 
impact of imports of the subject merchandise on the industry if the 
orders are revoked or the suspended investigation is terminated. I 
cannot speak to a particular antidumping or countervailing duty order 
at this time because each determination would be based on evaluating 
the facts and the relevant statutory factors in the review at issue. I 
note however that all parties, including importers, foreign producers, 
and purchasers who may believe that an ``order has outlived its 
usefulness,'' have an opportunity to participate and submit evidence in 
five-year reviews which the Commission will consider with the other 
evidence in the record in making its determination.

    Question. After the Commerce Department receives an AD/CVD 
petition, the ITC conducts a short preliminary investigation before the 
case can advance. The preliminary phrase is designed to avoid 
unnecessary investigations for cases where there is no reasonable 
indication that imports are causing material injury to the domestic 
industry. However, the ITC rarely disapproves preliminary 
investigations. Allowing weak cases to progress to a full investigation 
has several negative consequences, including high legal costs to 
participating firms and taxpayers, as well as market disruptions and 
uncertainty during the course of the investigation.

    Do you consider preliminary investigations to be a useful process 
for weeding out weak cases, or do you think that all petitions deserve 
the expensive investigative process involved in a full investigation?

    Answer. I am aware that at the preliminary phase of antidumping and 
countervailing duty investigations, the Commission determines based on 
the information available to it at the time whether there is a 
reasonable indication that a U.S. industry is materially injured or 
threatened thereof by reason of the subject imports. The reasonable 
indication standard as set forth by the Federal Circuit in American 
Lamb requires more than a finding that there is a possibility of 
material injury.\1\ If confirmed, I commit to applying this standard 
when making preliminary determinations in antidumping and 
countervailing duty investigations.
---------------------------------------------------------------------------
    \1\ Under the American Lamb standard, the Commission weighs the 
evidence before it and determines whether ``(1) the record as a whole 
contains clear and convincing evidence that there is no material injury 
or threat of such injury; and (2) no likelihood exists that contrary 
evidence will arise in a final investigation.'' American Lamb Co. v. 
United States, 785 F.2d 994, 1001-1004 (Fed. Cir. 1986).

                                 ______
                                 
       Prepared Statement of Patrick J. Urda, Nominated to be a 
                  Judge of the United States Tax Court
    Chairman Hatch, Ranking Member Wyden, and members of the Finance 
Committee, it is a privilege and honor to be here today. Thank you for 
holding this hearing to consider my nomination to serve as a judge on 
the United States Tax Court.

    I am grateful to the President for nominating me. I would also like 
to express my thanks to the committee staff for their support 
throughout this process.

    I sit before you as a nominee because of the support of so many 
people, some of whom have joined me today, most importantly, my parents 
Richard and Kathleen Urda. Dad is a solo practitioner in South Bend, 
IN. He has been a role model my entire life, consistently demonstrating 
how to be a good lawyer and a better person. He has a vast knowledge of 
tax, and I'm hoping I've picked up a few of his insights through 
genetics or osmosis. Some of the earliest memories of my mom are 
playing in the halls of St. Mary's College, where she taught 
statistics. As my siblings and I grew older, she spent more time 
teaching us, not just working with us on math or English, but showing 
us--through her own example--about compassion, diligence, service, and 
selflessness. Any talk of my parents cannot help but make me think of 
my siblings--Kathleen, Anne, Libby, and Mike--my best friends, 
confidants, and occasional sparring partners. And I would not be here 
without the love and support of Cristina Cardenas, my fiancee, who 
works tirelessly to improve education for children throughout the 
world.

    I have been truly lucky in terms of colleagues and friends. I've 
learned with and learned from attorneys, office managers, paralegals, 
and legal assistants in Chicago, South Bend, and Washington. I have 
been incredibly fortunate to learn about the tax field from the women 
and men of the Tax Division and my opposing counsel for the last twelve 
years. As to my friends, in a very sincere way, I don't have friends, I 
have family. I thank you all, my family.

    I have been blessed through the years with great mentors. It would 
be impossible to name them all, but, in particular, I thank Judge Dan 
Manion for hiring his first clerk from South Bend and for teaching me 
so much about the law and life. I thank Gil Rothenberg for bringing me 
to the Tax Division and developing my knowledge and passion for the 
subject. And I thank Diana Erbsen for picking me to be her counsel, 
giving me a broader view of the workings of our tax system.

    At the main DOJ building, there is a motto inscribed in Latin that 
translates as ``Our duty is a privilege.'' That has truly been the case 
for me. I feel honored to have had the opportunity to litigate tax 
issues in appellate courts for the last 12 years. My service has taught 
me the breadth and complexity of our tax system, and has equipped me 
with the ability to analyze the strengths and weaknesses of different 
legal positions--whether taxpayers' or the Government's. My job has 
given me a deep appreciation for the important work of the Tax Court, 
and the need for fair and expeditious resolution of tax controversies. 
A long time ago, two wise former AUSAs told me that the Government wins 
its point when justice is done. I try to keep that in mind when I 
litigate in my current position, and justice--consistent with the law--
will be the North Star for me if I am so lucky as to be confirmed. I 
pledge to be impartial in approach, diligent in preparation, and 
absolutely committed to following the law where it leads.

    I look forward to answering the committee's questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Patrick Joseph Urda.

 2.  Position to which nominated: United States Tax Court.

 3.  Date of nomination: August 3, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: August 26, 1976; South Bend, Indiana.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

        1990-1994, St. Joseph High School, South Bend, Indiana; High 
        School Diploma, June 5, 1994.

        1994-1998, University of Notre Dame; B.A. (summa cum laude), 
        May 17, 1998.

        1998--2001, Harvard Law School; J.D., June 7, 2001.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Gonderman Legal Corporation, P.C. (now dissolved), South Bend, 
        Indiana, Summer Associate (Summer 1998, Summer 1999).

        McDermott, Will, and Emery, Chicago, Illinois, Associate (2001-
        2003); Summer Associate (Summer 2000).

        Maciorowski, Sackmann, and Ulrich, Chicago, Illinois, associate 
        (2003-2004).

        United States Court of Appeals for the Seventh Circuit, South 
        Bend, Indiana, Law Clerk to the Honorable Daniel A. Manion 
        (2004-2006)

        United States Department of Justice, Tax Division, Washington, 
        DC, Counsel to the Deputy Assistant Attorney General for 
        Appellate and Review (2015-present); Trial Attorney, Appellate 
        Section (2006-present).

        American University, Washington College of Law, Washington, DC, 
        adjunct professor (2012-2015).

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        During my time at the Department of Justice, I also have served 
        on two temporary detail assignments outside the Tax Division: 
        United States Department of Justice Office of Legal Policy 
        Nominations Counsel (February-May 2017); and United States 
        Department of Justice, Criminal Division, Office of Overseas 
        Prosecutorial Development Assistance and Training, Trainer 
        (August 2017).

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        Hannah's House, Mishawaka, Indiana, Board of Directors (2005-
        2006).

        St. Thomas the Apostle Church, Washington DC, Young Adults 
        Executive Board (2010-2013).

        Washington English Center (formerly Language Etc.), Washington, 
        DC, Associate Board (2014-present).

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        American Society for International Law, Government Attorneys 
        Interest Group, Steering Committee Member (2012-2014).

        Edward Coke Appellate Inn of Court, Member (2017).

        Indiana Society of Washington, DC, Member (2017).

        National Review Institute, Washington Fellow (2012).

        Notre Dame Club of Washington, DC, Member (2006-present 
        (intermittent)).

        Washington English Center, Washington, DC, Volunteer Teacher 
        (2008-present).

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       In 2008, I worked in a volunteer phone bank in support of 
Senator John McCain's presidential campaign, and volunteered on 
Election Day.

       In 2012, I volunteered on Election Day in support of Mitt 
Romney's presidential campaign.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       On October 8, 2012, I contributed $200 to Romney Victory, Inc.

       On August 10, 2011, I contributed $50 to Mullen for Congress.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        United States Department of Justice Distinguished Service 
        Award, 2017.

        Tax Division Outstanding Attorney Award (for work as Counsel), 
        2016.

        Tax Division Outstanding Attorney Award (for work as attorney), 
        2010, 2012, 2014, 2015.

        Internal Revenue Service, Mitchell Rogovin National Outstanding 
        Support to the Office of Chief Counsel Award, 2012.

        Glenn D. Peters Scholarship, 1998-2001.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        None.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        None.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        My experiences as an appellate litigator in the Tax Division of 
        the Department of Justice, my time as a law clerk for the 
        United States Court of Appeals for the Seventh Circuit, and my 
        work in private practice have all prepared me for the position 
        of a judge on the United States Tax Court. During my more than 
        decade of service at the Tax Division, I have litigated a wide 
        variety of tax disputes, and, as a result, I have a strong 
        grounding in the substantive issues and procedural aspects of 
        tax law. Many of these appeals have stemmed from decisions of 
        the Tax Court, which has provided an important perspective into 
        the Court's practice, procedures, and docket. In my 
        professional career, both inside and outside the government, I 
        have learned from numerous colleagues, opposing counsel, 
        mediators, and judges, and I firmly believe that the knowledge 
        gained from them will provide invaluable help in carrying out 
        my responsibilities if I am confirmed as a judge. Good judges 
        are impartial in their approach, diligent in their preparation, 
        and absolutely committed to following where the law leads. 
        Thanks to the opportunities that I have had and my strong 
        desire to continue in public service, I will strive every day 
        to be such a judge.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        I have no plans, commitments, or agreements to pursue outside 
        employment during my service.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        I am not aware of any potential conflicts of interest due to 
        any investments, obligations, liabilities, or other 
        relationships. If confirmed, I will carefully review and 
        address any real or potential conflict of interest by adhering 
        to the Code of Conduct for United States Judges, 28 U.S.C. 
        Sec. 455 and any and all other laws, rules, and practices 
        governing such circumstances.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        During my service in the Tax Division, I have represented the 
        United States in tax-related cases in the United States Courts 
        of Appeal, including appeals from Tax Court decisions. If 
        confirmed, I would recuse myself from any matters in which I 
        participated during my tenure at the Department of Justice.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

        None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        If confirmed, I will carefully review and address any real or 
        potential conflict of interest by adhering to the Code of 
        Conduct for United States Judges, 28 U.S.C. Sec. 455 and any 
        and all other laws, rules, and practices governing such 
        circumstances.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        See Ethics Disclosure (Financial Disclosure Report) provided to 
        the committee.

                      D.  LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
         Questions Submitted for the Record to Patrick J. Urda
                 Question Submitted by Hon. John Thune
    Question. Some have criticized the Tax Court for restricting access 
to court documents, when similar documents are publicly available in 
cases being heard by Federal District and Circuit Courts. I understand 
that steps would have to be taken to protect taxpayers who are 
representing themselves so that personal information is not 
accidentally disclosed. What are your views on whether the Tax Court 
should move to public electronic access via the Internet to court 
documents in order to increase the transparency of the Tax Court's 
proceedings?

    Answer. In my practice as an appellate litigator, I have found 
availability of Federal District and Circuit Court documents on the 
Internet to serve a valuable function, giving litigants efficient 
access to court filings and providing the public a direct view of 
judicial proceedings. Constructing a similar system for the Tax Court 
would necessarily involve answering a wide range of questions, from the 
protection of sensitive taxpayer information to practical issues of 
budgeting and resources. As a nominee to the Tax Court, I am not in a 
position to comment on the feasibility or practicality of building such 
a platform, but, generally, transparency in the tax field serves an 
important role in building taxpayer confidence in the tax system's 
fairness and reliability.

                 Question Submitted by Hon. Bill Nelson
    Question. Given all of the glitches and general confusion created 
by the new tax law (Pub. L. 115-97), how do you plan to help ordinary 
Americans navigate these waters and resolve any complications brought 
on by the new tax law?

    Answer. It has been my experience that clear decisions, firmly 
grounded in statutory language, provide good road maps to help 
taxpayers navigate changes in law and to properly order their affairs. 
The Supreme Court has explained that interpretation of a particular 
provision ``depends upon reading the whole statutory text, considering 
the purpose and context of the statute, and consulting any precedents 
or authorities that inform the analysis'' (Dolan v. Postal Service, 546 
U.S. 481, 486 (2006)). If I am so fortunate as to be confirmed as a 
judge on the Tax Court, I will utilize the tools identified by the 
Supreme Court (as well as the relevant circuit court and the Tax Court 
itself) to interpret the provisions of the new tax law and any related 
administrative guidance.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    This morning the Finance Committee meets to discuss five 
nominations to important positions in the executive branch. Mr. Jeffrey 
Kessler is nominated to serve as Assistant Commerce Secretary for 
Enforcement and Compliance, Ms. Amy Karpel and Mr. Randy Stayin are 
nominated to serve on the U.S. International Trade Commission, and Ms. 
Elizabeth Ann Copeland and Mr. Patrick Urda are nominated to serve as 
judges on the U.S. Tax Court.

    I'll speak briefly on each, beginning with the three trade-related 
nominations. This administration swept into office with a lot of tough 
talk when it came to trade and manufacturing jobs at home.

    I agree that NAFTA needs renegotiating. I agree that the U.S. needs 
to step up with tough action against China's abusive trade practices.

    But after a year and a half of work, the Trump administration has 
managed to unite our traditional allies with China against us. In many 
ways, China is getting away with its cheating scot-free. Instead of 
creating American jobs, this trade policy is creating chaos.

    With respect to today's hearing, the good news is that the three 
trade-related nominees before us are all set to fill enforcement-
related positions. In my view, step one when you're looking to sharpen 
our trade policies and fight for American workers is enforcing the laws 
on the books. Mr. Kessler would fill one of the top jobs at the 
International Trade Administration within the Commerce Department, and 
Ms. Karpel and Mr. Stayin would play key roles as ITC Commissioners 
helping to make sure our trade policies are benefitting American 
workers and businesses. All three are qualified nominees, and I look 
forward to discussing enforcement issues further with them.

    Next are Ms. Copeland and Mr. Urda, who are nominated to serve as 
Tax Court judges. The tax court is the judicial backbone of the Federal 
tax code. It's the best opportunity Americans have to dispute tax bills 
before they have to pay--and it keeps them from getting stuck in slow-
moving courts when they have a tax issue. It's a tough job that 
requires a lot of time on the road. So I'm thankful that Ms. Copeland 
and Mr. Urda are willing to serve.

    Thank you, Chairman Hatch, for convening this hearing. I look 
forward to questions.

                                   [all]


</pre></body></html>
